<html>
<title> - FATHERHOOD</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                               FATHERHOOD

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 1999

                               __________

                             Serial 106-41

                               __________

         Printed for the use of the Committee on Ways and Means


                    U.S. GOVERNMENT PRINTING OFFICE
65-694 CC                   WASHINGTON : 2000



_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel
                                 ------                                

                    Subcommittee on Human Resources

                NANCY L. JOHNSON, Connecticut, Chairman
PHILIP S. ENGLISH, Pennsylvania      BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
RON LEWIS, Kentucky                  ROBERT T. MATSUI, California
MARK FOLEY, Florida                  WILLIAM J. COYNE, Pennsylvania
SCOTT McINNIS, Colorado              WILLIAM J. JEFFERSON, Louisiana
JIM McCRERY, Louisiana
DAVE CAMP, Michigan

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                              ----------                              

                                                                   Page

Advisory of April 20, 1999, announcing the hearing...............     2

                               WITNESSES

U.S. Department of Labor, Raymond J. Uhalde, Deputy Assistant 
  Secretary, Employment and Training.............................     6
                                 ------                                
Center for Law and Social Policy, Vicki Turetsky.................    68
Institute for Responsible Fatherhood and Family Revitalization, 
  Charles Augustus Ballard.......................................    44
Manpower Demonstration Research Corporation, Gordon L. Berlin....    14
National Center for Strategic Nonprofit Planning and Community 
  Leadership, Jeffery M. Johnson.................................    49
National Fatherhood Initiative, Wade F. Horn.....................    27
McLanahan, Sara S., Princeton University.........................    22
Raesz, Robert E., Jr., Austin, TX................................    58
Tate George Dream Shot Foundation, Lisa A. Nkonoki...............    60
UFW Baptist Church, George L. Gay................................    56

                       SUBMISSIONS FOR THE RECORD

ACSW/LMFT, Detroit, MI, David L. Manville, statement and 
  attachments....................................................    81
Alliance for Non-Custodial Parents' Rights, Burbank, CA, John 
  Smith, statement and attachments...............................    83
American Fathers Alliance, Bill Harrington, statement............    90
American Fathers Coalition, Stuart A. Miller, statement and 
  Attachments....................................................    93
Men's Health Network, Cory J. Jensen, statement and attachments..    95
National Child Support Enforcement Association and Child Support 
  Enforcement, Austin, TX, Richard ``Casey'' Hoffman, statement..   100
Oklahomans For Families Alliance, Oklahoma City, OK, Gregory J. 
  Palumbo, statement.............................................   101
Stoutimore, John R., Forth Worth, letter and attachments.........   105



                               FATHERHOOD

                              ----------                              


                        TUESDAY, APRIL 27, 1999

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room B-318, Rayburn House Office Building, Hon. Nancy L. 
Johnson (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

April 20, 1999

No. HR-5

                      Johnson Announces Hearing on

                               Fatherhood

    Congresswoman Nancy L. Johnson (R-CT), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on fatherhood. The hearing 
will take place on Tuesday, April 27, 1999, in room B-318 of the 
Rayburn House Office Building, beginning at 2 p.m.
      
    Oral testimony at this hearing will be from invited witnesses only. 
Witnesses will include representatives from the Administration, 
researchers, program administrators, and advocacy groups. However, any 
individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    Numerous studies suggest that unmarried fathers tend to have lower 
levels of education and income as well as elevated rates of 
unemployment and incarceration as compared with other fathers. These 
problems make it difficult for them to marry and to play a positive 
role in the rearing of their children. Studies also show that the 
consequence of father absence is that children, especially boys, are at 
risk for developing the same problems that afflict their fathers, thus 
creating an intergenerational cycle of school failure, delinquency and 
crime, unemployment, and nonmarital childbirths and child rearing.
      
    Expert witnesses have been invited to discuss what research tells 
us about the economic and social circumstances of unmarried fathers as 
well as the effects of programs designed to help these fathers improve 
their economic status and improve their relationships with the children 
and their children's mothers.
      
    Members of the Subcommittee introduced fatherhood legislation, H.R. 
3314, the ``Fathers Count Act of 1998'' last year, but it was not acted 
on by the Committee. This hearing is the first step in renewing that 
effort.
      
    In announcing the hearing, Chairman Johnson stated: ``The 1996 
welfare reform law has been very successful in helping poor mothers get 
jobs and improve their economic circumstances. The next logical step in 
reforming welfare is to help poor fathers improve their economic 
circumstances and participate directly in the rearing of their 
children. We are holding this hearing to learn about new research on 
the relationship between these young men and women and the prospects 
that they can form two-parent families or at a minimum, work together 
to rear their children. Our Subcommittee is especially interested in 
learning about programs that are now attempting to work directly with 
fathers to achieve these goals.
      

FOCUS OF THE HEARING:

      
    The purpose of this hearing is to continue the Subcommittee's 
examination of the difficulties faced by unmarried fathers of children 
on welfare. The hearing will focus on two issues. First, the 
Subcommittee will hear about new research on the outcomes of programs 
for low-income fathers as well as research on the relationship between 
poor mothers and fathers who have children outside marriage. Second, 
the Subcommittee will hear ahout programs, including the Welfare-to-
Work program authorized under Title IV-A of the Social Security Act, 
that are now being conducted in inner city areas by community-based 
organizations to help unmarried fathers improve their economic status 
and to promote marriage.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
     Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit at least six (6) 
single-spaced copies of their statement, along with an IBM compatible 
3.5-inch diskette in WordPerfect 5.1 format, with their name, address, 
and hearing date noted on a label, by the close of business, Tuesday, 
May 11, 1999, to A.L. Singleton, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, DC 20515. If those filing written statements wish 
to have their statements distributed to the press and interested public 
at the hearing, they may deliver 200 additional copies for this purpose 
to the Subcommittee on Human Resources office, room B-317 Rayburn House 
Office Building, by close of business the day before the hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect 5.1 
format, type in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee with 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
     4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
     The above restrictions and limitations apply only to material 
being submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press 
and the public during the course of a public hearing may be submitted 
in other forms.

      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at `http://WWW.HOUSE.GOV/WAYS__MEANS'/.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Good afternoon. I begin by 
welcoming all our witnesses this afternoon. We are fortunate to 
have such an excellent group of witnesses on the topic of 
problems of fathers. I look forward to learning from them, and 
this Committee looks forward to writing legislation that will 
address some of the new needs that we see out there.
    We do know a few things already. First and foremost is that 
one-third of America's children are born outside of marriage. 
Tragically, the hard fact is that these babies are more likely 
to be abused, to fail in school, to be delinquent, to be on 
welfare, to have non-marital births themselves, and to be 
unemployed and on welfare as adults. But, there are strengths 
within these families that we now ignore. As we will see today, 
at the time these babies are born, their parents have a close 
relationship. Indeed, in many cases they are cohabiting at the 
time of birth. So, these babies are not the result of one-night 
stands.
    While the parents are in a close and often even loving 
relationship at the time of birth, research shows that within 2 
years after birth only 7 percent of these children are living 
in a household with their father. Less than one-third of these 
fathers see their children at least weekly, and fully half have 
no contact at all with their children. This is a national 
tragedy for both the parents and the children.
    Last year, my friend and colleague, Clay Shaw, did the 
Nation a great service by introducing his Fathers Count 
legislation. Mr. Cardin and I are now working on legislation 
that is similar, and we have every intent of marking it up 
before the August recess. We are focusing this legislation on 
two goals: first, we want to help these young fathers to 
improve their economic status, whether that means helping them 
find employment or whether it means helping them improve their 
skills so that they can qualify for better jobs. As a result of 
welfare reform, most States are conducting effective employment 
programs that help young mothers improve their economic status, 
and now we need to do a far more effective job of helping young 
fathers improve theirs.
    The second goal of these programs must be to strengthen the 
bonds between these young fathers and their children and the 
child's mother. Why does the positive relationship between 
mothers and fathers at the time of their child's birth 
dissipate so quickly? What can be done to strengthen these 
bonds and to prevent that dissipation? We want to help these 
fathers meet both their economic and emotional obligations to 
their children.
    We also want to support the development of the kind of 
strong adult ties a child's world depends on and help these 
young couples stay together as friends, as a family unit or to 
form lasting secure marriages. As we reach out to strengthen 
these relationships, the Nation's churches and other community-
based organizations can and should play a major role.
    Since assuming the chairmanship of this Subcommittee, I 
have had occasion to meet and talk with several people who are 
conducting programs specifically designed to help these young 
fathers achieve the goals of work and marriage I have just 
outlined. Several of these people will testify today. Although 
the early evaluations of these programs have not shown that 
they can achieve easy victories, we should not be discouraged. 
It may take many years, substantial resources, and lots of 
blood, sweat, and tears before we can develop truly successful 
programs to help young fathers and their incipient families.
    But, imagine the public policy working through both 
Government and community-based organizations, reconnecting 
fathers with their children, and even bringing fathers, 
mothers, and children together into stable, secure families. 
Does anyone doubt that this would represent the greatest policy 
achievement of our generation?
    Our hearing this morning is simply one more step along that 
path, and it signals my own and I believe my colleague Mr. 
Cardin's commitment as well as that of the Ways and Means 
Committee to attacking this problem. Helping fathers fully 
contribute to and participate in family life is truly the right 
next step in welfare reform.
    Mr. Cardin.
    Mr. Cardin. Thank you, Madam Chair. I want to concur in 
your statement. I agree with everything you have said, and I 
congratulate you for your leadership on this issue in getting 
this Subcommittee and Congress to deal with the issues of 
fatherhood. I am glad that you mentioned Clay Shaw and his work 
last year. I would also like to thank Ron Haskins, our Chief of 
Staff of this Subcommittee, for helping us to focus on what we 
can do constructively in the next step on welfare reform.
    Madam Chair, there is no greater responsibility than the 
duty of a parent to love, support, and care for their children. 
To ensure that both parents meet at least the financial 
portions of their obligations, in 1996 we passed legislation 
that dealt with child support enforcement, and both you and I 
strongly supported that legislation knowing that a prerequisite 
for a parent is to financially support his or her child. These 
provisions targeted non-custodial parents who were able but 
unwilling to support their children. Well, we are here today to 
talk about fathers on the opposite side of the spectrum; those 
who want to support their children but they are unable to 
because of a lack of regular employment. These are dead broke 
dads not dead beat dads.
    Fortunately, we have an existing program that can help us 
deal with this situation, the Welfare-to-Work program. It was 
established by the Balanced Budget Act of 1997 to promote the 
employment of long-term welfare recipients and non-custodial 
fathers of children on welfare. Welfare-to-Work funds can be 
used for a wide array of employment-related services, including 
wage subsidies, on-the-job training, job placement services, 
community service programs, and post-employment services.
    Many communities have developed specific proposals to use 
Welfare-to-Work funds to help fathers, including my own city of 
Baltimore, which has received in the 1998 Welfare-to-Work 
Competitive Grant $3.3 million to provide comprehensive 
services to recipients and non-custodial fathers in public 
housing. Under this program, recipients will have a 6-month 
supported job and then be placed in unsubsidized employment.
    While the Welfare-to-Work grants have stimulated this type 
of positive local initiatives, the program could even be more 
productive if States and communities had greater discretion 
determining eligibility for the program. Therefore, along with 
my Democratic colleagues on the Subcommittee, I have recently 
introduced legislation proposed by President Clinton to 
reauthorize the Welfare-to-Work program in fiscal year 2000 and 
to increase State and local flexibility in administering this 
program.
    The Welfare-to-Work amendments of 1999, H.R. 1482, would 
allow States to enroll many more low-income fathers by 
broadening the program's eligibility criteria. For example, 
under the bill, non-custodial parents would simply have to be 
unemployed or underemployed and have a child receiving TANF, 
food stamps, Medicaid, CHIP, or SSI to be eligible for the 
program rather than being required to comply with two of the 
three specific barriers to employment. Furthermore, to ensure 
that every State attempts to help low-income fathers, the 
legislation would require the States to spend at least 20 
percent of their new formula funding to help non-custodial 
parents support their children.
    By increasing resources and local flexibility in the 
Welfare-to-Work program, we can build an employment 
infrastructure for low-income fathers in the same way many 
States have used TANF to promote employment for low-income 
mothers. I hope we can pursue this opportunity on a bipartisan 
basis this year.
    Before I conclude, I would like to mention one more way to 
promote greater involvement between non-custodial fathers and 
their children and that is passing child support payments 
through to the family on welfare. Because child support paid on 
behalf of TANF families now goes to State welfare agencies 
rather than the family, low-income fathers face an obvious 
disincentive to pay child support. In fact, there was a recent 
MDRC study on the Parents' Fair Share Fatherhood Program, found 
that many low-income fathers resented the fact that their child 
support payments were not going to their children.
    I look forward to listening to the witnesses that we have 
here today, and I join the Chair in acknowledging that we have 
real experts that are with us today. I hope you will share with 
us ways that we can improve the Federal Government's 
participation in this next chapter of welfare reform. Thank 
you, Madam Chair.
    Chairman Johnson of Connecticut. Thank you. I would like to 
call the first panel of witnesses forward, please. Ray Uhalde, 
Deputy Assistant Secretary of the Employment and Training 
Administration, the U.S. Department of Labor, Gordon Berlin, 
senior vice president, Manpower Demonstration Research 
Corporation of New York; Sara McLanahan, Office of Population 
and Research, Princeton University, and Wade Horn, president of 
the National Fatherhood Initiative of Washington, DC. We 
welcome you, and thank you for being here. We are looking 
forward to your testimony.
    I would also like to recognize my other colleagues who are 
here, and thank you very much.
    Let us start with Mr. Uhalde.

  STATEMENT OF RAYMOND J. UHALDE, DEPUTY ASSISTANT SECRETARY, 
       EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF LABOR

    Mr. Uhalde. Thank you, Madam Chair and Members of the 
Subcommittee, for the opportunity to appear before you today to 
discuss fatherhood and the Administration's Welfare-to-Work 
reauthorization proposal. The Administration proposal is 
intended to maintain the focus of Welfare-to-Work programs on 
the hardest to employ welfare recipients while offering 
expanded opportunities to help low-income fathers better 
support their children.
    For welfare reform to succeed, Secretary Herman recognized 
early that only a part of the job is to promote work among 
welfare recipients. We must also strengthen families and the 
well-being and life success of children on welfare, and find 
ways to bring fathers back into their children's lives. This 
means at least financial support of their children, but it also 
means the emotional, nurturing, and coaching support the 
fathers should provide to their children.
    Enacted as part of the 1997 Balanced Budget Act, Welfare-
to-Work is a key component of the Administration's welfare 
reform policy. While welfare caseloads have declined 
dramatically, many individuals remaining on welfare are long-
term recipients who face significant employment barriers. As 
time limits on TANF assistance begin to take effect, these 
individuals are in particular need of the Welfare-to-Work 
program's employment-related services.
    State and local workforce systems established under the 
Workforce Investment Act administer the program and provide 
labor market information and link welfare and workforce 
investment systems together. Welfare-to-Work also provides the 
services non-custodial parents need to become active 
contributors to the emotional and financial well-being of their 
children.
    My formal testimony provides a demographic profile of low- 
income, non-custodial fathers. In 1990, let me just say that 
there were approximately 3.4 million non-custodial fathers with 
income below 200 percent of the poverty line. Twenty-nine 
percent were unemployed or not in the labor force; less than 
one-third worked full-time, year-round. The average wage for 
the employed, non-custodial father is only slightly above the 
minimum wage. Clearly, these fathers have only limited 
resources to support themselves and their families.
    The Department of Labor has had a longstanding interest in 
improving the employment and earnings of low-income fathers. We 
have participated in two demonstration projects focused on 
young, unwed fathers or non-custodial parents. The Public 
Private Ventures Young Unwed Fathers Demonstration and Parents' 
Fair Share. We now participate in a Partners for Fragile 
Families Demonstration through the Welfare-to-Work competitive 
grants.
    Parents' Fair Share demonstrated to us the many challenges 
we face in improving the employment prospects of low-income, 
non-custodial fathers. However, there is evidence from 
evaluations of other employment training programs that they can 
succeed and be effective in serving this target group. The 
Welfare-to-Work Grants Program makes a sizable investment in 
the future economic well-being of non-custodial individuals and 
their families. My formal testimony, again, gives examples of 
projects that have a substantial focus on serving non-custodial 
fathers.
    Based on our experience with Welfare-to-Work and the 
previous research, I believe there are seven principles that 
should govern our approach to serving non-custodial fathers, 
and we have attempted to incorporate these into the Welfare-to-
Work reauthorization. First, for many non-custodial fathers, 
improving the employment and earnings is a pre-condition for 
substantially raising the resources they provide to their 
families. Second, early intervention and formal commitment of 
the non-custodial parent are important. Fathers who feel they 
do not have anything to contribute to the family often do not 
stay connected to their family. Third, we have a window of 
opportunity right now since labor markets are very tight and 
employers are seeking new sources of workers. Many employers 
are experiencing high job vacancy rates and seem more open to 
hiring those with disadvantages. Fourth, appropriate work-
focused employment services are essential. It is important to 
develop a range of services that combine work and skill-
building. Experience indicates non-custodial fathers want 
income-producing jobs quickly; on-the-job training is 
particularly suited to this. Fifth, post-employment services 
that are sustained over a period of time are very important. 
Sixth, programs need to stress improvements in parenting 
skills, support for partnering, peer support, and the like. 
Finally, partnerships between the workforce investment system 
and the child support system to support fathers are beneficial, 
even essential.
    Providing increased employment services to non-custodial 
fathers is essential to reducing poverty among children. And to 
do this requires generating stable employment for such fathers. 
These lessons are the basis for the bill introduced by 
Representative Cardin, H.R. 1482. These amendments reflect the 
Administration's proposal to maintain the focus of Welfare-to-
Work on the hardest to employ welfare recipients while 
expanding employment opportunities for low-income fathers.
    Primary features of Welfare-to-Work are retained--a focus 
on work, targeting resources to individuals and communities 
with the greatest need, being locally administered with 
business-led workforce investment systems. The amendments 
simplify the eligibility and provide greater flexibility to 
States and localities to serve the hard-to-employ welfare 
recipients. Second, the greater focus is on non-custodial 
parents. To promote this objective, the amendments provide that 
at least 20 percent of the formula funds allotted to a State 
are to be used to serve non-custodial parents. The amendments 
add an important feature to strengthen the commitment of the 
non-custodial parent and the Welfare-to-Work program to 
increase child support. Each non-custodial parent participating 
in the program is to enter into an individual responsibility 
contract with the local Welfare-to-Work program and the State 
child support agency. The Welfare-to-Work amendments of 1999 
also increase resources to Indian tribes where the need is 
greatest.
    Madam Chair, this concludes my formal testimony. We need to 
work in a bipartisan manner to help the hardest to serve 
welfare recipients, non-custodial fathers, and their children, 
and I look forward to working with you and other Members of 
this Subcommittee in this important area.
    [The prepared statement follows:]

Statement of Raymond J. Uhalde, Deputy Assistant Secretary, Employment 
and Training, U.S. Department of Labor

    Madam Chairman and Members of the Subcommittee: Thank you 
for the opportunity to appear before you today to discuss 
fatherhood and the Administration's Welfare-to-Work 
reauthorization proposal. The Administration's proposal is 
intended to maintain the focus of the Welfare-to-Work program 
on the hardest-to-serve welfare recipients, while offering 
expanded opportunities to help low-income fathers better 
support their children. Fatherhood is an issue that has been 
important to me for a long time, both in a personal and 
professional sense. For welfare reform to succeed, Secretary 
Herman recognized early on that only a part of the job is to 
promote work among welfare recipients. We must also strengthen 
families. The well-being and life success of children on 
welfare requires that we find ways to bring fathers back into 
their children's lives. This means, at least, financial support 
of their children. But it also means the emotional, nurturing 
and coaching support that fathers should provide to their 
children.

                        Welfare-to-Work Program

    Enacted as part of the 1997 Balanced Budget Act, Welfare-
to-Work is a key component of the Administration's welfare 
reform policy. While welfare caseloads have declined 
dramatically, many individuals remaining on welfare are long-
term recipients who face significant employment barriers. As 
time limits on TANF assistance begin to take effect, these 
individuals are in particular need of the Welfare-to-Work 
program's employment-related services. Administered by the 
Department of Labor and the State and local workforce system 
established under the Workforce Investment Act, the Welfare-to-
Work program links the welfare and workforce investment 
systems, providing labor market information, employment-related 
services, and connections to employers to help hard-to-employ 
welfare recipients find and keep jobs. Welfare-to-Work also 
provides the services noncustodial parents need to become 
active contributors to the emotional and financial well-being 
of their children.

                Characteristics of Noncustodial Fathers

    Statistics on the characteristics of low-income 
noncustodial fathers present a compelling case for increasing 
the focus of Welfare-to-Work on this disadvantaged population. 
These are men who live on the margins of society, and cannot 
support their families. The 1990 Survey of Income and Program 
Participation indicated that there were 3.4 million 
noncustodial fathers with incomes below 200 percent of poverty. 
Forty-three percent of these low-income noncustodial fathers 
were ages 25 to 34, and 16 percent were under 25 years. Twenty-
nine percent were unemployed or not in the labor force. Less 
than one-third worked on a full-time, year-round basis. Average 
wages for employed noncustodial fathers were slightly above the 
minimum wage. Clearly, these fathers have only limited 
resources to support themselves and their children.
    Poor educational attainment contributes to the labor market 
problems of low-income noncustodial fathers About 43% of these 
individuals are high school dropouts. The labor market in the 
United States has gone through rapid technological changes in 
the last 25 years. Most jobs now require more social, cognitive 
and technical skills than in the past. This is an era of 
deteriorating labor market prospects for individuals with 
limited skills and education. The past two decades have brought 
real declines in the wages for such individuals.
    The poor labor market prospects of these low-income 
noncustodial fathers affect families and neighborhoods. At 
least three fourths of these fathers have been arrested or have 
on going legal problems. And 46% of them have been convicted of 
a crime. Research indicates that once a young man has been 
incarcerated, his employment and earnings are substantially 
reduced for many years to come.
    Many low-income noncustodial fathers live in central cities 
that are distant both physically and psychologically from the 
growing job opportunities in the suburbs. Discrimination in 
employment may also complicate the employment prospects for 
minority noncustodial fathers. These noncustodial fathers are 
disproportionately minority; 38% are African-American and 19% 
are Hispanic. The numbers are daunting: almost two million 
minority men live apart from their children and are not working 
full time, year round.
    Noncustodial parents also lack access to social networks 
that can be critical in locating employment. A large proportion 
of jobs is filled by informal recruitment among employers who 
seek referrals from their current employees and other 
acquaintances. Many noncustodial fathers are not a part of 
these social networks, which can greatly enhance employment 
prospects.

               Noncustodial Parent Demonstration Projects

    The Department of Labor has had a long-standing interest in 
improving the employment and earnings of low-income fathers. We 
have participated in two demonstration projects focused on 
young unwed fathers or non-custodial parents: the Public 
Private Ventures Young Unwed Fathers Demonstration and the 
Parents' Fair Share Demonstration. We are now participating in 
the Partners for Fragile Families Demonstration through our 
Welfare-to-Work competitive grants program. In addition, many 
of our training programs and demonstration projects, such as 
JOBSTART the Center for Employment and Training (CET), serve 
unwed fathers.

Parents' Fair Share

    Parents' Fair Share demonstrated to us the many challenges 
we face in improving the employment prospects of low income 
noncustodial fathers. The evaluation found that the program 
increased child support payments, mostly from men who were 
already working but not paying child support before 
participating in the program. This was encouraging news. The 
discouraging finding was that the Parents' Fair Share 
Demonstration did not improve the employment and earnings of 
participants compared to those of a control group, although 
both groups had significant employment rates. Unfortunately, 
the original program design for the Parents' Fair Share 
Demonstration, which included an intensive high support on-the-
job training model, was never implemented. This was, in part, 
due to operational difficulties between the child support and 
employment and training systems, and, in part, due to 
reluctance of employers to participate. Recent changes in the 
workforce and child support systems, and the improved economy, 
would likely enhance the prospects for successfully 
implementing the high support on-the-job-training model. The 
Welfare-to-Work program, which operates through the workforce 
system and includes on-the-job training, is ideally suited to 
ensure fathers receive the employment services they need so 
they can support their children.

JOBSTART and CET

    Evaluation evidence suggests that employment and training 
programs can be effective in serving low-income men, and at-
risk youth who are likely to be unwed fathers. The JOBSTART 
demonstration attempted to replicate the successes of Job Corps 
in serving severely disadvantaged high school dropouts in less 
intensive nonresidential settings. The Center for Employment 
Training (CET) site in the JOBSTART evaluation was 50 percent 
male, and this site raised the earnings of participants by 
$3,000 a year over the control group, during the last two years 
of a four year follow-up. The JOBSTART demonstration overall 
raised the earnings of males with prior arrest records by 
$1,500 during the last year of follow up. In addition, the 
National JTPA Study also found positive results for adult males 
receiving services under JTPA. On-the-job training was 
particularly effective in assisting men, resulting in earnings 
gains of over $2,100, or 10 percent, over the 30-month follow-
up period.

                Welfare-to-Work and Noncustodial Fathers

    The Welfare-to-Work (WtW) Grants Program is making a 
sizeable investment in the future economic well being of 
noncustodial individuals and their families through both 
formula and competitive grants. Expected dividends include 
increased child support payments and reduced welfare 
dependency, and an increase in tax paying individuals capable 
of supporting their families.
    Many states are using Welfare-to-Work formula grants to 
assist noncustodial parents. In FY 1998, over three-quarters of 
the approved State plans indicated that they would expend some 
portion of formula funds on noncustodial parents. This includes 
several States that indicated they would expend the majority of 
formula funds to serve this population.
    Welfare-to-Work grants currently finance a range of 
activities that are designed to move low-income fathers into 
jobs, with an emphasis on jobs that have the potential for 
increased earnings. The Welfare-to-Work funds can be used 
broadly for employment-related activities including: wage 
subsidies in the public or private sector; on-the-job training; 
job readiness; job placement services; post-employment 
services; job vouchers for job readiness; placement or post 
placement services; community service or work experience; job 
retention services and supportive services.
    The Department of Labor announced Round 1 Welfare-to-Work 
competitive grant awards in May 1998; 8 of 51 grants had a 
substantial focus on serving noncustodial parents. Most of 
these grants planned for at least 25% of program participants 
to be noncustodial parents, and two planned to serve 
exclusively noncustodial parents. Of these, five projects had 
specific services and strategies targeted to the needs and 
barriers facing noncustodial parents. These services included 
legal services to help participants be more attractive to 
employers; peer support groups; emphasis on life skills, 
integrity and family responsibility; and outreach and 
recruitment through the courts system. Two grantees planned to 
build on past experience in serving hard-to-employ groups such 
as the homeless and disabled individuals in providing supported 
work environments for noncustodial parents.
    Round 2 Welfare-to-Work competitive grants were awarded in 
November 1998. Twelve of the 75 competitive grantees, with 
funding totalling just over $39 million, proposed to serve at 
least 30% noncustodial parents. Two of these projects will 
serve noncustodial parents exclusively. In reviewing Round Two 
grants targeted on noncustodial parents, certain themes in 
service strategies arose. These grant proposals tended to 
emphasize:
    (1) commitment to family and fatherhood, combined with 
parenting skills training;
    (2) job readiness, stressing positive attitudinal change 
(workplace behavior, employer expectations, dress, 
interpersonal skills, interviewing skills, job search 
techniques, coping with stress, anger management, etc);
    (3) services to address employment barriers associated with 
substance abuse and a criminal record;
    (4) intensive job retention and supportive services 
including case management, coaching, and peer support 
activities; and
    (5) strategies to recruit noncustodial parents, especially 
working with the court system and child support enforcement 
agencies.
    The Department plans to announce Round 3 Competitive Grants 
in late summer 1999. This round identified noncustodial parents 
as one of five priority populations.
    Some examples of what Welfare-to-Work grants are funding 
for fathers include:
    Institute for Responsible Fathers. The Institute for 
Responsible Fatherhood and Family Revitalization, located in 
Washington, D.C., provides direct services to low income, non-
custodial fathers. The program's goal is to bring the father 
back into the family structure to provide leadership, economic 
and social support, love and nurturing. Services provided 
include: employer connections, a ``people to jobs'' 
transportation network, car donations and repairs and 
automotive training.
     Los Angeles County Private Industry Council. Los Angeles 
County's Noncustodial Parent to Work Project assists long-term 
TANF recipients end their welfare dependency by increasing 
child support payments from 1,625 noncustodial parents of TANF 
supported children. To do so, the project helps unemployed 
noncustodial parents find unsubsidized employment, and helps 
underemployed noncustodial parents increase their earnings--
enabling them to pay more child support. Innovative features of 
this project include developing both parents' capacity to 
financially support their children; bringing together a wide 
range of public and private agencies; addressing noncustodial 
parents' legal issues; providing noncustodial parents with 
access to information concerning child support; and providing 
peer support groups to work to change noncustodial parents' 
attitudes about child support and child rearing.
    DeKalb Economic Opportunity Authority. This Georgia project 
will be conducted as an integral part of the DeKalb Workforce 
Center, which is the county's state-of-the-art One-Stop center. 
The program will be tied into the County's network of five 
Family Resource Centers, three public housing sites and two 
Head Start/Family Development Centers. These centers will be 
important for recruiting and are located in DeKalb's most 
impoverished communities.
    A range of services will be provided to assist noncustodial 
parents in retaining employment and supporting their children. 
This project is an example of how Welfare-to-Work grantees are 
using One-Stop centers to provide services. The specific 
services include: assessment (including commitment to 
responsible fatherhood); substance abuse services; legal 
assistance; job readiness and work maturity (including attitude 
and behavioral issues, workplace behavior, employer 
expectations, dress, interpersonal skills, anger management, 
interviewing skills, job search techniques, and coping with 
stress); parenting skills; case management and job coaching; 
post-placement training (including literacy and GED 
preparation, occupational skills training); ongoing 
transitional support (peer support, job clubs, and case 
management).
    City of Minneapolis. The Fostering Actions To Help Earning 
and Responsibility (FATHER) Program focuses on achieving self-
sufficiency for noncustodial fathers in Northside, Camden, 
Phillips, Central and Powderhorn, Minnesota. The program is an 
innovative attempt to integrate family and employment services 
for noncustodial fathers. Participants will have access to job 
counselors, a database of job openings and transportation that 
will help individuals from the city reach jobs in the suburbs. 
Additionally, child support enforcement officials will work to 
create a flexible child support payment plan and encourage 
fathers to develop and maintain strong emotional bonds with 
their children.
    Private Industry Council of Milwaukee County. Welfare-to-
Work Milwaukee is a collaborative project of the Private 
Industry Council of Milwaukee County and the five local 
agencies responsible for the implementation of Wisconsin Works 
in the county's six regions. The project addresses the long-
term needs of participants, including noncustodial parents 
whose legal problems combined with poor academic and work 
skills bar them from sustained employment. The project uses 
community-based vendors and performance-based contracts. Legal 
services are provided in addition to job placement and post-
employment services.
    Houston Works. Houston Works is the workforce development 
entity for the City of Houston and is collaborating with the 
Houston Community College System, Texas Southern University, 
Southwest Memorial Hospital, Continental Airlines, SEARCH 
Homeless project, HUD, Baylor College of Medicine and the 
Houston Housing Authority. Participants receive job readiness 
counseling; temporary and permanent job placement services, 
post-employment and academic enrichment services. Participants 
also receive life skills, case management and family-based 
assistance and counseling, and transportation services.
    Eastern Workforce Development Board Inc, Muskogee, 
Oklahoma. This project will expand and supplement the Welfare-
to-Work formula program, targeting noncustodial parents. It 
will develop an intensive job retention and employer incentive 
program. The project uses a case management approach and 
leverages resources from other training programs to serve 
children and other family members of participants. The program 
plans to establish an independent Employee Assistance Program 
for employers to help retain new workers.

                            Lessons Learned

    Based on our experience to date with the Welfare-to-Work 
program, and previous demonstrations, research and programs, I 
believe there are certain principles that should govern our 
approach to serving noncustodial fathers. The themes underling 
our Welfare-to-Work reauthorization proposal include:
    <bullet> For many low-income, noncustodial fathers, 
improving employment and earnings is a precondition to 
substantially increasing the resources they provide to their 
families. This requires interventions that address the many 
labor market problems and barriers these fathers face, as well 
as turnover and upward mobility problems. Thus, a wide range of 
services and approaches are important.
    <bullet> Early intervention and a formal commitment of the 
noncustodial parent are important. Fathers who feel that they 
do not have anything to contribute to the family often do not 
stay connected to their family. We know that early intervention 
is crucial to establishing paternity, to helping men assume 
responsibility for their children and to increasing access and 
visitation. The most promising strategy to assist low income 
noncustodial fathers in becoming better parents and productive 
workers is to intervene early with a broad array of employment 
services and interventions that are designed to promote family 
and job stability. Such interventions must help these fathers 
accept the responsibility and obligation of supporting their 
children.
    <bullet> We have a window of opportunity right now, since 
labor markets are very tight and employers are seeking new 
sources of workers. The poor skills and criminal records that 
many poor fathers bring to the labor market are major 
disincentives to employers hiring them under the usual 
circumstances. However, many employers are experiencing high 
job vacancy rates and report difficulties finding workers. Many 
employers seem more open to hiring those with disadvantages. 
This is clearly true for welfare recipients and is likely true 
for low-income fathers.
    <bullet> Appropriate work-focused employment services are 
essential. It is important to develop a range of services that 
combines work and skill building. Experience indicates that 
non-custodial fathers want income producing employment quickly. 
On-the-job training is a particularly effective strategy for 
this group of workers. Further attention needs to be given to 
developing an enhanced on-the-job training strategy for 
noncustodial fathers.
    <bullet> Post-employment services that are sustained over a 
period of time are important. Most noncustodial fathers work 
sporadically or part-time and few have full-time employment on 
a year-round basis. Post-employment services are critical to 
help the fathers keep their jobs and increase their wages.
    <bullet> Programs need to stress improvements in parenting 
skills, support for partnering, peer support, and the like. 
Program experience suggests that fathers benefit from services 
focused on conflict resolution and strengthening parent-child 
relationships.
    <bullet> Partnerships between the workforce investment 
system and the child support system are beneficial. It is 
important to build local partnerships to support fathers. If 
programs are to increase employment and increase child support, 
close collaboration between the workforce development agency, 
the community-based providers, and the child support system is 
necessary.
    Providing increased employment services to noncustodial 
fathers is essential to reducing poverty among children. 
Chronically unemployed, underemployed and uneducated fathers 
with criminal records, substance abuse or other such problems, 
living apart from their children and the mothers of those 
children, are unlikely to be able to assume the responsibility 
of a nurturing and supportive parent. To assume such 
responsibility requires stable employment, which in turn 
requires skill development, accompanied by the supportive and 
family services necessary to succeed in the labor market and 
society.

                 The Welfare-to-Work Amendments of 1999

    These lessons and others we have learned from the first two 
years of the Welfare-to-Work experience are the basis for the 
bill introduced by Representative Cardin last week as H.R. 
1482, the Welfare-to-Work Amendments of 1999. These amendments 
include the Administration's proposal and are intended to 
maintain the focus of the Welfare-to-Work program on the 
hardest-to-serve welfare recipients, while expanding employment 
opportunities to help low-income fathers better support their 
children.
    The primary features of the program are retained--including 
the focus on work, targeting resources to individuals and 
communities with the greatest need, and administration through 
the locally administered, business-led workforce investment 
system. There are several important enhancements to the current 
law.
    First, the amendments simplify the eligibility criteria and 
provide greater flexibility to States and localities to provide 
services to additional categories of hard-to-employ welfare 
recipients and noncustodial parents. Concerns have been raised 
by State and local officials and program operators that the 
current eligibility criteria are too complex and narrow, with 
the result that a significant proportion of the least job ready 
welfare recipients and noncustodial parents are excluded from 
participation. Specifically, the current law requires that at 
least 70 percent of funds must be expended to assist 
participants who have at least two of three specified barriers 
to employment and that the recipient or minor child be a long-
term recipient.
    The proposed amendments provide for separate eligibility 
requirements for recipients and noncustodial parents. With 
respect to recipients, while retaining the requirement for 
long-term recipiency, the amendments provide that they must 
meet one rather than two specified barriers to employment. In 
addition, the amendments simplify the first specified barrier 
to employment, which currently requires that the recipient has 
failed to complete secondary school or obtain a GED and has low 
skills in reading or math. There have been many reports that 
due to past practices, such as social promotion, a significant 
number of recipients who have diplomas still have low basic 
skills and those low skills are a major barrier to employment. 
Therefore, the amendments divide these criteria into two 
separate barriers that allow assistance to recipients who lack 
a high school diploma (or a GED) or have reading, computing or 
math skills at or below the 8th grade level. The amendments 
also add long-term recipients with disabilities, long-term 
recipients who are homeless, and long-term recipients who are 
victims of domestic violence to the categories of recipients 
with employment barriers who may be served by the Welfare-to-
Work program.
    With respect to noncustodial parents, the new criteria 
provide that they be unemployed, underemployed, or having 
difficulty paying child support obligations, and that the minor 
child of the noncustodial parent meets the current requirements 
for long-term recipiency, is eligible for or receiving TANF 
benefits, has received TANF benefits within the preceding year 
but is no longer receiving benefits, or is eligible for or 
receiving Food Stamps, Supplemental Security Income, Medicaid, 
or Childrens' Health Improvement Program assistance. In 
determining the eligible noncustodial parents to be served, a 
preference is to be provided for those parents with minor 
children who are long-term recipients. While providing greater 
flexibility to States and localities, these criteria 
effectively link eligibility for services to both the needs of 
the noncustodial parent and the child.
    Second, the amendments provide a greater focus on 
increasing the employment of noncustodial parents to better 
enable such parents to contribute child support payments and 
other assistance to their children. To promote these objectives 
in all States, the amendments provide that at least 20 percent 
of the formula funds allotted to a State are to be used to 
serve noncustodial parents. This threshold may be met through 
any combination of expenditures under both the 15 percent State 
reserve and the 85 percent of funds allocated to local areas 
under the substate formula. The State plan is to describe how 
these projects will be coordinated to accomplish this result.
    In addition, the amendments add an important feature to 
strengthen the commitment of the noncustodial parent and the 
Welfare-to-Work program to increased child support. Each 
noncustodial parent participating in the program is to enter 
into a personal responsibility contract with the local Welfare-
to-Work program and the State child support agency under which 
the noncustodial parent commits to cooperate in the 
establishment of paternity and in the establishment or 
appropriate modification of a child support order, to make 
regular payments of child support, and to participate in 
services that the program reciprocally commits to provide to 
assist the noncustodial parent in finding and keeping 
employment. In order to protect custodial parents and their 
children who may be at risk of domestic violence, the 
amendments clarify that the Welfare-to-Work program does not 
create new obligations or alter existing requirements or 
protections related to child support cooperation. This contract 
makes clear the expectations and responsibilities of the 
parties involved and provides a framework for attaining the 
program's objectives.
    By expanding eligibility, providing a 20 percent spending 
floor, and incorporating personal responsibility contracts, 
these amendments would build on the existing program to ensure 
the establishment of an infrastructure in every State for 
providing effective services to noncustodial parents. The 
amended program incorporates the previously described lessons 
learned in serving this population.
    In addition, the Welfare-to-Work Amendments of 1999 would 
enhance current law by:
    <bullet> Increasing resources to Indian tribes from the 
current 1 percent of the total to 3 percent, and authorizing 
Indian tribes to apply directly to the Department of Labor for 
Welfare-to-Work Competitive Grants.
    <bullet> Improving resource allocation by recapturing 
unallotted formula funds for competitive grants in the 
subsequent year, and providing a preference in awarding these 
funds to those local applicants and Indian tribes from States 
that did not receive formula grants.
    <bullet> Streamlining reporting requirements through the 
Department of Labor.
    <bullet> Promoting best practices by reserving funds for 
technical assistance, including disseminating innovative 
strategies for serving noncustodial parents.
    In sum, these amendments would reauthorize and enhance the 
WtW program. While our welfare reform efforts have resulted in 
some important early successes, much remains to be done. 
Enactment of the Welfare-to-Work Amendments of 1999 would 
provide significant opportunities to the hard-to-employ welfare 
recipients to make the transition to stable employment and 
assist noncustodial parents in making meaningful contributions 
to their children's well-being.
    Madam Chairman, this concludes my formal testimony. We need 
to work together in a bipartisan manner to help the hardest-to-
serve welfare recipients, noncustodial fathers, and their 
children. I look forward to working with you and other members 
of the Subcommittee on this important subject.

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much for 
your testimony.
    Mr. Berlin.

STATEMENT OF GORDON L. BERLIN, SENIOR VICE PRESIDENT, MANPOWER 
     DEMONSTRATION RESEARCH CORPORATION, NEW YORK, NEW YORK

    Mr. Berlin. Thank you very much. I appreciate the 
opportunity to appear before you today to discuss the results 
from the Parents' Fair Share Demonstration project. This was an 
employment and fatherhood program for low-income, unemployed 
fathers who owe child support. It was authorized by the Family 
Support Act of 1988 with a goal of learning whether the 
employment and training services offered to mothers on welfare 
could also help fathers. It was a response to three problems: 
fathers failure to pay child support, the deteriorating labor 
market position of low-income men with limited educational 
skills, and persistent poverty among children. It was motivated 
by a conviction that it takes two parents to support a child, 
both financially and emotionally.
    The project had three goals: to increase the employment and 
earnings of low-income men, to improve their parenting skills 
and their parent involvement, and, third, to increase the child 
support that they paid. PFS attempted to accomplish this by 
offering four services: employment and training to help fathers 
get jobs and better jobs; parent support and instruction to 
help them in their fatherhood role; enhanced child support 
enforcement to make that system more responsive to the changing 
ability of low-income men to pay child support, and, finally, 
dispute resolution services because we thought that if fathers 
got more involved, there would be more conflicts or 
disagreements, with the custodial parent of the children.
    What were some of the operational lessons from this 
project? First, some lessons about the fathers who 
participated. The fathers who were referred to this program 
were very poor. All of them came through the child support 
enforcement system because they owed child support and weren't 
paying it, and they had children who were on AFDC. Fifty 
percent lacked a high school diploma; many had no permanent 
home, and a surprisingly high 70 percent had an arrest record 
of some form. In addition, these low-income fathers were very 
involved in the lives of their children. And, finally, we 
discovered that the programs were really trying to meet the 
needs of two different groups of fathers. One group worked a 
lot, but they worked in temporary secondary labor market jobs, 
often moving from job to job. They needed better, more stable 
jobs. The second group of fathers were hard to employ. They 
presented a long list of employment barriers, few skills, 
limited formal education, a history of substance abuse, 
homelessness and other difficult problems.
    Next, what are some of the lessons that emerged about 
operating this kind of program? First, building these kinds of 
programs, as Mr. Uhalde said, is challenging. We had to develop 
one program with one message, and we had five or six different 
agencies all trying to coordinate in a partnership to deliver 
the PFS package of services. Each of those agencies--child 
support, fatherhood programs, welfare departments, and 
employment and training programs--had different missions, 
different funding sources, different constituencies, and 
different services that they offered. This particular 
partnership worked best when the child support system played an 
active and committed role. In this program, of course, fathers 
entered through the child support enforcement system, so it was 
very important that that system be a key player in putting the 
program together.
    A second program lesson is that despite these operational 
challenges, the program was successful in engaging fathers in 
parenting and job search services. Beginning with parenting, as 
noted above, fathers in Parents' Fair Share saw their children 
a lot. About 50 percent of them saw their children at least 
once a month. But they were unsure of their role as fathers. 
Many did not grow up with their own fathers; they were often 
discouraged from playing a role by the child's mother's 
parents; they lacked experience and role models, and often 
parenting know-how. Despite these barriers, fathers' interest 
and commitment to their children was demonstrated by their 
participation in the Parents' Fair Share parenting services and 
fatherhood classes, and I think the fathers' interest and 
involvement and commitment to their children is a powerful 
leverage point for both programs and policies. One might sum it 
up by saying if you build a service network for fathers, they 
will come.
     However, if fatherhood services are needed, they are not 
sufficient. In our society, fathers define their roles as being 
providers. Fathers who can't provide often grow estranged from 
their children and the mothers of their children, but to be 
providers, fathers need jobs that pay enough so that they can 
provide both for their children and for themselves. 
Unfortunately, getting fathers better jobs via skill upgrading 
or other means have proved very difficult to implement. It is a 
qualitatively different task than employment and training 
programs have faced in the past.
    What difference did the Parents' Fair Share Program make? 
It made an important difference in increasing the likelihood 
that fathers would pay child support, and it also increased the 
amount of child support paid. It did this in two ways: one was 
by outreach and review of child support cases that the system 
wouldn't normally work. By working these cases, child support 
officials discovered a number of fathers that actually had 
earnings, and they were able to get those fathers to pay child 
support. A second way PFS affected the amount of child support 
paid was by providing a package of services to fathers who did 
not have earings. This package of services, independently, on 
top of the case review effect, also increased the amount of 
child support paid in some sites and the likelihood that 
fathers would pay child support. And, in some places, for 
example, Dayton OH, the increase in the average payment was 
large, about 55 percent higher than in the control group. From 
the point of view of child support administrators, these are 
large increases.
    What difference did Parents' Fair Share make in the 
employment and earnings of these fathers? In this area, 
Parents' Fair Share was less successful, although two of the 
programs did produce increases in employment rates of about 11 
percent. The programmatic challenges of improving the 
employment position of low-income fathers have not yet been 
surmounted successfully either in PFS or in many other 
programs.
    What about the programs effect on fathering and parenting? 
While we will have more information on this soon, the program 
did have an effect on the intensity of father involvement. 
Observations of the peer support component, ethnographic 
interviews with the fathers as recounted in the just released 
MDRC--Russell Sage Foundation published book ``Fathers Fair 
Share'' all indicated that the fathers learned a lot about how 
to be parents. They applied those lessons in their interactions 
with parents. As a result, we have observed increased 
involvement with the custodial parent in decisionmaking. In 
addition, we have seen some evidence that the fathers of 
younger children were the most likely to be involved in the 
lives of their children Finally, there was also some evidence 
in at least a couple of the sites--Dayton, OH and Jacksonville, 
FL--that the fathers participated in additional religious 
service-going with their children and the mother of their 
children as a part of this program. In summary, PFS did appear 
to help fathers become better, more involved parents.
    Very briefly, what are some of the elements we should 
consider in a next generation program? Again, building these 
partnerships among the diverse set of agencies required to meet 
the needs of fathers is critical; investments in partnership 
building at the front end of this kind of complicated program 
is very important. Second, offering fatherhood services can 
make a difference in the parenting skills of low-income 
fathers; the services are needed, wanted and sought after. 
Fathers' interest in and commitment to their children provides 
valuable program leverage, which when coupled with the right 
services can make a difference in fathers' interaction with 
their children. But fatherhood services are necessary but not 
sufficient. Last, and most important, we have to learn what 
works best for whom in the employment and earnings arena. 
Combining skills training in an on-the-job format; combining 
work and education; and effective job retention services are 
all services that we should be systematically testing to learn 
what works. In addition, we have to provide community service 
jobs for those who need immediate employment and can't find it. 
Next, much more work is needed in meeting the needs of the hard 
to employ. The overwhelming majority of the PFS eligibles had 
arrest records. More widespread use of the Federal Bonding 
program in all programs that serve low-income fathers is 
necessary. Finally, it could also be valuable to try to link 
programs for the non-custodial parent with programs for the 
custodial parent, again, in keeping with the original vision 
that I stated of it takes two parents to raise a child, both 
emotionally and financially, even when they aren't married. 
Thank you very much.
    [The prepared statement follows:]

Statement of Gordon L. Berlin, Senior Vice President, Manpower 
Demonstration Research Corporation, New York, New York

    My name is Gordon Berlin. I am a senior vice president at 
the Manpower Demonstration Research Corporation (MDRC). MDRC is 
a non-profit, non-partisan social policy research organization 
created in the mid-1970's to test new approaches to the 
nation's most pressing social problems. Thank you for the 
opportunity to appear before you today to discuss the lessons 
learned from Parents' Fair Share (PFS), an important seven-site 
test of programs that provide employment, parenting, and other 
services to fathers of children receiving welfare, who are 
unemployed and unable to meet their child support obligations. 
In exchange for current and future cooperation with the child 
support system, a partnership of local organizations offered 
fathers services designed to help them: (1) find more stable 
and better-paying jobs; (2) pay child support on a consistent 
basis; and (3) assume a fuller and more responsible parental 
role.
    Authorized by the Family Support Act of 1988, supported by 
a consortium of public and private funders, and operated by 
partnerships of local employment and training programs, child 
support systems, fatherhood groups, welfare departments, and 
family court systems, PFS is the most comprehensive and 
carefully studied effort to provide services to noncustodial 
parents. The program operated for about five years in seven 
sites--Los Angeles, California; Jacksonville, Florida; 
Springfield, Massachusetts; Grand Rapids, Michigan; Trenton, 
New Jersey; Dayton, Ohio; and Memphis, Tennessee.
    The Parents' Fair Share project had three equal goals:
    (1) to increase the employment and earnings of low-income 
noncustodial parents of children receiving welfare;
    (2) to increase child support payments; and
    (3) to support, encourage, and improve fathers' parenting skills.
    PFS was a deliberate attempt to respond to two interrelated 
national concerns: (1) the failure of fathers to establish paternity, 
and reliably and consistently pay owed child support; and (2) the 
deteriorating labor market situation of less-educated men, whose 
inflation adjusted earnings have fallen precipitously over the 23-year 
period (1973-1996). Together, these two problems spawned a third--a 
quarter or more of the nation's children spending a significant share 
of their childhood growing up in a poor, single-parent household, often 
without father involvement. Our national response--tougher child 
support enforcement rules--was most effective in increasing collections 
from noncustodial parents with relatively stable jobs and residence, 
so-called middle-class fathers, but it appeared to have the unintended 
consequence of driving poor, unemployed fathers farther underground, 
and possibly even away from involvement with their children.
    Child support administrators and family court judges faced a 
dilemma. When a noncustodial parent with little work history claimed he 
was unable to pay his child support because of unemployment, it was 
frequently difficult to determine the truth of his claim. In practice, 
courts and agency staff were left with two unsatisfactory options: (1) 
threatening jail in an effort to coerce payment; or (2) sending the 
parent out on his own to look for work. While the first option was 
appropriate for those able but unwilling to pay, neither option was 
appropriate for those who were unable to support their children. 
Further, the agencies and courts often struggle to distinguish the 
unwilling from the unable.
    Parents' Fair Share was designed as a third option that would 
enable the child support system to offer help finding a job to fathers 
who were not paying because they were unemployed, while its 
participation requirement would simultaneously make it difficult for 
fathers who were concealing earnings to continue doing so. Recognizing 
that the key challenge was getting fathers to pay child support not 
just once, but month after month, the program included fatherhood 
services and supports. Program designers hypothesized that reinforcing 
fathers' involvement with their children would help them to be better 
fathers, and better fathers who see their children regularly would be 
more likely to pay child support.

                     The Parents' Fair Share Model

    To meet these challenges, program services were built 
around four core components:
    <bullet> Peer Support. This component was designed to teach 
and encourage positive parenting skills (e.g., supplying 
activities for fathers and children that were age appropriate), 
to provide a group discussion forum where fathers could discuss 
their involvement with their children, to enhance participants' 
life skills (e.g., handling conflicts with the child's mother), 
to strengthen participants' commitment to work, and to inform 
participants about their rights and obligations as noncustodial 
parents. Built around a curriculum MDRC supplied, called 
Responsible Fatherhood, and run by a trained facilitator, this 
component revealed that many of the fathers had a strong 
interest in their children's development, and many were already 
actively involved. But they were frequently unsure of their 
role, having had few role models in their own childhood.
    <bullet> Employment and Training. The goal of these 
activities was to help participants secure long-term, stable 
employment at a wage level that would allow them to support 
themselves and their children. Sites were strongly encouraged 
to offer a variety of services, including job-search 
assistance, opportunities for education, and skills training. 
In addition, since it is preferable to engage participants in 
income-producing activities quickly, sites were encouraged to 
offer opportunities for on-the-job training, paid-work 
experience, and other activities that mix skills training or 
education with part-time employment.
    <bullet> Enhanced child support enforcement. One objective 
of PFS was to increase support payments made on behalf of 
children living in single-parent welfare households. Although a 
legal and administrative structure already existed to establish 
and enforce child support obligations, demonstration sites were 
asked to develop new procedures, services, and incentives in 
this area. These included steps to tie orders to the ever-
changing ability of fathers to pay by expediting the 
modification of child support awards, and/or flexible rules 
that allowed child support orders to be reduced while 
noncustodial parents participated in PFS, and special 
monitoring of the status of PFS cases.
    <bullet> Mediation. Often disagreements between custodial 
and noncustodial parents about visitation, household 
expenditures, lifestyles, child care, and school arrangements--
and the roles and actions of other adults in their children's 
lives--influence child support payment patterns. Thus, 
demonstration sites had to provide opportunities for parents to 
mediate their differences using services modeled on those now 
provided through many family courts in divorce cases.
    The PFS intake process was an important part of the 
demonstration. In most cases, noncustodial parents were 
referred to PFS during court hearings or appointments scheduled 
by CSE staff in response to the parents' failure to make court-
ordered support payments. Several of the sites put in place new 
procedures to identify parents who appeared to be eligible for 
PFS (whose child support cases would typically have low 
enforcement priority) and scheduled special hearings or 
appointments to review their reasons for nonpayment. Parents 
who cited unemployment as the reason for their nonsupport were 
ordered to attend PFS activities until they found a job and 
began paying support. In some sites, parents just establishing 
paternity were also referred to PFS when they had no means to 
meet child support obligations.

                            Recent Findings

    In recent months, MDRC has released two important reports 
on the Parents' Fair Share program experience. Building 
Opportunities, Enforcing Obligations: Implementation and 
Interim Impacts of Parents' Fair Share summarizes the program's 
implementation experience and presents the first evidence on 
its effects on employment and child support. Fathers' Fair 
Share: Helping Poor Men Manage Child Support and Fatherhood, a 
book published by the Russell Sage Foundation, provides a rich 
ethnographic portrait of PFS-eligible low-income fathers' 
lives. A third report, Promoting Non-custodial Parents' 
Involvement with their Children, will be released later this 
year. It explores the program's effect on parental involvement.
    In this summary testimony, I draw primarily on the first 
two reports. The impact findings that are presented are only 
the first chapter in the PFS story because they rely solely on 
administrative records, cover only a part of the full PFS 
impact study group, provide only six quarters of follow-up, and 
do not cover several key goals of the program. Most of this 
information is based on administrative records--child support 
and earnings data--maintained by the participating states. 
Later this year, we will be analyzing survey data that will 
help us get a handle on informal employment and child support 
payments and involvement with their children, information that 
is not captured in administrative records.

                         Implementation Lessons

    Implementing PFS presented significant management 
challenges; most sites were able to meet this challenge. To 
successfully implement PFS, the local partners had to change 
their standard operating procedures in ways that often 
conflicted with pre-existing agency priorities. Local child 
support enforcement agencies were asked to focus attention on 
cases without known income, cases that typically received 
little attention. Employment and training agencies that usually 
serve volunteers were asked to work with men who were mandated 
to participate by the courts, and they were being asked to help 
them find better jobs, a qualitatively different task than most 
of these agencies had performed in the past. Finally, 
community-based fatherhood organizations were now partners in a 
program that could sanction men who failed to meet their 
mandatory participation requirement.
    The majority of the noncustodial parents referred to PFS 
were living in poverty, with a recent history of moving from 
one low-wage job to another. Many PFS fathers faced substantial 
barriers to mainstream employment: nearly 50 percent lacked a 
high-school diploma, and about 70 percent had been arrested for 
an offense unrelated to child support. Nonetheless, within the 
PFS population, there were fathers for whom finding and keeping 
a job would be an important advance, and others for whom the 
goal was better-paying and more stable employment. Both groups 
were poor. These two different groups required different 
program strategies, and agencies found it difficult to meet 
both needs.
    The sites were successful in engaging fathers in PFS' peer 
support and job search services. Many noncustodial parents 
initially expressed skepticism about the goals and services of 
PFS, based on their perception that the child support system 
was ``stacked against'' them, which program staff had to 
overcome. They did so. Slightly more than two-thirds of the 
noncustodial parents referred to PFS participated in at least 
one PFS program activity. Peer support was the most 
consistently well-run component during the demonstration and 
generally was viewed as the central PFS activity, providing a 
focal point for participants. Most sites relied heavily on job-
search workshops and job clubs, running these activities and 
peer support simultaneously because of parents' strong desire 
to find work quickly.
    Skill-building services, particularly classroom training, 
and on-the-job training, proved to be the PFS activity most 
difficult to implement. Two sites that did emphasize the goal 
of getting participants better jobs than they could find on 
their own made job developers an integral part of their 
program. Three sites--Los Angeles, Grand Rapids, and 
Springfield--were most successful in putting on-the-job 
training and classroom training in place. These sites had 
active leadership that focused on increasing the number of 
skill-building activities.
    Sites in which the child support agency played a leading 
role in PFS showed flexibility in developing new approaches to 
monitoring the status of cases and encouraging participation in 
program services. Because of the differing perspectives of the 
local agencies involved in PFS, agencies could choose to focus 
on their part of the program and not seriously engage in the 
difficult task of coordinating activities. However, in sites in 
which the child support agency played a leading role, staff 
were well positioned to work as a problem-solving team, with 
the child support agency driving the effort. Because fathers 
often find it difficult to negotiate the child support system, 
sites that were committed to removing obstacles to a father's 
participation, and who responded quickly when fathers got jobs, 
were more likely to have impacts.

                      Impacts: The PFS Difference

Child Support

    The PFS intake process alone produced significant increases 
in child support payments to the CSE agency even before any 
referral to PFS services. A special study in three sites--
Dayton, Grand Rapids, and Memphis--isolated the effect of the 
extra outreach and case review undertaken for PFS by the child 
support agency. This review occurred before any referral to 
services. Working with child support cases that the enforcement 
system would not normally work because there was no evidence of 
income, paid off. In all three sites, the PFS intake process 
produced statistically significant increases in both the 
percentage paying support to the child support agency, and the 
average total child support payment amount. These increases 
amounted to nearly an 8 percentage point increase in the 
percent who ever paid any child support, and a $173 increase in 
the average amount of child support paid over an 18-month 
period. While these increases are small, it is important to 
remember that the numbers are averages for everyone in the 
study, the overwhelming majority of whom were not paying any 
child support. Thus, the actual increase in child support paid 
by those who paid is much higher. In sum, the increase in child 
support payments occurred because the extra outreach and case 
review led parents to inform the child support agency of 
previously unreported employment.
    The full PFS program combining employment, parenting, and 
enhanced child support services also had a positive independent 
effect on the share of PFS eligibles who ever paid child 
support. Six months following enrollment in the study, PFS 
eligibles were 4 to 8 percentage points more likely to pay 
child support than a group of comparable noncustodial parents 
who were not eligible for PFS. Somewhat surprisingly, this 
difference only affected average amounts of child support paid 
in some follow-up quarters, possibly because PFS lowered child 
support orders to make them more compatible with the father's 
ability to pay.
    These positive impacts on percentage paying support were 
mainly the result of substantial impacts in three of the seven 
sites--Dayton, Grand Rapids, and Los Angeles. In these three 
cities, the program produced substantial impacts on the 
percentage of parents paying support, in most quarters ranging 
from 10 to 15 percentage points. Often, this amounted to a 15 
to 50 percent increase in the proportion of parents paying 
support. Typically, these increases in support payments led to 
significant increases in the average amount of child support 
paid. In Dayton, the increase in the average payment was 55 
percent higher than a control group that was not eligible for 
PFS services, while in Grand Rapids it was 20 percent.

                               Employment

    Referral to PFS did not produce an overall impact on 
employment rates or earnings across the seven sites. At any 
given time, about half of the fathers enrolled in the study 
were employed. Employment rates among those eligible for PFS 
did not differ significantly from those of the control group 
who were not eligible for PFS.
    Effects on employment varied by site, with two sites 
successfully increasing the percentage of parents who worked at 
some point during the follow-up period. In two sites--Los 
Angeles and Dayton--referral to PFS produced an 11 percentage 
point increase in the proportion of parents who worked at some 
point during the six quarters of follow-up.
    Persistent increases in child support payment rates came 
from parents who were employed in the formal economy. This 
suggests that helping fathers find and keep mainstream jobs is 
indeed essential if the CSE system is going to increase child 
support payment amounts beyond those reported above.

                           Fathers as Parents

    PFS does appear to have affected the quality of father 
involvement more than the amount of visiting. PFS fathers had a 
lot of contact with their children before the program began. 
Nearly half of all fathers in this study visited their children 
at least once a month. PFS does not appear to have affected the 
amount of visiting. Observations of the peer support program in 
operation, and ethnographic interviews with the fathers 
themselves, suggest that peer support helped participants to be 
better fathers. Peer parental support was generally well 
received by the noncustodial parents, providing them an 
opportunity to relate to a peer group in constructive ways, 
discuss troubling personal and societal problems, develop new 
problem-solving skills, and have access to an advocate who 
believed in their potential. As one father reported, ``. . . It 
helped me to be a better father, to get better perspective on 
what I'm supposed to do as a father, and I appreciated that.'' 
In addition, fathers were more likely to get involved in 
decisions involving their children and to have more active 
disagreements with the custodial parent about these decisions. 
Early information suggests that involvement in parenting may be 
most likely to occur when the children are younger, suggesting 
that programs which intervene earlier may be better positioned 
to affect parenting behavior.

                 Program Design and Policy Implications

    The three sites that produced impacts on child support payments 
share the following characteristics: (a) strong involvement of the 
child support agency in PFS; (b) a strong peer support program that 
focused on the importance of supporting children; and (c) in the case 
of Dayton, low existing levels of support payments. In two of the three 
sites that produced child support impacts, the child support 
enforcement agency was in the lead, driving the planning process and 
the management of the program, developing procedures to involve cases 
that would have been given low enforcement priority, and putting in 
place regular reviews of noncompliant cases. In the third site, the 
child support enforcement agency and the welfare department worked 
hand-in-hand to dramatically change the PFS outreach and intake 
process, including targeting cases for whom location information was 
weak, developing new forms of legal notice for hearings, and conducting 
home visits just prior to hearings to encourage an appearance.
    A lack of fit between the employment and training services 
emphasized in the sites and the needs of a substantial portion of the 
PFS parents--better jobs for most, intensive investments to overcome 
barriers to employment for some--as well as, limited job opportunities 
within their neighborhoods, contributed to the lack of overall impacts 
on employment and earnings. Because the PFS sample was largely made up 
of men who had worked--with varying degrees of regularity--at low-
paying jobs, the challenge for the program was helping these men find 
better jobs. Job-search assistance and job-club services, the most 
common employment services in PFS, are effective in helping more people 
find jobs, but they were not well suited to helping people who are 
already employed raise their wage rate or stabilize their work history. 
In Los Angeles and Memphis, where there was a hint of a trend toward 
positive earnings impacts at the end of the follow-up, a much higher 
than average percentage of PFS parents participated in skill-building 
activities (basic education or occupational training), which might have 
been better suited to boost earnings for a group that was already 
working.
    Experimentation with new combinations of services that show greater 
promise is necessary. Finding new ways to combine work and skills-
building services seems important because these parents need income 
quickly and also need to develop a plan for wage progression over time. 
U.S. Department of Labor requirements under the new welfare-to-work 
program that encourage sites that wish to offer skill-building services 
to first get a participant into a job and then provide the education or 
training, may be particularly well suited to noncustodial fathers.
    Job retention services may also be an important program addition. 
These services were added to PFS half-way through the demonstration, 
but most sites were not successful in fully implementing them.
    Jobs were sometimes scarce in these communities and the men had few 
means of getting to locations where jobs were more plentiful. This 
suggests that there may be a need in some communities for a pool of 
time-limited subsidized community service jobs to help men quickly 
start earning a paycheck and build a work history that will make them 
more appealing.
    Low-income noncustodial fathers have a strong commitment to their 
children, but they are often unsure of their role and require support. 
There is a need for services to help low-income fathers learn about, 
and be supported in, the active roles they already play as fathers. 
Parenting is a humbling, imperfect, trial and error experience for all 
fathers. But most fathers have more resources than the men in PFS to 
draw upon in learning how to play that role. Low-income noncustodial 
parents could benefit from supports that helped to fill these gaps when 
they exist.
    While the PFS experience demonstrates that it is possible to build 
the agency partnerships required to deliver services to this 
population, it requires considerable ongoing work. For a program like 
PFS to work, there must be a strong local service partnership, in which 
agencies coming from many different perspectives can achieve a common 
purpose. Technical assistance investments are a critical part of this 
process.
    In summary, we have learned much from Parents' Fair Share about the 
needs of low-income fathers and about the do's and don'ts of delivering 
services. The futures of an important share of the nation's children 
depend on our ability to use these lessons wisely to help fathers play 
an essential role as parents.
    Thank you for this opportunity to present lessons about working 
with low-income parents from the Parents' Fair Share project.

                                <F-dash>

    Chairman Johnson of Connecticut. Thank you very much.
    Sara McLanahan.

STATEMENT OF SARA McLANAHAN, PROFESSOR OF SOCIALOGY AND PUBLIC 
      AFFAIRS, PRINCETON UNIVERSITY, PRINCETON, NEW JERSEY

    Ms. McLanahan. Madam Chair and Members of the Subcommittee, 
thank you very much for the opportunity to speak to you today. 
I have come here to tell you about a major new study of unwed 
parents and their children that my colleagues and I are 
conducting and that I think has important implications for the 
fatherhood initiative that you are discussing.
    As you just said, Chairman Johnson, unwed parents and their 
children are the fastest growing family form in the United 
States today; one-third of all children are born to unwed 
parents. Unfortunately, we know very little about these 
families, and the relationships between the parents, and we 
know even less about the fathers. Our study is designed to 
remedy this situation. We begin at the hospitals by 
interviewing the mothers soon after they have given birth. 
Next, we interview the fathers, either at the hospitals or 
someplace else, as soon as we can find them, and we are finding 
a lot of them in the hospital, I should say. And, finally, we 
plan to follow both parents for at least 4 years to learn about 
their relationships and to learn about how public policies 
affect their relationships and their lives.
    Today, I want to talk to you about our findings from two 
cities: Austin, TX and Oakland, CA. These are two very 
different cities, but, surprisingly, the results and the 
patterns that we are observing are very similar in both cities, 
and I suspect that when we finish collecting data in 20 cities 
and have 4,000 births in our study that the findings of these 
two cities will also be very similar.
    I want to make three points today, and I have included in 
your packet a set of tables, if you could just refer to them. 
The first point I want to emphasize is that the vast majority 
of unwed parents are highly committed to one another and to 
their children at least at birth. Over half of the parents in 
our study were living together when the child was born, and 80 
percent were romantically involved. Nearly 70 percent of the 
parents, both the mothers and fathers, said their chances of 
marriage were 50/50 or better. With respect to the children, 86 
percent of the mothers were planning to put the father's name 
on the birth certificate; 78 percent of the fathers had 
provided financial support during the pregnancy, and over 90 
percent of the mothers wanted the fathers to be involved in 
raising the child. Clearly, these figures belie the myths that 
the mothers don't know who these fathers are and that the 
fathers do not care about their children. The challenge for 
policymakers is to nourish rather than undermine these 
commitments.
    My second point is that most unwed fathers are not in a 
good position to support their new families, as you have heard 
before. Nearly 40 percent of the men in our study have no high 
school degree; another 40 percent have only a high school 
degree. So, only 20 percent had any post-high school education, 
and in today's labor market, that does not bode well for their 
earnings capacity. Those who work have very low earnings, and 
about 20 percent of the fathers had not worked at all in the 
previous year--worked or gone to school.
    Some of the fathers also had personal problems. Eight 
percent had problems with drugs or alcohol; 7 percent of the 
mothers reported the fathers had hit or slapped them, and 4 
percent were in jail at the time of our interviews. We 
interviewed some of the fathers in jail, and we plan to follow 
them also. In sum, despite their good intentions, many of the 
fathers in our study have serious handicaps, both economic and 
personal, and will need a lot of help if they are going to 
maintain stable families.
    My last point speaks to the design of fatherhood 
initiatives. I believe these programs can make a difference if 
they are targeted on the right men. As you know, the Parents' 
Fair Share Program, which Gordon has just spoken about, 
produced rather disappointing results. Fathers in the 
experimental group ended up paying more child support than the 
fathers in the control group, but their earnings and employment 
did not improve. These results are not so surprising. Previous 
evaluations have shown that improving the prospects of men with 
very low skills and low education is a difficult if not 
impossible task. The people who run these programs will tell 
you that a major reason they fail is that the men who 
participate in them are not motivated, and they drop out of the 
programs. The fathers who participated in Parents' Fair Share 
Program also had very limited skills, and their motivation in 
many cases was also poor. Most of them were estranged from 
their children when they entered the program, and some 
participated in lieu of going to jail. They were participating 
out of fear rather than love in some cases. In contrast, new 
unwed fathers are highly motivated and are likely to take 
advantage of the services that fatherhood programs provide. 
They are attached to the mothers and have high hopes for their 
future.
    The birth of the baby is a magic moment for these men and 
their families, and policymakers should not let this moment 
slip by. What this means is that we should start at birth, in 
the hospitals perhaps; we should offer a wide range of services 
to these families, and we should focus on the fathers whose 
relationships are in tact. These are the most motivated men, 
and the mothers want these men involved. The programs are 
likely to have a greater impact if these are the men that are 
receiving the services. And, I would just add, today, that I 
hope that this is not limited to non-custodial fathers. As I 
said, half of the unwed fathers are living with the mothers at 
birth. It would be a shame to say to these men, ``You can't get 
any help unless you don't live with the mother.'' Thank you 
very much.
    [The prepared statement follows:]

Statement of Sara McLanahan, Professor of Sociology and Public Affairs, 
Princeton University, Princeton, New Jersey

    Madam Chair and Members of the Subcommittee: Thank you for 
the opportunity to testify today on this important piece of 
legislation. I have come here to tell you about some findings 
from a major new study of unwed parents that my colleagues and 
I are conducting. I believe our study has important 
implications for the design of fatherhood initiatives. As you 
know, unwed parents and their children are the fastest growing 
families in the United States, accounting for one third of all 
births in 1997. Unfortunately, very little is known about these 
families, and hardly anything is known about the fathers. Our 
study is designed to remedy this situation. We begin at the 
hospitals by interviewing mothers soon after they give birth. 
Next we interview the fathers, either at the hospitals or 
someplace else, as soon we can find them. And finally, we plan 
to follow both parents for at least four years, to study the 
relationships in these fragile families, and to learn how 
government policies affect their lives.
    Today I want to talk to you about our findings from two 
cities--Austin, Texas and Oakland, California. These are two 
very different cities in terms of their policy environments and 
population characteristics. And yet we are finding very similar 
patterns among new unwed parents in both places. Eventually we 
will have data from 20 cities, and our sample will be 
representative of all new unwed parents in large U.S. cities. I 
predict that what is true for Austin and Oakland will be true 
for the rest of the country.
    I want to make three points. First, I want to emphasize 
that the vast majority of unwed parents are highly committed to 
each other and to their children, at least at birth. Over half 
of the parents in our study live together, and 80 percent are 
romantically involved. Nearly 70 percent say their chances of 
marriage are at least fifty-fifty. With respect to the 
children, 86 percent of the mothers are planning to put the 
father's name on the birth certificate, 78 percent of the 
fathers provided support to the mother during the pregnancy, 
and over 90 percent of the mothers want the fathers to help 
raise the child. Clearly, these figures belie the myths that 
unwed mothers do not know who the fathers are, or that unwed 
fathers do not care about their children. The challenge for 
policy makers is to nourish rather than undermine these 
commitments.
    My second point is that most unwed fathers are not in a 
good position to support their new families. Nearly 40 percent 
of the men in our study have no high school degree, and only 20 
percent have any education beyond high school. Almost 20 
percent are not employed at a regular job, and those who do 
work have very low earnings. Some of the fathers have personal 
problems as well. Eight percent have problems with drugs or 
alcohol, and 7 percent are physically abusive to the mothers. 
Four percent were in jail or prison at the time of our 
interview. In sum, despite their good intentions, many of the 
fathers in our study have serious handicaps--both economic and 
personal--and they will need a lot of help if they are going to 
maintain stable families.
    My last point speaks directly to the design of fatherhood 
initiatives. I believe these programs can make a difference, if 
they are target the right men. As you know, the Parents' Fair 
Share program produced disappointing results. Fathers in the 
experimental group ended up paying more child support than 
fathers in the control group. But their earnings and employment 
did not improve. These results are not so surprising. Previous 
evaluations have shown that improving the prospects of men with 
low skills and low education is a difficult, if not impossible, 
task. The people who run these programs will tell you that a 
major reason they fail is that the men who participate in them 
are not motivated and do not stick with the program. The 
fathers who participated in Parents Fair Share program had 
limited skills, and their motivation was poor. Most were 
estranged from their children when they entered the program, 
and some participated in lieu of going to jail.
    In contrast, new unwed fathers are highly motivated and are 
likely to take advantage of the services that fatherhood 
programs provide. They are attached to the mothers and have 
high hopes for their future. The birth of the baby is a ``magic 
moment'' for these men and their families, and policy makers 
should not let this moment slip by.

[GRAPHIC] [TIFF OMITTED] T5694.001

[GRAPHIC] [TIFF OMITTED] T5694.002

[GRAPHIC] [TIFF OMITTED] T5694.003

    Chairman Johnson of Connecticut. Thank you very much; very 
interesting testimony.
    Mr. Horn.

     STATEMENT OF WADE F. HORN, PH.D., PRESIDENT, NATIONAL 
         FATHERHOOD INITIATIVE, GAITHERSBURG, MARYLAND

    Mr. Horn. Thank you very much, Madam Chair and Members of 
the Subcommittee. I appreciate this invitation to address the 
issue of fatherhood promotion. There are five things we ought 
to do if we are serious about promoting fathers in the lives of 
children. First, our culture needs to send a more compelling 
message about the critical role that men play as fathers. 
Currently, fathers are seen as nice to have around; useful as a 
second pair of hands, and, certainly, their money is important, 
but we don't generally, accept that fathers are important also 
as nurturers, disciplinarians, role models, teachers, and so 
forth.
    One way to change the cultural understanding about the 
importance of fathers is through the use of public education 
campaigns. Over the last 3 years, the National Fatherhood 
Initiative has been implementing a series of national public 
service announcement campaigns emphasizing the important role 
that fathers play in the lives of their kids. To date, this 
public service campaign has garnered in excess of $100 million 
in donated broadcast time.
    I know there are those who ``pooh-pooh'' the importance of 
public education campaigns. However, an independent evaluation 
of one particular campaign we implemented in the State of 
Virginia suggests otherwise. This evaluation, performed by 
researchers at the University of Virginia, found that after 
just 1 year, 40,000 fathers in Virginia were spending more time 
with their kids as a result of seeing these ads and 100,000 
non-fathers reported reaching out to support or encourage a 
father in their community, also as a result of this campaign.
    Second, we need to implement not only a pro-father but a 
pro-marriage policy. All available evidence suggests that the 
most effective pathway to an involved, committed, and 
responsible father is marriage. Research consistently documents 
that unmarried men tend, over time, to become disconnected, 
both financially and psychologically, from their children. If 
we want to increase the proportion of children growing up with 
involved and committed fathers, we will have to increase the 
number of children growing up with their married fathers. By 
emphasizing the need to increase the number of kids living with 
real live, in-the-home, married dads, I don't mean to imply 
that we should toss divorce or unwed fathers overboard. We 
don't have a father to spare in this country. We ought to work 
with divorced and unwed fathers. But at the same time we ought 
to be clear that married fatherhood is the ideal. We need to be 
clear about that for both the current generation of fathers and 
for the next generation of fathers. For their children's sake, 
we need to be clear that we expect that men will father 
children within the context of marriage and that we stand ready 
to support them when they do.
    One way to strengthen marriage, particularly in low-income 
communities, is to expand participation in Welfare-to-Work 
employment programs to include the broader population of low-
income males, not only as a means to increase their own life 
prospects but also as a means to increase their 
marriageability. There is actually a literature in the 
psychological field called ``Mate Selectivity'' where we look 
at what makes somebody attractive as a marital partner. What we 
find is that women, and particularly low-income women, do not 
find men attractive as marital partners if they perceive those 
men's economic prospects to be lower than their own. If we 
expect to increase the marriageability of these low-income men, 
we need to expand their economic opportunities so that they 
will, in fact, be more attractive as marital partners to women 
in their communities.
    In expanding employment services to low-income males, we 
should be careful, however, not to condition receipt of 
services upon having fathered a child outside of wedlock. To do 
so, would only serve to introduce perverse incentives for men 
to father children out of wedlock in much the same way that the 
old AFDC system provided perverse incentives for women to bear 
children out of wedlock.
    Third, we need a public policy that supports financially 
the growing number of community-based organizations interested 
in implementing a local fatherhood program. Just 5 years ago, 
at the founding of the National Fatherhood Initiative, we could 
barely find 100 fatherhood programs around the country. Today, 
we stopped counting at 2,000. There are a lot of fatherhood 
programs out there, but most are operating on shoestring 
budgets; some on no budgets at all. We need to provide 
financial support for those programs in order to ensure that 
the fatherhood movement, this expanding field of fatherhood 
intervention, does not collapse.
    Fourth, we need to provide community-based organizations 
with access to information, training, and technical assistance. 
Money is not sufficient. They also need to know what model 
programs work, and the effectiveness of those programs. They 
need to be trained in effective ways of reaching fathers.
    And, finally, while supporting fathers, we can't forget the 
importance of supporting children growing up in fatherless 
households. Four out of ten children tonight will go to sleep 
in a home in which their father does not also live. Those 
children need our support as much as the fathers do. When a 
father is not around, we need to reach out to these fatherless 
children. We need to teach fatherless boys what it means to be 
a responsible man, and we need to teach fatherless daughters 
what to demand from men in their lives.
    The good news is we are starting to see for the first time 
in the last 30 years a leveling off of the number of kids 
growing up in father-absent households. I believe that with 
concerted effort we can actually start to reverse the trend, 
not just stem the tide of fatherless families. But, doing so 
will require that we stand firm on the issue of marriage, for 
marriage--imperfect as it may be--is clearly the most effective 
pathway to a lifetime father. Simply put, effective public 
policy means encouraging more skilled fathering, more work, and 
more marriages. Thank you very much.
    [The prepared statement follows:]

Statement of Wade F. Horn, Ph.D., President, National 
Fatherhood Initiative, Gaithersburg, Maryland

    My name is Wade F. Horn, Ph.D. I am a clinical child 
psychologist and President of the National Fatherhood 
Initiative, an organization whose mission is to improve the 
well-being of children by increasing the number of children 
growing up with an involved, responsible and loving father. 
Formerly, I served as Commissioner for Children, Youth and 
Families within the U.S. Department of Health and Human 
Services, and served as a member of the National Commission on 
Children, the National Commission on Childhood Disability, and 
the U.S. Advisory Board on Welfare Indicators. I appreciate 
this invitation to testify on promising approaches to promoting 
fatherhood.

                   The Consequences of Fatherlessness

    The family is the primary institution through which we 
protect and nurture our children, and upon which free societies 
depend for establishing social order and promoting individual 
liberty and fulfillment. However, over the past several decades 
the United States has been experiencing a dramatic decline in 
the institution of marriage and reliance on two-parent families 
to raise children. Even more precisely, what we have been 
experiencing has been a decline of fatherhood, for when 
marriages fail, or when children are born out of wedlock, it is 
almost always fathers who are absent. The absence of fathers 
has, in turn, severely increased the life risks faced by their 
children.
    Almost 75 percent of American children living in single-
parent families will experience poverty before they turn 
eleven-years-old, compared to only 20 percent of children in 
two-parent families\1\. Children who grow up absent their 
fathers are also more likely to fail at school or to drop 
out\2\, experience behavioral or emotional problems requiring 
psychiatric treatment\3\, engage in early sexual activity\4\, 
and develop drug and alcohol problems\5\.
    Children growing up with absent fathers are especially 
likely to experience violence. They are three times more likely 
to commit suicide as adolescents\6\ and to be victims of child 
abuse or neglect\7\. Violent criminals are also overwhelmingly 
males who grew up without fathers, including up to 60 percent 
of rapists\8\, 75 percent of adolescents charged with 
murder\9\, and 70 percent of juveniles in state reform 
institutions\10\.
    In light of these data, noted developmental psychologist 
Urie Bronfenbrenner has concluded:

          Controlling for factors such as low income, children growing 
        up in [father absent] households are at a greater risk for 
        experiencing a variety of behavioral and educational problems, 
        including extremes of hyperactivity and withdrawal; lack of 
        attentiveness in the classroom; difficulty in deferring 
        gratification; impaired academic achievement; school 
        misbehavior; absenteeism; dropping out; involvement in socially 
        alienated peer groups, and the so-called 'teenage syndrome' of 
        behaviors that tend to hang together--smoking, drinking, early 
        and frequent sexual experience, and in the more extreme cases, 
        drugs, suicide, vandalism, violence, and criminal acts.\11\

            The Historic Role of the Father in Public Policy

    Since the 1950's, the fathers' role in public policy has 
been mostly about paternity establishment and child support 
enforcement. This is not, of course, without merit. Any man who 
fathers a child ought to be held financially responsible for 
that child. But as important as paternity establishment and 
child support enforcement may be, they are by themselves 
unlikely to substantially improve the well-being of children 
for several reasons.
    First, paternity establishment does not equal child 
support. In fact, only one in four single women with children 
living below the poverty line receive any child support from 
the non-custodial father\12\. Some unwed fathers, especially in 
low-income communities, may lack the financial resources to 
provide economically for their children. These men may not be 
so much ``deadbeat,'' as ``deadbroke.''
    Second, even if paternity establishment led to a child 
support award, the average level of child support (about $3,400 
per year\13\) is unlikely to move large numbers of children out 
of poverty. Some may move out of poverty marginally. But, 
absent changes in family structure or workforce attachment, 
moving from poverty to near poverty is not associated with 
significant improvements in child outcomes\14\.
    Third, an exclusive emphasis on child support enforcement 
may only drive these men farther away from their children. As 
word circulates within low-income communities that cooperating 
with paternity establishment but failing to comply with child 
support orders may result in imprisonment or revocation of 
one's driver's license, many may simply choose to become less 
involved with their children. Thus, the unintended consequence 
of an exclusive focus on child support enforcement may be to 
decrease, not increase, the number of children growing up with 
an involved father.
    Finally, a narrow focus on child support enforcement 
ignores the many non-economic contributions that fathers make 
to the well-being of their children. While the provision of 
economic support is certainly important, it is neither the only 
nor the most important role that fathers play. If we want 
fathers to be more than just money machines, we will need a 
public policy that supports their work as nurturers, 
disciplinarians, mentors, moral instructors and skill coaches, 
and not just as economic providers.
    If paternity establishment and child support enforcement by 
themselves are not the answer, then what is?

             Recommendations for a Pro-Father Public Policy

    First, our culture needs to send a more compelling message 
to men as to the critical role they play in the lives of their 
children. Currently, fathers are generally seen as ``nice to 
have around'' and as a source of economic support, but are not 
generally understood as contributing much that is particularly 
unique or irreplaceable to the well-being of their children. To 
counter this rather limited view of the importance of fathers, 
public policy must communicate the critical role fathers play--
as nurturers, as disciplinarians, as teachers, and as role 
models--in the healthy development of their children. One way 
to do this is through the funding of public education 
campaigns.
    Over the past several years, the National Fatherhood 
Initiative has developed and implemented a series of public 
education campaigns designed to highlight the importance of 
fathers to the well-being of children, families and 
communities. Working in conjunction with the Ad Council, we 
developed and distributed nationally a series of TV, radio, and 
print public service announcements (PSAs) designed to raise 
awareness that fathers make unique and irreplaceable 
contributions to the lives of their children, and that 
collectively we need to do more to encourage and support men to 
be good and responsible fathers. To date, this PSA campaign has 
garnered in excess of $100 million in donated broadcasting 
time.
    We also developed, and distributed nationally, a series of 
radio PSAs featuring a mix of celebrities and experts designed 
to remind fathers how important it is for them to spend time 
with their children. Among those who appear in these PSAs are 
General Colin Powell (Ret.), Vice President Al Gore, former HUD 
Secretary Jack Kemp, former U.S. Senators Dan Coats and Bill 
Bradley, U.S. Representatives J.C. Watts and Steve Largent, and 
Penn State football coach Joe Paterno. We also developed a 
state-wide public education campaign promoting responsible 
fatherhood in partnership with the Virginia Department of 
Health.
    For those who may believe that PSA campaigns do not have 
much of an effect, an independent evaluation of the public 
education campaign we developed for the state of Virginia 
suggests otherwise. This evaluation, conducted by researchers 
at the University of Virginia, found (1) nearly 1 of every 3 
adult Virginians could recall having seen the PSAs; (2) 40,000 
fathers reported they were spending more time with their 
children as a result of seeing the ads; (3) and 100,000 non-
fathers reported reaching out to support or encourage a father 
in their community.
    Second, a pro-father public policy must also be a pro-
marriage policy. All available evidence suggests that the most 
effective pathway to involved, committed and responsible 
fatherhood is marriage. Research consistently documents that 
unmarried fathers, whether through divorce or out-of-wedlock 
fathering, tend over time to become disconnected, both 
financially and psychologically, from their children. Forty 
percent of children in father absent homes have not seen their 
father in at least a year. Of the remaining 60 percent, only 
one in five sleeps even one night per month in the father's 
home. Overall, only one in six sees their father an average of 
once or more per week\15\. More than half of all children who 
don't live with their fathers have never even been in their 
father's home\16\.
    Unwed fathers are particularly unlikely to stay connected 
to their children over time. Whereas 57 percent of unwed 
fathers are visiting their child at least once per week during 
the first two years of their child's life, by the time their 
child reaches 7\1/2\ years of age, that percentage drops to 
less than 25 percent\17\. Indeed, approximately 75 percent of 
men who are not living with their children at the time of their 
birth never subsequently live with them\18\.
    Even when unwed fathers are cohabitating with the mother at 
the time of their child's birth, they are very unlikely to stay 
involved in their children's lives over the long term. Although 
a quarter of non-marital births occur to cohabitating couples, 
only four out of ten cohabitating unwed fathers ever go on to 
marry the mother of their children, and those that do are more 
likely to eventually divorce than men who father children 
within marriage\19\. Remarriage, or, in cases of an unwed 
father, marriage to someone other than the child's mother, 
makes it especially unlikely that a non-custodial father will 
remain in contact with his children\20\.
    The inescapable conclusion is this: if we want to increase 
the proportion of children growing up with involved and 
committed fathers, we will have to increase the number of 
children living with their married fathers. Unmarried men, and 
especially unwed fathers, are simply unlikely to stay in 
contact with their children over the long term.
    By emphasizing the need to increase the number of children 
living with married dads, I do not mean to imply that divorced 
or unwed fathers should be tossed overboard. Children need 
their fathers. The fact that their father does not reside in 
the same household does not lessen that need. But in working 
with divorced and never-married fathers, we should not shy away 
from the ideal of married fatherhood. To do otherwise sends an 
ambiguous message to the next generation of fathers. For their 
future children's sakes, we need to be clearer that men should 
wait until they are married before fathering children, and once 
married, they should do everything they can to ensure their 
marriage stays strong and vital.
    One way to strengthen marriage, especially within low-
income communities, is to expand participation in welfare-to-
work employment programs to include the broader population of 
low-income males--not only as a means to increase their own 
life prospects, but also as a means to increase their 
marriageability. Research has found that the availability of a 
suitable potential husband, primarily defined as being employed 
and not in jail or prison, had a greater effect on marriage and 
nonmarital fertility than did AFDC benefit levels\21\. This 
literature indicates clearly that if men are employed, they are 
more attractive as potential marital partners.
    In expanding employment services to low-income males, 
however, government should be careful not to condition receipt 
of services upon having fathered a child out-of-wedlock. To do 
so may only serve to introduce perverse incentives for men to 
father children out-of-wedlock, in much the same way that AFDC 
provided perverse incentives for women to bear children out-of-
wedlock. The cultural and public policy message must be this: 
we stand ready to assist low-income males who play by the rules 
and wait to have children until after they are married.
    Third, public policy needs to do more to support the 
growing number of community-based organizations interested in 
implementing local fatherhood programs. At the founding of the 
National Fatherhood Initiative just five years ago, we could 
barely find a hundred community-based fatherhood programs. 
Today, that number has swelled to well over two thousand. 
Nearly everywhere one turns in every part of the country, there 
seems to be a new interest in implementing fatherhood outreach, 
support, and skill building programs.
    That's the good news. The bad news is that the fatherhood 
field is still quite fragile. Again and again, we hear from 
practitioners of the need to build greater capacity within the 
emerging fatherhood movement. Building capacity requires 
additional resources. Additional resources means money.
    While many private foundations today talk a good talk about 
the need to reach out to and support fathers, far too few 
actually provide any resources to do so. Public funding for 
fatherhood promotion, support and skill building programs is 
practically non-existent. Consequently, most fatherhood 
programs today exist on shoestring budgets. Some on no budgets 
at all. Without additional resources, the nascent fatherhood 
movement is likely to fail.
    In addition, we need more and better evaluations of 
existing fatherhood programs. The truth is we don't know what 
works best and for whom. While there are many promising 
approaches, no approach has yet been proven, using generally 
accepted scientific evaluation methods, to yield its intended 
effects, especially in the long-term. Whatever government 
decides to do in terms of fatherhood promotion, it must also 
commit to providing adequate resources to determine the 
effectiveness of those efforts.
    Fourth, community-based organizations also need access to 
information, training, and technical assistance in what works. 
Providing funding is not enough. Local, community-based 
organizations also need information on effective fatherhood 
outreach, support, and skills building programs. The National 
Fatherhood Initiative has been providing this kind of 
information, resource material, and technical assistance 
through its National Resource Center. To date, NFI's National 
Resource Center has helped to establish well over 200 local, 
community-based fatherhood programs. Every day, we receive 
additional requests from community-based organizations 
interested in establishing a local fatherhood program or 
initiative. We are currently seeking expanded resources in 
order for us to even more effectively meet this need.
    Fifth, while supporting fathers, we can not forget the 
importance of supporting children growing up in father absent 
households. The fact is that nearly 4 out of every 10 children 
in America today--nearly 24 million overall--are growing up in 
a home in which their father does not live. In working with 
fathers, we can not forget the importance of reaching out to 
the fatherless. Although providing a fatherless child with an 
adult male mentor is not the same thing as providing a real 
live, in-the-home, love-the-mother, father, it can be very 
helpful in teaching fatherless boys what it means to be a 
responsible man, and in teaching fatherless daughters what to 
demand from men in their lives.

           Model Federal Legislation to Combat Fatherlessness

    Given these recommendations for a pro-father public policy, 
what would effective federal legislation look like?
    First, federal legislation should provide support for 
public education campaigns to build awareness that fathers 
matter and that the most important thing a father can do is to 
be involved in his children's lives, emotionally as well as 
financially.
    Second, federal legislation should provide financial 
support for a variety of ways of working with fathers, both 
because fathers come in many varieties, and because we do not 
yet know what models for providing fathers with outreach, 
support, and skills are the most effective. And, of course, 
what works with one kind of father in one type of situation, 
may not work with another kind of father in a different 
situation. Federal legislation while setting certain 
priorities, should not hamstring local programs into one 
particular fatherhood intervention model or working with one 
type of father. Federal legislation should be especially 
careful not to condition services to having fathered a child 
out-of-wedlock, as the Clinton Administration's welfare-to-work 
proposal seems to do.
    Third, federal legislation should require that any program 
funded through the legislation should promote married 
fatherhood as the ideal. This does not mean that local programs 
should restrict their efforts to working only with married 
fathers. We must, and should, work with unwed and divorced 
fathers to help them become and remain involved in their 
children's lives. We don't have a father to spare. But at the 
same time, it does children no favor to pretend that unwed or 
divorced fatherhood is the equivalent of married fatherhood. We 
need to be clear that the best situation is for children to 
grow up with a real live, in the home, love the mother, married 
father. Federal legislation should support this goal.
    Fourth, federal legislation should provide support for a 
National Resource Center and Clearinghouse to provide local, 
grassroots organizations with the resources, training, and 
technical assistance they need to provide effective services. 
Funds should also be made available to ensure that local 
programs are adequately trained in outcome based measurement so 
that they can provide more than testimonials as to their 
effectiveness.
    There are, of course, those who would object to such a 
bill. First, there are some who believe government should not 
explicitly promote marriage. Government, these critics will 
maintain, has no business promoting personal ``values.'' 
Instead, they insist, government policy ought to be neutral 
when it comes to marriage.
    This argument might be persuasive if not for the fact that 
for the past thirty years government policy, rather than being 
neutral, has actually punished marriage. For example, when two-
earner couples head for the altar instead of cohabiting, their 
taxes actually go up, costing many middle-income couples $1000 
or more.
    Things are even worse for low-income couples. In fact, 
should a single mother on welfare choose to marry a low-wage 
earner and, in doing so, give her children a real live in-the-
home dad instead of a child support check, her benefits are 
frequently reduced, if not eliminated. According to 
calculations by Eugene Steuerle of the Urban Institute, when a 
man working full-time at a minimum wage job marries a mother on 
welfare with two children, the new family's combined earnings 
plus benefits would be $3,862 less than if the couple did not 
marry and the woman stayed on welfare\22\. Hardly an incentive 
to get or stay married.
    This wouldn't be so bad if marriage didn't matter. But it 
does. And not just a little. It matters a lot. Children fare 
much better when raised in a married, intact, two-parent 
household. In addition, research indicates that both married 
men and married women are happier, healthier, and wealthier 
than their unmarried counterparts. Furthermore, the best 
indicator of the violent crime rate in a community is not race, 
ethnicity or even income, but the prevalence of marriage. Given 
that marriage is good for children, adults and society, public 
policy should not shy away from encouraging more of it.
    A second objection will be that government ought not to be 
in the business of social engineering. But the truth is that in 
some low-income communities, fatherhood and marriage have 
nearly disappeared. And not just recently; but for many 
generations.
    How in the world does a young male growing up in a fourth 
generation fatherless household and in a community largely 
without dads of the married variety, come to understand what 
responsible fatherhood and marriage are all about? How does 
simply dismantling government teach these young men the skills 
to be good, involved and committed dads? And what of the 
children of these fathers? Do we just sit back and say, ``Gee, 
you should have chosen your pop better.''
    Given the clear connection between fatherlessness and such 
social ills as poverty, crime, educational failure, and 
substance abuse, we can not afford social indifference on this 
issue. Government can not solve all of our nation's ills, but 
what it can do it must. The stakes for our nation's children 
are too high for government to be absent on this issue.
    I want to be clear. I'm not suggesting that merely passing 
a piece of legislation is going to magically transform our 
increasingly fatherless nation into a nation of real fathers 
and good husbands. But it would be a start. And start we must, 
for until we solve this crisis of fatherlessness we will be a 
nation in decline.

                               Conclusion

    There exists today no greater single threat to the long-
term well-being of children, our communities or our nation, 
than the increasing number of children being raised without a 
committed, responsible and loving father. Our nation is known 
for its optimism and fondness for reforms of many sorts that 
promise to make society safer, stronger, and richer. Yet, all 
social reforms we have attempted in the past, or may attempt in 
the future, will likely pale in comparison to the good that 
would come if we could turn back the tide of fatherlessness. 
This tide will not be turned easily, and certainly not by 
changes in public policy alone. But public policy can have a 
significant effect upon how potential parents view marriage and 
parental responsibilities.
    The good news is that we are starting to see, for the first 
time in over thirty years, a leveling off of the number of 
children growing up in father absent homes. I believe that with 
concerted effort we can actually reverse the trend toward 
fatherlessness within the next five years. Not simply stop the 
rise in fatherlessness, but reverse it. Doing so will require 
that we stand firm on the issue of marriage, for marriage is 
the most likely--not perfect, but certainly the most likely--
pathway to a lifetime father.
    Simply put: children need their fathers, and men need 
marriage to be good fathers. Effective public policy means 
encouraging more skilled fathering, more work, and more 
marriages.
    I thank you for the opportunity to provide you with this 
testimony, and would be pleased to answer any questions you 
might have concerning my testimony.

                                Endnotes

    1. National Commission on Children, ``Just the Facts: A 
Summary of Recent Information on America's Children and Their 
Families,'' (Washington, D.C.: U.S. Government Printing Office, 
1993).
    2. Debra Dawson, ``Family Structure and Children's Well-
Being: Data from the 1988 National Health Survey,'' Journal of 
Marriage and Family 53 (1991); U.S. Department of Health and 
Human Services, National Center for Health Statistics, ``Survey 
of Child Health,'' (Washington, D.C.: U.S. Government Printing 
Office, 1993).
    3. U.S. Department of Health and Human Services, National 
Center for Health Statistics, ``National Health Interview 
Survey,'' (Hyattsville, MD: U.S. Government Printing Office, 
1988).
    4. Irwin Garfinkel and Sara McLanahan, Single Mothers and 
Their Children (Washington, D.C.: Urban Institute Press, 1986); 
Susan Newcomer and J. Richard Udry, ``Parental Marital Status 
Effects on Adolescent Sexual Behavior,'' Journal of Marriage 
and the Family (May 1987): 235-240.
    5. U.S. Department of Health and Human Services, National 
Center for Health Statistics, ``Survey on Child Health,'' 
(Washington, D.C.: U.S. Government Printing Office, 1993).
    6. Patricia L. McCall and Kenneth C. Land, ``Trends in 
White Male Adolescent Young-Adults and Elderly Suicide: Are 
There Common Underlying Structural Factors?'' Social Science 
Research 23 (1994): 57-81; U.S. Department of Health and Human 
Services, National Center for Health Statistics, ``Survey on 
Child Health,'' (Washington, D.C.: U.S. Government Printing 
Office, 1993).
    7. Catherine M. Malkin and Michael E. Lamb, ``Child 
Maltreatment: A Test of Sociobiological Theory,'' Journal of 
Comparative Family Studies 25 (1994): 121-130.
    8. Nicholas Davidson, ``Life Without Father,'' Policy 
Review (1990).
    9. Dewey Cornell, et al., ``Characteristics of Adolescents 
Charged with Homicide,'' Behavioral Sciences and the Law 5 
(1987): 11-23.
    10. M. Eileen Matlock, et al., ``Family Correlates of 
Social Skills Deficits in Incarcerated and Nonincarcerated 
Adolescents, Adolescence 29 (1994): 119-130.
    11. Urie Bronfenbrenner, ``What do Families do?'' Family 
Affairs (Winter/Spring 1991): 1-6.
    12. Ways and Means Committee, U.S. House of 
Representatives, 1996 Green Book. Washington, D.C., 1996, p. 
580.
    13. Lydia Scoon-Rogers, ``Child Support for Custodial 
Mothers and Fathers: 1995.'' U.S. Census Bureau (Washington, 
D.C.: U.S. Government Printing Office, 1999).
    14. See, for example, Kristen A. Moore, Donna Ruane 
Morrison, Martha Zaslow and Dana A. Glei, Ebbing and Flowing, 
Learning and Growing: Family Economic Resources and Children's 
Development. Paper presented at the Workshop on Welfare and 
Child Development sponsored by the Board of Children and 
Families of the National Institute of Child Health and Human 
Development's Family and Child Well-Being Network.
    15. Frank F. Furstenberg, Jr., and Christine Winquist Nord, 
``Parenting Apart: Patterns of Child Rearing After Marital 
Disruption,'' Journal of Marriage and the Family, (November 
1985): 896.
    16. Frank Furstenberg and Andrew Cherlin, Divided Families: 
What Happens to Children When Parents Part (Cambridge, MA: 
Harvard University Press, 1991).
    17. Robert Lerman and Theodora Ooms, Young Unwed Fathers: 
Changing Roles and Emerging Policies (Philadelphia, PA: Temple, 
1993): 45.
    18. Ibid.
    19. Moore, Kristin A., ``Nonmarital Childbearing in the 
United States.'' In: U.S. Department of Health and Human 
Services, ``Report to Congress on Out-of-Wedlock 
Childbearing,'' DHHS Pub. no. (PHS) 95-1257, (Washington, D.C.: 
U.S. Government Printing Office, 1995): vii.
    20. Linda S. Stephens, ``Will Johnny See Daddy This Week?'' 
Journal of Family Issues 17 (1996): 466-494.
    21. William J. Darity, Jr., and Samuel L. Myers, `` Family 
Structure and the Marginalization of Black Men: Policy 
Implications.'' In M. Belinda Tucker and Claudia Mitchell-
Kernan, eds. The Decline in Marriage Among African-Americans. 
New York: Russell Sage Foundation, 1995, pp. 263-321; see also 
Randall Stokes and Albert Chevan, ``Female-Headed Families: 
Social and Economic Context of Racial Differences,'' Journal of 
Urban Affairs, 18, 1996, pp. 245-268.
    22. Gene Steuerle, ``Removing Marriage Penalties: Is This a 
Preventative Strategy?'' Presentation at The American 
Enterprise Institute conference on ``America's Disconnected 
Youth: Toward a Preventative Strategy.'' Washington, D.C., May 
16, 1996.

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much. I 
appreciate the testimony of the panelists; it was excellent.
    Mr. Uhalde, I certainly agree that we have an opportunity 
to work in a bipartisan fashion to accomplish some important 
objectives this session. I was very pleased that the 
Administration is as interested as the legislators are on this 
subject, but I did want to ask you--and also I appreciated in 
your testimony the many examples you give of programs that the 
Labor Department has had contact with. It does seem to me that 
the Labor Department is well suited to help us with what is a 
fundamental issue here; that is, how do we help these young men 
into employment, and how do we improve their employability and 
enable them to get better paying jobs? And, I think you have 
many new tools, including the more flexible job training 
programs that we have provided in recent years to help you do 
that.
    But, you are not--you have not been traditionally 
associated with the level of human services and family services 
that these programs clearly provide, and in your testimony--I 
can't seem to find exactly where, although, actually, I should 
open this question to Mr. Berlin--as well, this issue of 
coordination; you know, to get a whole new Department of Labor 
involved in services that primarily the Department of Health 
and Human Services has provided--and in my State, I know, the 
biggest problem in welfare reform has been the turf issues. So, 
I am concerned about taking the Welfare-to-Work program and 
trying to turn it into an employment human service program 
within the Department of Labor.
    Mr. Berlin, states in his testimony, ``The experience 
demonstrates that it is possible to build agency partnerships, 
the agency partnerships required to deliver services to this 
population.'' Of course, it is possible. In the 1970's, I was 
chairman of the Family Services Child Guidance Clinic in my own 
community. There were three children's services groups in my 
little tiny town of 70,000, and we could only coordinate 
verbally and on paper. But over the decades, now, we are 
coordinating better, but I hate to pour a lot of money into a 
new program when the agency relationships and the coordinated 
agreements are still embryonic after, really, now, probably in 
the last 4 years since welfare reform, the most dramatic 
incentive to collaborate and cooperate that really has ever 
been amongst us from any level of government. So, I am 
concerned, and I have been told not to ask this question, raise 
this hornet's nest, but I am really concerned about getting 
fatherhood into the Department of Labor. [Laughter.]
    I am also uncontrollable, so, I mean, you just----
[Laughter.]
    But, I do learn from experience; that is why I hold 
hearings.
    Mr. Uhalde. Well, I guess I would start by saying we are in 
the fatherhood business. We are not getting into it. In the 
Workforce Investment Act and, before it, the Job Training 
Partnership Act, we serve fathers; we serve males. Our issue 
has been with relatively low-income males and with dislocated 
workers. We have served many, many hundreds of thousands of 
them over the years. Except for particular efforts, we have not 
focused our attention on making the link with child support 
enforcement agencies to make sure that those increases in 
earnings that fathers had achieved who were non-custodial are 
translated into child support payments. So, we are about the 
business of providing better employment and training services 
for males; that is a principal part of our business.
    Second, the Workforce Investment Act that recently passed 
on a bipartisan basis by the Congress and was signed in August 
of last year, creates a workforce investment system and one-
stop career center that is, again, about 14 different 
Government agencies and programs formally agreeing to partner 
to provide services from vocational rehabilitation, adult basic 
education and literacy, TANF, Welfare-to-Work. So----
    Chairman Johnson of Connecticut. I appreciate that, and I--
--
    Mr. Uhalde [continuing]. This has to be our business.
    Chairman Johnson of Connecticut. I do appreciate that 
change is occurring. It is also occurring very slowly. 
Connecticut was one of the States that got one of the 
demonstration projects from the Department of Labor about a 
decade ago to create one-stop centers, and they really had made 
a dramatic difference, and they provided a wonderful platform 
from which to enlarge the services under welfare reform. But, 
for example, even in your testimony, you say early intervention 
is critical and Ms. McLanahan talks about early intervention 
being at the hospital and shows charts about how 80 percent at 
birth are romantically involved, but we lose that so early, and 
while you can be there for the education services--I mean, for 
the employment services, for the training services that should 
be integral to this, it is sort of breathtaking to imagine the 
Department of Labor running the social service programs for a 
holistic approach to family development problems starting at 
the hospital.
    Mr. Uhalde. Well, child support would also--and in the 
legislation that Mr. Cardin has introduced--be a party to it. 
We would be active partners in that process and the design of 
that program.
    Chairman Johnson of Connecticut. Well, we will discuss this 
much more, because we have lots of questions and another big 
panel, and I know we are going to hear testimony from those who 
want to work with the child support enforcement agency--which 
is the natural nexus for fathers for this panoply of services.
    But, I would just have to say that I am very concerned 
about the development of parallel service systems. In my 
experience, we have got to do far better in child protective 
services in Connecticut where we have a number of waivers. We 
are getting much family focused, much more flexible, better 
integrated, and I am concerned. I do think you are doing a 
wonderful job developing employment services, career 
advancement services, and the next round of welfare evolution 
has got to be able to help people get higher paying jobs. And, 
you certainly are focusing on that and developing, I think, 
some tools to do those things, but I really hate to distract 
you into being in the hospital, trying to deal with the fathers 
in terms of parenting skills and involvement, and I also was 
very surprised--but I will have to come back to this later--
that Mrs. McLanahan says only 10 percent of the fathers had 
drug problems. So, my concept of how we rewrite the Welfare-to-
Work grant is, at this point, probably quite different from 
yours, and I looking forward to working with you on that.
    I yield to my colleague, Mr. Cardin.
    Mr. Cardin. Thank you. I am having a hard time trying to 
reconcile some of Mrs. McLanahan's numbers with common 
observations as well as one of the observations by Mr. Berlin. 
And, that is if we have such a relationship between the father 
and mother; that is, 78 percent of the fathers helping the 
mother during pregnancy and 81 percent being romantically 
involved, and yet Mr. Berlin makes the observation in his 
report that one of the problems was getting non-custodial 
parents to stress skepticism about the goals and services of 
PFS based on their perception that the child support system was 
stacked against them. So, if the fathers believe the child 
support system is stacked against them, one observation could 
be because the monies paid through child support rarely goes 
directly to the family; maybe that is the explanation. What are 
the reasons that fathers don't trust the child support system?
    Mr. Berlin. Well, one of the things that often happens 
either soon after Sara's single mother leaves the hospital, or 
while she is still there, the hospital completes an application 
and enrolls her in Medicaid, so Medicaid can be billed for the 
cost of child birth. The father, then, when he establishes 
paternity is immediately saddled with these Medicaid costs in 
the form of thousands of dollars of child support debts. 
Fathers, in association with child support, start off in debt 
and they are being hounded for life by the child support system 
to pay that debt and they face the risk of being jailed for 
failure to appear at a hearing on child support. Moreover, the 
payments fathers make typically go to the welfare system rather 
than to their children.
    Mr. Cardin. How fast have these numbers dropped? Ms. 
McLanahan, do you know how fast the father's and mother's 
relationship deteriorates once the child is born?
    Ms. McLanahan. We don't know, really, and that is why we 
are doing this study. I mean, we have got some estimates that 
will show you sort of years later that their fathers aren't 
around--we gave some of those numbers earlier--but I think 
another big difference between what I am saying and what Gordon 
is talking about is he is talking about men who are not with 
their children; who have not paid child support; who have then 
been ordered by the judge to participate in this program, and I 
am talking about the birth period. So, it is a different 
population of men. We are in the field right now to reinterview 
these families in Oakland and Austin. We will see how many are 
still around.
    Mr. Cardin. Well, one number, 52 percent that you have 
cohabitating, is certainly radically different than what the 
statistics that we have had on the number of families that are 
participating in TANF being single-parent families. So, this 
is--we don't have half our caseload coming into the two-parent 
programs.
    Ms. McLanahan. Half of these families are on TANF.
    Mr. Cardin. But half----
    Mr. Berlin. But half are not.
    Ms. McLanahan. But half are not. So, that is the point. 
This would be a preventive initiative too. These families 
aren't all on TANF, partly, because the fathers are there, but 
the fact that 80 percent of them have only a high school degree 
or less tells you about their ability to make it.
    Mr. Cardin. So, you are giving us the whole universe here.
    Ms. McLanahan. I am giving you--this is a representative 
sample of all non-marital births.
    Mr. Cardin. OK.
    Ms. McLanahan. And, these----
    Mr. Cardin. Fifty percent of these births will end up 
receiving some form of public assistance?
    Ms. McLanahan. They already are receiving--50 percent are 
receiving public assistance at the time of the birth of the 
child, and these numbers are consistent with what demographers 
are now finding. A decade ago, it looked like about 30 percent 
of new, unwed parents were cohabitating; the number in 5 years 
was up to 40 percent, and now it looks like it is closer to 50 
percent. So, we have this big increase in cohabitation and 
births occurring to cohabiting parents but sort of going along 
outside the welfare population, but many of these people are in 
the welfare population, and some of them will go onto welfare.
    Mr. Cardin. Back to Mr. Berlin on the attitude of the non-
custodial parent toward the child support system. There is a 
mistrust because the first contacts are confrontational, 
adversarial?
    Mr. Berlin. Too often, the child support system is saying 
to fathers that they ought to establish paternity, ``You ought 
to do the right thing, but if you lose your job, instead of 
adjusting the amount owed, we will continue adding to the 
amount of money that you are going to owe the child support 
system, so arrearages keep building.'' We had a lot of examples 
of fathers who were paying regularly. They called the system 
and said, ``I just lost my job, can you cut my order back?'' 
And, the system said, ``No.'' So, part of our mission in 
Parents' Fair Share was getting the child support system to be 
more responsive to the actual ability of fathers to pay.
    Mr. Cardin. Let me just make one more observation. It 
appears from all of your testimony that one of the areas that 
we need to concentrate is follow-up services to the father who 
may be working but the prospect for long-term employment is not 
very good, and the level of income that the father is receiving 
is not very high, so that we can't just say that we have a 
success when the father is working; we need to have services 
that follow the father so that he can have more predictable 
income. I guess, we all agree with that.
    Ms. McLanahan. Yes.
    Mr. Uhalde. Yes, and I would just say that is not unlike 
with the custodial parents, as well, especially with a good 
economy; it is keeping jobs and increasing the earning 
capacity, and that is difficult, because it means mixing work 
and learning while people are working, and we are learning how 
to do that. On-the-job training--high support on-the-job 
training was one initiative for that, and we need to keep 
finding ways and techniques to do it, so we can grow these 
earnings.
    Mr. Cardin. Thank you.
    Chairman Johnson of Connecticut. Mr. English.
    Mr. English. Thank you, Madam Chair. Dr. Horn, welcome; it 
is good to hear from you again. In examining your testimony, I 
noticed that you state that a pro-father public policy must 
also be a pro-marriage policy. In your view, can a well-
designed program aimed at fathers increase marriage rates, and 
is that a reasonable outcome that we should demand of these 
programs?
    Mr. Horn. That remains to be seen, because most programs 
don't try to do that; some do. Charles Ballard's program, for 
example, tries to work to move a couple toward marriage, so 
does Jeff Johnson's program. Efforts to evaluate those programs 
are too new to know precisely the degree to which we can 
achieve success in this area--and I will let them speak about 
their programs in the second panel--but I think it has to be a 
part of what we do.
    The idea that cohabitation rates are going up is not such 
great news if, in the long term, the couples break up, and the 
father disappears from a child's life. As a child psychologist, 
I know from clinical experience, but there is also research 
evidence to back this up, that it is actually worse for a child 
to establish an attachment relationship with a father in the 
early years of the child's life only to have that father 
disappear when the child enters elementary school. The fact 
that we have higher rates of cohabitation, does not necessarily 
translate into more permanent relationships between the child 
and the father. So, I think marriage has to be a piece of what 
we do.
    One obvious questions is, why aren't they getting married? 
If 80 percent of unwed, low-income couples are romantically 
involved and 52 percent are cohabiting, why aren't they getting 
married? I think one of the reasons is that we never bring up 
the topic. When was the last time you went into a welfare 
office and saw a poster on a wall that said marriage was a good 
thing? When was the last time you went to a welfare office and 
they had brochures available providing referrals to pre-marital 
counseling sessions? How many welfare offices even ask the 
couple: ``Are you thinking about getting married? What is 
standing in your way? How can we help you with that?'' We see 
these kinds of questions as off-limits when it comes to what 
the welfare offices are intending to do. I think we have to 
start bringing up the topic and encouraging people to get 
married particularly when they are telling us that they want 
to.
    Mr. English. Dr. Horn, in your testimony--you express 
concern about programs that condition receipt of services upon 
having fathered a child out of wedlock. How do you design an 
intervention, in your view, that avoids that problem?
    Mr. Horn. This concern was heightened for me at a 
fatherhood conference a couple of years ago. Someone brought in 
a poster from New York, and the poster said, ``Unwed father? Do 
we have a program for you, including a state-of-the-art 
physical fitness facility,'' and everybody applauded and said, 
``That is a wonderful thing. Isn't that a great program?'' And, 
I sat there, and I said, ``Where is the program for the guy who 
plays by the rules and doesn't father a child out of wedlock? 
Where is his state-of-the-art physical fitness facility?'' The 
answer is they don't have one. I think what we have to do is 
target low-income communities in terms of economic employment 
opportunities and expanding them as opposed to targeting a 
specific father, a non-custodial father, particularly one who 
has fathered a child out of wedlock. It doesn't mean we say, 
``If you are an unwed father or non-custodial, you can't come 
and be part of this employment program.'' But at least we ought 
to say to those who aren't yet fathers but living in those same 
communities, ``You are absolutely welcome to be a part of this 
program.''
    Mr. English. Doctor, you called for support of a national 
resource center and clearinghouse. Could you offer us some 
details about the goals of such an organization and how it 
would operate?
    Mr. Horn. We operate such a resource center. We get calls 
everyday from community-based organizations wanting to do 
something in the area of fatherhood promotion and intervention. 
They come from a variety of different perspectives; they are 
different types of agencies; they have access to different 
types of fathers, and so forth. The first goal when that phone 
call comes in is to help them think through what are their 
access points to fathers? What is their passion? What is it 
they can really do given their sphere of influence? If, it is a 
hospital administrator, you will give a very different sense 
about what they can do versus a school administrator versus 
someone who works in the child support enforcement arena versus 
somebody who works in a boys and girls club in an inner city. 
What a good resource center does is, rather than trying to fit 
every peg into the same shape hole, is say ``What does your peg 
look like, and let us go find a good program that will fit that 
peg.''
    Mr. English. Madam Chair, I am almost out of time, but I 
want to compliment this panel on the presentation they have 
made. It has certainly given us a lot of material that can be 
the basis for us moving forward this year, and I certainly hope 
we have the opportunity to do that. Thank you very much, and I 
yield back the balance of my time.
    Chairman Johnson of Connecticut. Thank you very much. Mr. 
Lewis.
    Mr. Lewis of Kentucky. Thank you, Madam Chair. Dr. Horn, 
Dr. Johnson, who is on the second panel, says in his testimony 
that poor fathers must first get jobs and take responsibility 
for their children before marriage makes sense. Do you agree 
with that or what would be your--?
    Mr. Horn. I have great sympathy for the idea that we ought 
to help low-income men get good jobs, keep good jobs, and all 
of that. I think that is very important. I, perhaps, have just 
a slightly different lens through which I view this issue. I 
think it is important that we don't reinforce the idea that 
unless you have a good paying job you can't be a good father to 
your children. What that suggests is, for example, my two 
brothers, who are househusbands, are not doing it right, 
because they are not in the paid labor force. At the same time, 
I recognize that a lot of men come to the table with the idea 
that economic provision is a central piece of what they do as 
fathers, and so we ought to pay attention to that. But at the 
same time we ought to help those men expand the notion of what 
they can contribute to their children by disabusing them of the 
notion that it is all about money, it is all about a job. One 
has to do that delicately; one has to do that sensitively. But 
it seems to me that we need to expand the understanding of men 
about what good fathers do and what good men have to contribute 
to the institution of marriage. It is not just about money; it 
is not just about the size of your paycheck that makes you a 
good husband. It is about caring for your wife; it is about 
supporting the wife; it is about encouraging her.
    Mr. Lewis of Kentucky. OK, thank you. Mr. Berlin, Dayton 
increased their child support payments by 50 percent. What are 
your ideas about why they were so successful in that?
    Mr. Berlin. It was an unusual program. First, they did have 
a strong partnership, and they did an extraordinary amount of 
outreach. Most child support workers sit at their desk and look 
for matches on computer screens to tell them that there is 
income. In Dayton, staff actually went out and knocked on 
people's door at the last known address and found many fathers 
that nobody thought could be located and got them involved in 
the program. Some of them were working and weren't reporting 
earnings that the Dayton system was not capturing. Others of 
them who eventually would have gone to work got into the 
service part of this program and went to work, and the system 
knew immediately when they did, and that increased the amount 
of child support paid.
    Mr. Lewis of Kentucky. Thank you.
    Chairman Johnson of Connecticut. Yes, go ahead.
    Mr. McInnis. Thank you, Madam Chair. I guess I find the 
testimony interesting, but the testimony that I find most 
compelling on the panel here is Dr. Horn. I must admit that at 
the beginning I had some skepticism about a public relations 
effort that is going to actually enhance fatherhood, but I 
found the rest of your testimony so absolutely compelling that 
I am now wondering would you mind providing for me, say, a copy 
of some of the print ads or some of the things that you have 
done?
    Mr. Horn. I would be happy to do that.
    [The information had not been received at the time of 
printing.]
    Mr. McInnis. I mean, maybe it works. Maybe I am--and along 
the same line as Ms. McLanahan has done tracking, what is the 
fall-off rate once the commercials stop? I mean, is there any 
kind of long-lasting effect as a result of this?
    Mr. Horn. I will also supply you with the evaluation of our 
work in the State of Virginia. In just the first year of our 
intensive public education campaign, there were clear impacts; 
as I said, 40,000 fathers were now spending more time with 
their kids; 100,000 non-fathers reaching out to a father in 
their community and providing support and encouragement. Then 
they stopped running the ads. A year later, there was 
backtracking--not completely--but there was backtracking on 
those results.
    Anybody who works in the area of cultural and attitudinal 
change knows that you have to be consistent with your messages, 
and if you suddenly stop giving the message that marriage 
matters, or that fathers matters, that littering is a bad 
thing, there is backtracking in terms of the cultural attitudes 
about this stuff.
    Mr. McInnis. As you know, the State that I represent is 
Colorado, and I had preplanned town meetings for the weekend 
which we weren't able to cancel in light of the events that 
took place in Colorado, but, needless to say, during these town 
meetings that was the topic of discussion, and of course the 
family issue comes up, an issue which I think is fundamental to 
some of the difficulties that we face. I just want to tell you, 
I wish I could have had you in Colorado. I think your testimony 
is excellent, and I appreciate all the panel, but, Dr. Horn, I 
found yours especially helpful to me, so I appreciate the 
effort you are putting into this. Thank you, Madam Chair.
    Chairman Johnson of Connecticut. Thank you very much, Mr. 
McInnis, and I thank the panel. To what extent do you all think 
it is important to get involved at birth?
    Mr. Berlin. I think the sooner that programs intervene the 
better. It is logical. In PFS, we have seen some evidence that 
fathers with younger children were more likely to be involved 
in their children's lives as a result of PFS.
    Mr. Horn. I agree. I think it is critical. There is a 
wonderful hospital-based program called Boot Camp for New Dads 
that uses a father-father mentoring model, between fathers 
whose partners gave birth in that hospital 3 to 6 months prior 
and fathers who have expectant partners. It is a very nice way 
of teaching skills for the expectant fathers and encouraging 
their involvement with their children when they are young. And, 
what we know from developmental psychology is the more 
interaction between the father and the child early on, the 
greater the attachment between the child and the father and 
between the father and the child. The stronger that attachment, 
the less likely it is that father will fade out of that child's 
life. But, if you wait till the child is 6, 7, or 8 years of 
age and the only incentive this guy has to be involved in his 
child's life is that you are making him pay child support, but 
he doesn't have a clue who this kid is, because he has never 
been around the child, it is unlikely that that sort of 
intervention will be effective.
    Mr. Uhalde. The Administration's bill, as reflected in Mr. 
Cardin's legislation that he introduced, recognizes both early 
intervention--because there is more likelihood of success with 
early intervention--but also focuses on the children that are 
in greatest need, those that are longest-term welfare 
recipients or approaching the time limits; 19 States of which 
will hit time limits this year. And, so it gives a priority to 
those but allows early intervention as well.
    Chairman Johnson of Connecticut. I would be terribly, 
terribly concerned to get a fatherhood program in place and 
have it any way mixed up with all these other dates, because 
then you would have program people up--I mean, this is why 
Welfare-to-Work hasn't worked, because you can't have program 
people out there and looking through these fathers to see who 
is part of the about to expire 3 months from--even if you open 
up the criteria, I am very concerned about the welfare--the 
whole goal of the Welfare-to-Work was to get at the longest-
term welfare recipients, but a lot of the babies are being born 
to people that are much more recently into the system, and they 
would not fit into the welfare reform criteria nor should they.
    So, I think we really are going to have to give a lot of 
attention to the fact that we may take money from Welfare-to-
Work to do this, but we cannot be limited by the Welfare-to-
Work focus on the adults.
    Mr. Uhalde. We would agree, and our proposal doesn't limit 
it to that; that is correct.
    Ms. McLanahan. I obviously think it is a good idea. I think 
another appealing part of it is that the mothers want the 
fathers involved, and there is a lot of discussion in some of 
these issues when they come up about whether the father is 
dangerous or whether the mothers want the fathers, and about 
the conflict between the parents. Clearly, these data suggest 
that 90 percent of the mothers want these fathers involved. So, 
when you start early, you do not have to deal with those other 
issues of whether the parents are in a conflictual 
relationship, or whether you are actually making things worse 
for the family or the children.
    Chairman Johnson of Connecticut. Well, all of you have 
dealt with the bureaucratic structure that delivers services in 
this country, from the Federal Government down to the States, 
the local government, the non-profit sector, and I honestly 
think we have to take very, very, very seriously the profound 
problems that could emerge from trying to have something that 
starts in the hospital, a Department of Labor program. Now, 
with all due respect, and I certainly want you in there, 
because the husband, the male, is there and needs your 
services, and if you don't get at them and if we don't get this 
going, we can't do it without you, but it is also true that you 
really can't do the motherhood training, all of the things that 
mother needs and the father needs. We have to find a holistic 
approach to these units, and hope that we can help them 
understand what it means to be a family and also why marriage 
creates a more stable environment for a child.
    So, I don't want turf issues to interfere with my trying to 
find a solution to this problem. I don't want you to want--
although I know it is a natural deep-seeded and distinct that 
my comment will not overcome--but we have got to get the 
agencies out of the way while we think about what has to be 
done and then find a way to get you back in to do what you need 
to do. But, because the Welfare-to-Work money is in the 
Department of Labor and because this program is not going to be 
focused on the group that the Welfare-to-Work group was focused 
on, I think we have to face realistically that we are going to 
have to do some rewriting here, and I was pleased that the 
Administration got this out from under the criteria that 
governs the Welfare-to-Work program.
    I really do respect what you do. What you do is terribly 
important. You are getting far better with teenagers than you 
ever were, and we need you, but I think we really have to think 
through how we get a holistic approach to these families.
    The other thing that we will have to go into in more detail 
at some other time is this problem of health insurance and the 
uncovered father, since he is not covered under Medicaid, and 
what could we do about that? And maybe there is a way to bring 
him into Medicaid when he takes on his support programs until 
his income increases or something, but we do have to think 
about those things or if we do provide him with so many 
disincentives--I would also feel very resentful of an agency 
that penalized me every time I tried to do my duty.
    So, thank you very much for your testimony. We do have a 
long way to go. This is a very important issue. We are not 
going to drop it, and so you better put your nose to the 
grindstone or your shoulder to the grindstone or something. OK, 
thanks.
    The next panel is Charles Ballard, the founder and chief 
executive officer of the Institute for Responsible Fatherhood 
and Family Revitalization; Jeffery Johnson, the president and 
chief executive officer of the National Center for Strategic 
Nonprofit Planning and Community Leadership; George Gay, the 
pastor of UFW Baptist Church in New Britain; Robert Raesz, 
attorney from Austin, TX, and Vicki Turetsky, senior staff 
attorney, the Center for Law and Social Policy. And also Lisa 
Nkonoki--good, thank you; I am glad you are here--a co-founder 
and executive director of the Tate George Dreamshot Foundation 
from Newington, CT.
    Mr. Ballard, would you open, please.

   STATEMENT OF CHARLES AUGUSTUS BALLARD, FOUNDER AND CHIEF 
  EXECUTIVE OFFICER, INSTITUTE FOR RESPONSIBLE FATHERHOOD AND 
                     FAMILY REVITALIZATION

    Mr. Ballard. Madam Chair, thank you very much for the 
opportunity to appear before your Committee today. I think I am 
well qualified to talk on this subject. I have a 43-year-old 
son, a 38-year-old son, a 14-year-old son, a 12-year-old 
daughter, and 4\1/2\-year-old son, so I think I have had a lot 
of practice in this area.
    I began my work with fathers 22 years ago in Cleveland, OH 
at a hospital, and what we discovered is that the earlier the 
father was involved in a pregnancy the better, not only for the 
child but for the mother as well. We found out that men who are 
involved in the pregnancy actually can increase the weight of 
the baby, which can reduce infant mortality. Now, I think the 
problem that we are facing is what I call fatherlessness, and 
that is a condition that is created when there is no loving, 
compassionate man in the home to care for his family, and of 
course we know what happens from this lack of family support.
    Now, fatherlessness shows up in three areas: dysfunctional 
single fatherhood, dysfunctional divorce fatherhood, and 
dysfunctional married fatherhood, because we sometimes see a 
problem in marriages in which children are not being cared for 
properly. Now, even when a father provides financial care--
financial support, it does not affect those statistics that I 
just gave you.
    Now, what is the solution to this problem? No. 1, we 
believe that marriage--good, loving, compassionate marriages--
must be supported. A man who is not married is high-risk for 
homicide, suicide, homelessness, educational failure, gang 
membership, joblessness, drug abuse, and poor health. In fact, 
this year, 150,000 African males, mostly fathers, are going to 
die a premature death--heart attacks and so on. Now, on the 
contrary, a man who is a good, loving, compassionate father in 
a marriage is not affected as much by these risk factors. 
Children grow up much healthier and go out of the community, 
out of the home, to bless the community.
    No. 2, we must have those working with fathers to have a 
risk-free lifestyle. I indicated that this year we are going to 
lose over 150,000 men to high-risk diseases. Some are caused by 
smoking, drug use, alcoholism, and so on. And, so those who 
work with these individuals must themselves be drug-free, 
cigarette-free, as well as domestic violence-free. The staff 
must not only talk the talk, but the staff must walk the walk.
    And, No. 3, staff must live where the people are they are 
servicing. I remember before integration, the problem we have 
today did not exist, because all the sages, all of the doctors 
and lawyers lived among the poor, and they were good role 
models. So, we are suggesting very strongly that those who work 
with fathers must be where the fathers are living in order to 
provide their services.
    No. 4, we need to be available 24-7. We found out that most 
agencies close between the hours of 5 p.m. and 8 a.m. The 
majority of people's problems take place after 5 and on 
weekends, so we need to have a program in the community that is 
available 24-7 by pager.
    No. 5, the protege must be the locus of control. Now, what 
I mean by that is that most agencies will create a plan for a 
father or a mother and say ``You must follow this if you are 
going to see your child.'' We believe that when a man comes up 
with his own plan, he will include jobs; he will include 
education; he will include time with the child. So, when he 
does that, we just need to provide the kind of support to him 
that is so desperately needed.
    And the other thing that I want to point out is that we 
must find fathers by going door to door. Our program actually 
reaches out into the community. We walk the street where people 
live, and we go into those homes, and we lease and own homes in 
those communities. Now, why is that so important? Because the 
people believe that coming to conventional offices is very 
intimidating. By going to them on their turf, you create a 
rapport and a sense of relaxation.
    Now, we specialize in five areas. No. 1, enhanced intra-
personal development, assisting a father in creating a sense of 
self-worth and balance in order for him to get off drugs and 
alcohol. No. 2, enhanced family development, assisting a father 
and supporting him in establishing a loving and secure 
relationship with his family through marriage, paternity 
acknowledgement, pre-and post-marital counseling as well as 
child growth and development. No. 3, enhanced community 
development. Many times non-custodial fathers are involved in 
gang membership, resulting in homicide and break-ins. So, we 
work with fathers to create a relationship with his neighbor, 
so they can work together. No. 4, enhanced educational 
development. It was said earlier that many of the fathers don't 
have educations. We work with them to secure a GED on literacy. 
Twelve percent go onto college. No. 5, enhanced 
entrepreneurship skill development; helping a father not only 
to get a job but to treat the job like it is a business so that 
he will be promoted throughout that company.
    Last year, we received a Welfare-to-Work grant to go into 
six cities, ``Reconnecting Fathers to their Families and to the 
Workplace.'' Now, I will just share with you some of the 
results of that program thus far. Since July 1998, we have 
placed 222 hard-to-place individuals, because we live in that 
community, and we have that trust--143 males and 79 females--
and we have, right now, 190 still retaining a job; over a 72 
percent success rate of retention. Now, we want to advance our 
program into other States and to other cities, and we have 
chosen several cities to do that: Virginia, Pennsylvania, 
Indiana, Florida, Georgia, Michigan, Colorado, Maryland, 
Califorina, and Louisiana. I believe that as we help fathers 
become more loving, more understanding, and more compassionate, 
we can see a safer community, not only for our children but for 
the community as a whole. Thank you.
    [The prepared statement follows:]

Statement of Charles Augustus Ballard, Founder and Chief Executive 
Officer, Institute for Responsible Fatherhood and Family Revitalization

    Thank you Chairman Johnson. I am very pleased that this 
Committee is convening this hearing today on the issue of 
fatherlessness and responsible fatherhood solutions, which 
indicates that the Nation has begun to realize this is the 
vital next step in our welfare reform campaign.
    Fatherlessness in a child's life unlike being fatherless 
(largely because of the father's death) is a condition created 
when there is no father in or out of the home who is willing to 
project a positive, risk-free lifestyle model through 
nurturing, compassion, love, affection and security. Children 
brought up under such wise and loving guidance will have no 
desire to wander around in search of pleasure and 
companionship. Gangs will not be attractive to them. Their 
characters are molded in the home and they form habits and 
principles that will provide them with a strong defense against 
drugs, alcohol, cigarettes, violence and school failure. They 
will go forth from the home to bless the world.
    In all that we do, the end product must be children who 
feel that parents are directing them with tenderness, care and 
compassion. It is the work I've been involved in for the past 
22 years. I began this work because I saw the many problems 
faced by the family. These problems were brought on by both in-
home and out-of-home fathers. At that time it became very clear 
that in order to create enhanced opportunity for the child and 
mother, comprehensive outreach and home-based services must be 
provided to the father.
    It has been projected that over 200,000 African-Americans 
will lose their lives prematurely. Of this group, a vast 
majority will be African-American males, mostly fathers. The 
cause of these premature deaths are: heart disease (over 
40,000), cancer (33,000), HIV (11,000), Injuries (9,000), 
Homicides (8,200), Stroke (8,100), Pneumonia/Influenza (4,300), 
Diabetes (4,300), Lung Disease (4,100), and Perinatal 
conditions (2,700).
    I am very concerned about the premature deaths, but we have 
even a greater problem: high rates of morbidity. The higher the 
morbidity in a community, the greater the mortality. Children 
who are exposed to the high risk life style of the father are 
predisposed to higher rates of deaths.
    By the year 2000, more than 2 million American will be 
incarcerated. It has been estimated that although African-
American males are less than 8% of this country, over 50% of 
this group will be African-American males.
    This condition creates situations in the home which causes 
children to be placed in foster homes and juvenile detention 
centers. The combined number for this group is nearly 1 
million! African-American children and youth make up more than 
50% of this group as well. This, along with youth involvement 
in gangs, drug abuse, school failure, including suspension and 
expulsion only aggravate an already bad situation.
    It seems that most urban communities seem predisposed to 
experiencing early death, inordinate levels of foster care, 
family breakdown, and high levels of incarceration, all of 
which has an appalling impact on the responsibilities of 
parents and fathers. Helping fathers to become loving, 
nurturing, and compassionate parents and assisting them in 
providing safe havens for their families will go a long way in 
alleviating the problem of ``fatherlessness.''
    The Fathers Counts Bill and the attention given to this 
issue by Congress and the Administration will not only aid 
groups like ours in helping fathers to be responsible from a 
nuturing and economic standpoint, but it will also promote 
self-sufficiency, good health and a reduction in crime by 
allowing us to empower fathers to be there for their children 
and wives--5, 10, 15 years and beyond.
    When I founded the Institute over 16 years ago in 
Cleveland, OH, I knew that ``turning the hearts of fathers to 
their children, and the hearts of children to their fathers'' 
would provide the foundational basis to restore safe and secure 
family environments. Independent evaluations of our work by 
Case Western Reserve and the University of Tennessee have 
attested to our results, and reinforced the vital importance of 
re-establishing role models of loving and compassionate 
marriages in our inner cities.
    Key elements of our program are:
    1. Targeting 16,000 mostly female head of households.
    2 Re-seeding the targeted community with loving and secure, 
married couples who model a risk-free lifestyle.
    3. All managing partners and support staff must live in the 
target community.
    4. All staff must be available 24 hours per day, 7 days per 
week to provide services.
    5. All staff must be willing to go directly into the 
people's home in order to provide services, working with one 
father at a time to resolve family problems and other related 
issues.
    Once we engage the father in our program, we use a 
``Comprehensive 5-cylinder'' model of intervention:
    1. Enhanced Intra-personal Development: This cylinder leads 
the father to a sense of self awareness, self control, self 
worth and a desire to be well and in good health.
    2. Enhanced Family Development: This leads the whole family 
to create a therapeutic environment in order to support all 
family members in a positive manner.
    3. Enhanced Community Development: Fathers will take 
responsibility for their own behavior and work to assist their 
neighbors in doing the same.
    4. Enhanced Educational Development: Fathers learn the 
importance of education for himself and his children. Our 
experience is that children whose fathers are in our program 
experience an increased letter grade. Some have gone from an F 
to an A!
    5. Enhanced Entreprenuerial and Employment Development: 
African-American males have the highest jobless rates in 
America. Much of this is brought on by educational failure, a 
prior conviction that may have led to incarceration and a poor 
work history. The success of this cylinder has resulted in 
fathers being employed and retained at a rate as high as 77.2%.
    In 1998, the Institute was awarded a $4.4 million grant in 
Round I Welfare-to-Work (WtW) for a six-city pilot initiative, 
Reconnecting Fathers to their Families and to the Workplace. 
Cited by the Labor Department's own Office of Performance 
Audits, the Institute has implemented a cutting edge 
demonstration with the following innovations and results to 
date.
    <bullet> Placement that exceeded original expectations and 
time frames in the IRFFR grant proposal;
    <bullet> Model collaborations between state TANF agencies, 
PICs, and community-based programs;
    <bullet> A responsible fatherhood technology embodied in 
the principle of ``changing hearts'' and attitudes of non-
custodial fathers. The Institute has proven to be capable of 
transforming long-term welfare dependent individuals with 
histories of drug abuse, unemployment, domestic violence and 
other issues.
    <bullet> State of the art management Information System 
(MIS) which calculates 70%-30% eligibility;
    <bullet> Extensive Field Monitoring Manuals, financial 
control systems, and accountability mechanisms.
    The Institute's innovative program is founded on the 
principle that connecting a non-custodial father to his 
children with an emotional bond creates within the father, not 
only the need, but also the desire to work to support his 
family. The foundation for delivery of services is based on the 
idea that the father's life has tremendous impact on the lives 
of both his child(ren) and their mother(s). When comprehensive 
non-traditional services are provided to the father, life 
opportunities for the children and mother are enhanced. The 
major focus is on fathers, yet services are provided in a 
holistic approach to members of the family who impact the 
father's life--including the mother of his children who is 
receiving TANF.
    We realize that the father, the mother, and the child is 
one complete unit and not a division of pieces. Any approach to 
create healing and move a family from TANF rolls must be 
comprehensive, inclusive, and address the father's fundamental 
issues which lie at the core of employment barriers. To 
overcome these barriers, the Institute believes that the 
individual must be strengthened in seven different areas to 
develop strong work habits: (1) Spirituality--a sense of right 
and wrong, self love, and self discipline; (2) Identity; (3) 
Belief system; (4) Purpose; (5) Ability to perform; (6) 
Behavior, and (7) Environment.
    The target group we serve, primarily hard to place males, 
are characterized by multiple barries to employment including 
teen parenting, illiteracy, school drop out, limited or 
nonexistent work experience, substance abuse, criminal records, 
dysfunctional relationships within their own families and with 
the mother(s) of his children, and low self worth.
    The Institute's WTW program provides proteges (or clients) 
with Job Readiness and Placement, Post-Employment Training, 
Employment Activities and Support, and Job Retention Services. 
To enhance the effectiveness and success of these activities, 
proteges participate in Inductive Outreach Modules which assist 
them to visualize the possibilities of what can be and actively 
pursue the opportunities that allows those visions to manifest 
into reality.
    The Inductive Outreach Modules are designed to assist 
proteges in resolving core issues which contribute to the 
barriers which have impeded their active and constructive 
participation in their families and society. Inductive Outreach 
Modules are self paced sessions covering fathering attitudes 
and feelings about one's self, his child(ren)'s mother, his 
child(ren), the educational system, the welfare system, and the 
justice system. Resolving these issues creates an environment 
for the protege to experience self awareness and individual 
responsibility. This foundation sets the framework to assist 
proteges to acquire skills, behaviors, motivation, and 
knowledge to maximize job placement, job retention, and 
increased earnings potential.
    Because of our success in not only reaching fathers, but 
moving them successfully through our program and supporting 
them in becoming responsible fathers, we have received hundreds 
of phone calls and letters from across America to expand our 
services.
    We at the Institute would like to begin the process of 
reaching other cities in order to help children across America 
smile because their fathers have involved themselves in their 
lives. Ask a child, what do you want most from your father? He 
will tell you, ``I want him to love me and be kind to my 
mother.'' It is this kind of father that the Institute works to 
develop. It is these kinds of fathers who will make our homes 
and communities safe again.
    I would like to commend this committee for its examination 
of ways to provide adequate funding as in the Fathers Counts 
Bill to help community-based programs like ours to expand our 
work into the many high-risk communities that have sought our 
services.
    This issue is not only an economic one; we must be 
concerned with the child's health and safety, teaching men to 
become good nurturers who are very compassionate and 
responsible. Responsibility cannot just stop with child 
support, but must encompass the father's care for the family 
and child.
    At the Institute, we believe the best gift a father can 
give to a child, is to love, honor and respect the child's 
mother, as he models a healthy, risk-free life style and 
supports his family with love and compassion. Thank you for 
your leadership in bring this vital issue to the attention of 
Congress.

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Mr. 
Ballard. I will remind you as I should have said for the 
earlier panel that your entire statements will be entered in 
the record. We do have the 5-minute signals, because there is a 
lot of people to get through, and it allows for more discussion 
thereafter.
    Mr. Johnson, president and chief executive officer of the 
National Center for Strategic Nonprofit Planning and Community 
Leadership. Nice to have you.

  STATEMENT OF JEFFERY M. JOHNSON, PH.D., PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, NATIONAL CENTER FOR STRATEGIC NONPROFIT 
               PLANNING AND COMMUNITY LEADERSHIP

    Mr. Jeffery Johnson. Good afternoon, Madam Chair and 
Members of the Human Resources Committee of the House and Ways 
Means Committee. I appreciate the opportunity to testify before 
you on the topic of responsible fatherhood. I am the president 
and chief executive officer of the National Center Strategic 
Nonprofit Planning and Community Leadership, and we are 
dedicated to strengthening organizations to help them serve 
people and communities for the future.
    Madam Chair, I am going to move on and just say that I know 
that I have a 5-minute time limit and I did grow up as the son 
of a baptist preacher. [Laughter.]
    And for those of us who don't know what that means, it is 
that it is very difficult for me to get in front of mikes and 
the like for 5 minutes, but what I will do is try to stay 
focused on my remarks, but I do generally appreciate this 
opportunity.
    As I entered this work with NPCL, I entered with 20 years 
of experience in working with fathers and families on a variety 
of issues. I also entered this work having a personal 
connection with it. For 12 wonderful years, I had two loving 
parents who supported me. My father died when I was 12 years of 
age, and I learned much from him in terms of how to go to work 
every day; how to respect my mother; how to go to church, and 
how to try to do my best in school. And, when my father died, 
leaving my mother with 10 children, it was a tremendous 
challenge, and I think that my ability to overcome the 
challenges that were faced in my family really has contributed 
mightily to the insight that I bring to NPCL and the commitment 
that my organization has to this whole fatherhood area.
    What I would like to do is focus on four things as part of 
my oral testimony, and then I am just going to refer you 
appropriately to my formal written testimony for other 
information. First, I want to tell you about NPCL and what we 
do. The mission at NPCL is to enhance the capacity of 
community-based organizations to address and identify local 
needs primarily through family and neighborhood empowerment. 
One critical element of family empowerment particularly in the 
inner cities is the return of fathers to families, whether in 
traditional or non-traditional ways. Our current focus is 
building the capacity of community-based organizations to serve 
fathers in a way that will enable them to carry out their 
critical roles as nurturers and economic providers. At NPCL, 
Y2K means ``Yes to Knowledge,'' and we have the knowledge and 
expertise required to effectively work with low-income, hard-
to-serve fathers and the community-based organizations who 
serve them.
    The ultimate goal of NPCL is to help families and 
neighborhoods become safe havens for children. Over the past 3 
years, NPCL has successfully provided services to over 3,000 
agencies across the country through our customized workshops, 
through our customized training, and through our conferences on 
fatherhood.
    One of the primary initiatives of NPCL is our Partners for 
Fragile Families Demonstration that was referred to by the 
Under Secretary and was also alluded to by two of our previous 
speakers. It is a comprehensive national initiative operating 
in 10 test cities designed to help poor, single fathers pull 
themselves out of poverty and build stronger links with their 
children and their children's mother.
    This demonstration, which is administered by NPCL, is a 
pioneering effort which is supported by the Ford Foundation, 
the Federal Office of Child Support Enforcement, and also the 
Charles Stewart Mott Foundation. This partnership includes 
private social agencies, including grassroots community-based 
organizations, and child support enforcement, all committed to 
helping young fathers take the legal and emotional 
responsibility for their children.
    In each of our 10 demonstration sites, an impressive 
private and public coalition of experts and frontline 
providers, including the National Head Start Association and a 
number of Welfare-to-Work grantees, work together to supply an 
array of services to these young fathers. In total, more than 
100 agencies across the 10 sites have agreed to be partners in 
this demonstration.
    The operative idea here is the formation of partnerships 
that leverages resources in a broad coalition working toward a 
shared goal of strong, independent families where children are 
well cared for by both mothers and fathers. Our guiding 
principle is that fathers have value to children even if 
fathers do not have money.
    What I would like to do now is just talk about the fathers 
we serve. The fathers that we serve, we refer to them as dead-
broke dads, and make no mistake, they are very poor and have 
very little money. Unlike deadbeat fathers, dead-broke fathers 
qualify for food stamps very much like the mothers on welfare. 
Dead-broke fathers often have their first child before 
finishing high school or acquiring work experience; they are 
all practical aspects, unemployable. Dead-broke dads are not 
just an inner-city phenomena; 45 percent are white; 37 percent 
are black and whether low-income, rural or urban, they often 
come from families that have suffered generations of poverty.
    The real connection that we make with these young fathers 
is that we meet them where they are. The average father enters 
this program; comes in with a strong father hunger. Typically, 
he has grown up without his father; he has resulting feelings 
of anger and resentment. He also feels stereotyped by society 
and believes that the playing field isn't level for him as a 
worker or as a father. He is typically angry, alienated, and 
possibly depressed. He is a tough, tough client. However, there 
are two critical components of our demonstration that help to 
reach these men's hearts and guide them to responsible 
fatherhood. Madam Chair, one is one-on-one case management. The 
second is peer support groups.
    One of the things that we found from the Parents Fair Share 
program, which has really been the predecessor of our program, 
is that one of the most successful elements of it was the peer 
support groups. I might add here that I, along with Pam Wilson, 
who is our senior consultant on peer support, actually authored 
that initial peer support curriculum that we used in the unwed 
fathers pilot project with PPV, and also with the Parents Fair 
Share program. We are very proud of the impact of that 
cirriculum.
    Finally, I would just say, Madam Chair, that there has been 
a lot of discussion about marriage. I do have a position on 
marriage. I clearly support it. To me, the issue is not 
whether, but when. A lot of our fathers, when they enter the 
program, by the testimony of the mothers and by the testimony 
of themselves in the community, they are not marriageable. What 
the program tries to do is to provide support to the father and 
support to the mother to put them in a position so they can see 
marriage as a viable option.
    I clearly think that the problem that we have with these 
programs is that we do not provide these young couples the 
exposure they need to make the right decisions about their 
relationship and the right relationship about their children.
    But with that, I will end, and will be happy to entertain 
any questions from Committee members.
    [The prepared statement follows:]

Statement of Jeffery M. Johnson, Ph.D., President, and Chief Execitove 
Officer, National Center for Strategic Nonprofit Planning and Community 
Leadership

    Good afternoon. I want to thank Chairman Johnson and 
members of the Human Resources Subcommittee of the House Ways 
and Means Committee for this opportunity to testify on your 
efforts to promote responsible fatherhood. I am Jeffery M. 
Johnson, president and CEO of the National Center for Strategic 
Nonprofit Planning and Community Leadership, or NPCL, a 
national nonprofit dedicated to strengthening organizations to 
help them serve people and communities for the future. NPCL is 
primarily supported by a public/private partnership involving 
the Ford Foundation, the federal Office of Child Support 
Enforcement, and the Charles Stewart Mott Foundation.
    I commend you for your demonstrated wisdom, foresight and 
commitment to fathers, families and children on welfare, as 
evidenced by these hearings directed at this long-neglected 
aspect of family social policy in America. If you are 
successful in passing a Responsible Fatherhood bill, I would 
urge the committee to make sure that the law encompasses 
efforts to serve low-income, low-skilled dads. It would be a 
first step toward building effective and needed post-welfare-
reform policy aimed at helping low-income fathers--the 
consistently overlooked factor in the welfare family equation--
to become self-sufficient and accountable to their families and 
children. Such a bill would have wide-ranging implications for 
greater child support collections and the success of welfare-
to-work initiatives. It should also continue to encourage 
public and private partnerships and provide for the 
participation of faith-based entities.
    My testimony is based on the work I have done over the past 
20 years concerning fathers and families, as well as on my 
personal experience. For 12 years I had the wonderful 
experience of being reared in a family with two loving parents. 
Unfortunately, my father died at the age of 39, leaving behind 
a widow and 10 children. Despite the positive example set by my 
mother, life was a struggle. She struggled to make ends meet 
and struggled to find time for all of my brothers and sisters, 
who each faced their own unique challenges. It was incredibly 
difficult for a single parent.
    Personally, I experienced what some researchers call 
``father hunger.'' I yearned for my dad and I have often 
thought about and been grateful for the lessons he taught me 
regarding work, responsibility and parenting. I know firsthand 
the importance of fathers in families and I try to bring that 
knowledge to my work at NPCL.
    The mission of NPCL is to enhance the capacity of 
community-based organizations to address identified local 
needs, primarily through family and neighborhood empowerment. 
One critical element of family empowerment, particularly in the 
inner cities, is the return of fathers to their families, 
whether in traditional or nontraditional ways. Our current 
focus is building the capacity of community-based organizations 
to provide services to fathers that will enable them to carry 
out their critical roles as nurturers and economic providers. 
At NPCL, Y2K means ``Yes to Knowledge!'' and we have the 
knowledge and the expertise required to work effectively with 
low-income, hard-to-serve fathers and the community-based 
organizations that serve them.
    When both mothers and fathers are responsible parents 
working at legitimate jobs paying a family-sustaining wage, 
they are less likely to be dependent on welfare or criminal 
endeavor to support themselves and their families which is in 
turn beneficial to communities. The ultimate goal of NPCL is to 
help families and neighborhoods become safe havens for 
children.
    Our particular strengths lie in our ability to provide 
hands-on technical assistance to community-based groups and to 
grow organizations where gaps exist. The aim is a synergy in 
which independent organizations encourage similar independence 
in the individuals and families who live and work in the 
community. And, as we know, strong families are critical for 
the health, economic and developmental well-being of children. 
Over the past three years, NPCL has successfully provided 
services to over 3,000 agencies across the country.
    One of NPCL's primary initiatives is the Partners for 
Fragile Families (PFF) demonstration project, a comprehensive 
national initiative operating in 10 test cities, designed to 
help poor, single fathers pull themselves out of poverty and 
build stronger links to their children and their children's 
mothers. This demonstration, which is administered by NPCL--
with support from the Ford and Charles Stewart Mott 
Foundations, the Federal Office of Child Support Enforcement, 
U.S. Department of Health and Human Services and the U.S. 
Department of Labor--is a pioneering partnership between public 
and private social service agencies, including grassroots 
community-based organizations and child support enforcement 
agencies all committed to helping young fathers take legal, and 
emotional responsibility for their children.
    In each of our ten PFF demonstration sites, an impressive 
public/private coalition of experts and front-line providers, 
including the National Head Start Association and a number of 
Welfare-to-Work grantees, work together to supply an array of 
services that include one-on-one case management, peer support 
and parent education groups, help with getting GED and/or post 
secondary education, anger management, employment and training 
and other services. The federal government cannot and should 
not be expected to solve the problems of low-income families 
alone. Nor should private and community-based groups be 
expected to address these issues without government. The 
operative idea here is a partnership that leverages resources 
in a broad based coalition working toward the shared goal of 
strong, independent families where children are well cared for 
by both mother and father. Our guiding principle is that 
fathers have value to children even when fathers do not have 
money.
    And make no mistake about it, the population we refer to as 
``dead-broke dads'' has very little money. Unlike ``deadbeat 
dads,'' the fathers we serve likely qualify for food stamps 
themselves and statistically look very much like welfare 
mothers. The difference between ``deadbeat dads'' and those we 
refer to as ``dead-broke dads'' is that the former can pay 
child support but will not. ``Dead-broke dads'' cannot pay 
child support but would if they were able.
    Deadbeat dads are often one-half of a mature divorced or 
separated couple. The relationship began, they married, then 
the relationship ended when one spouse decided it was over. 
Public policy in these instances requires--and rightly so--that 
the noncustodial parent, usually the father, provide adequately 
for the children. This will ensure that the mother and the 
children avoid poverty, frequently the result when the father 
withdraws his, commonly higher, income. Public policy may also 
require some sort of mediation process so that conflict between 
the parents does not visit itself upon the child(ren). With 
this kind of systemic support, the mother can get back on her 
feet, find her way back into the labor market, perhaps remarry 
and reestablish a middle-class lifestyle. Public policy thus 
helps families bring their union to an amicable end and 
recover.
    This is not the situation among ``fragile families''--that 
is, families consisting of two low-skilled biological parents 
and their child(ren). Young, low-skilled, unmarried, poor 
parents have their children before they are mature enough to 
understand and manage a committed relationship and before they 
recognize the full implications of unmarried, unprotected sex 
and childbearing. ``Dead-broke dads'' often have their first 
child before finishing high school or acquiring work 
experience. They are in all practical respects unemployable.
    Dead-broke dads are not just an inner-city phenomenon. 
Forty-five percent are white, 37 percent are black, and whether 
low-income rural or urban, they often come from families that 
have suffered generations of poverty. Theirs are the 
characteristics of long-term welfare recipients with limited 
prospects for exiting welfare dependency. These same 
deficiencies make the fathers of fragile families poor 
candidates for work or marriage. Like welfare mothers, these 
men require some systemic intervention and support in order to 
become self-sufficient and able to function as productive 
citizens and responsible parents.
    One of the most significant obstacles these men face is the 
child support enforcement system, which, however 
unintentionally, thwarts efforts of these fathers to provide 
for their children and repair relationships with their 
children's mothers. The system is designed to extract payments 
from ``deadbeat dads'' and to punish in myriad ways those who 
do not pay. However, the system makes no distinction between 
inability to pay and refusal to do so. It makes sense to punish 
a man who can pay by sending him to jail for his failure to 
meet his obligations. It makes little sense to send a man 
without a job, or any prospects of a job to jail for his 
inability to find a job he has never been qualified to hold. 
Jail in this situation only exacerbates the negative. Now the 
``dead-broke dad'' is further estranged from his children, 
unemployable--and he has a record.
    It is imperative that any proffered proposals--including 
any new iteration of a Responsible Fatherhood bill, any 
revisions to the child support funding structure, or changes 
during the reauthorization of the welfare-to-work act--not pose 
additional barriers to fathers and ``fragile family'' 
interaction.
    In this post-welfare reform era, we have indeed changed 
public assistance from a program that tolerated stagnation and 
long-term dependency to a system designed to provide temporary 
assistance. Now, however, the real work begins. Success must be 
redefined. We must succeed at lifting families and children out 
of poverty. We cannot hope to achieve those aims if fathers are 
not part of the equation. Since there is little help for low-
income dads, that is where we should next turn our attention. 
Just as we have shifted our focus to assist poor mothers in 
their quest for self-sufficiency, we must make an investment in 
fathers so that they too may assume legal, financial, emotional 
and responsibility for the families they have helped to create. 
Again we must redefine success. We should not gauge our 
accomplishment solely on the basis of how much child support we 
collect. We must also pay attention to how many fathers and 
mothers successfully move beyond poverty and are able to 
provide a stable and nurturing home environment for their 
children.
    NPCL's Partners for Fragile Families (PFF) demonstration is 
uniquely qualified and currently positioned to help make that 
goal a reality. As you know, PRWORA took some giant steps in 
this direction, but it did not go all the way. While PRWORA 
calls for child support to make appropriate referrals to 
employment for unemployed noncustodial parents, it does not 
allow child support to fund any recommended employment and 
training activities.
    The average young father who enters one of our programs 
comes with strong father hunger. Typically, he has grown up 
without his father and he has resulting feelings of anger and 
resentment. He also feels stereotyped by society and believes 
that the playing field isn't level for him as a worker or as a 
father. He is typically angry, alienated and possibly 
depressed. He is a tough, tough client. However, there are two 
critical components of our demonstration that help to reach 
these men's hearts and guide them to responsible fatherhood.
    The first is one-on-one case management: This proactive 
component pairs each father with a skilled counselor who serves 
both as a role model and a guide. The case manager, usually a 
man, depicts responsible manhood. He believes in this father's 
potential and provides a format for him to set goals and work 
toward those goals. If a young man has never seen what it looks 
like or experienced what it feels like to be a good father, how 
could he be expected to do it himself?
    The second critical component is peer support groups. These 
groups bring fathers together with other young men like 
themselves. The groups serve two basic purposes. They provide a 
forum for the men to be supported and affirmed but also to be 
challenged and confronted. In the groups the men define for 
themselves what it means to be a man and a father and then 
challenge each other to live up to those standards. They also 
brainstorm methods to overcome obstacles, stay the course and 
resolve problems in the world of work and in their often 
troubled relationships with their children's mother. The groups 
also provide structured activities from NPCL's Fatherhood 
Development Curriculum that help the fathers learn or reinforce 
important knowledge and skills in areas such as child 
development, communication, anger management, conflict 
resolution, understanding the child support system, working as 
a team with their child's mother and her family, considering 
marriage and what it takes to be ``marriageable,'' and family 
planning--deciding how and if additional children fit into 
their lives and finances and taking steps to prevent additional 
pregnancies until they are ready.
    The peer support group process is often very powerful for 
these fathers. Guided by a skilled and caring facilitator, they 
experience male camaraderie that says men can be strong, yet 
caring, that being there for their kids is the right thing to 
do and they can do it. The positive feelings and competencies 
that men get from the groups increase their motivation to find 
work, provide for their children, negotiate with the mom, and 
be there for their kids. NPCL staff has learned to trust the 
process. Anecdotal reports suggest that young fathers are 
indeed becoming responsible workers and parents, adept at 
mediating the relationship between themselves and the mothers 
of their children.
    A unique aspect of our demonstration is the emphasis on 
what we call team, T-E-A-M parenting, meaning that parents work 
together for the benefit of their children regardless of their 
marital status. And let me address the question of marriage 
here by stating that we support it. However, the crucial 
question for us is not whether but when.
    A young father without a job or prospects may be a poor 
candidate for marriage, but that does not mean he abdicates his 
role as ``daddy.'' Whether or not the parents are married, 
children need food, clothes, care, love and two supportive, 
nurturing parents. Once a young father becomes self-supporting 
and an integral part of his child(ren)'s lives and repairs, or 
more fully develops, the relationship with the mother of his 
child(ren), marriage becomes a more realistic option, 
especially if that is something the couple seeks for 
themselves.
    The Partners for Fragile Families demonstration represents 
the start of the fourth generation of fatherhood programs. The 
Parents Fair Share demonstration, which you have already heard 
about, was the third generation of fatherhood programs in this 
country. Here, we have designed a program that does not simply 
react to the problems low-income fathers face, but one that 
aggressively seeks to initiate change based on the culmination 
of best practices to date. As a result of these endeavors, 
1,000 low-income, low-skilled young dads that fit our profile 
will be targeted each year. For the three (3) years of the 
demonstration, they will receive the capacity building and 
skill training they need to more fully discharge their role as 
dad. That means that 3,000 fathers will be returned to their 
families by the PFF Site Demonstrations.
    NPCL is uniquely qualified to provide ongoing technical 
assistance and training for all of the members of the PFF 
collaboration, as well as other groups interested in employing 
this approach. We have trained more practitioners to work with 
noncustodial parents on responsible fatherhood than any other 
organization in America. Our sites will enjoy the most 
comprehensive capacity building delivery strategy ever seen in 
the fatherhood field.
    Experienced community-based organizations that have won the 
trust of hard-to-reach men will help those young fathers to 
establish legal paternity, learn their legal rights and 
responsibilities and negotiate the formal child support system. 
Child support enforcement agencies in turn will work with 
fathers to modify child support orders, give fathers time to 
secure training and a job, and then gradually increase the 
order consistent with the man's ability to pay. In addition, 
the demonstration includes workforce development. All PFF 
grantees are required to institute or provide access to 
intensive career and personal development skills training in 
preparation for placement in family-sustaining, wage-growth 
jobs. PFF employment and training specialists will have the 
knowledge, experience and desire to work with low-skilled 
fathers, as well as links to jobs made available by the private 
sector.
    PFF is also committed to implementing a wage progression 
model in order to provide for career-building jobs that offer 
the opportunity for an increase in wages. Preliminary research 
data from Access Support and Advancement Partnership (ASAP) 
show that young men who match the profile of young fathers in 
the PFF project are succeeding in training and job placement. 
Of 567 of participants enrolled in the Boston and New York 
(ASAP) intensive job training programs in 1997 and 1998, for 
example, a total of 308 were placed in jobs after two years of 
training and on-the-job experience. The average salary of ASAP 
graduates in Boston was $22,308 and $20,301 in New York. By 
comparison, in 1990, 61 percent of dead-broke dads had incomes 
below poverty level (about $6,800) and 86 percent had personal 
incomes below the poverty level for a family of four (about 
$13,000). Thus, the Partners for Fragile Families demonstration 
has an excellent prognosis. The Welfare-to-Work amendments 
introduced by Congressman Cardin's bill would support more 
programs such as this.
    Much of the welfare reform debate missed such critical 
considerations. We have before us an opportunity to correct 
past oversights. As of August 1996 sweeping changes revised the 
way welfare programs were operated. States toughened their 
cooperation requirements, capped the number of children who 
could receive assistance and custom-designed state eligibility 
criteria. Lawmakers passed provisions to keep mom in school 
while she received assistance. Much of the literature spoke of 
``families'' on welfare, meaning a mother and child(ren). We 
had become very comfortable in defining family with no 
reference to the father. That omission proved prescient because 
those policies in no way took into account his real 
circumstances. Several assumptions were at play during the 
welfare overhaul, including the belief that all fathers--
including those with children on welfare--had the ability to 
pay any child support order fixed by an administrative or 
judicial tribunal. Projections that assumed an annual increase 
in earnings consistent with the rate of inflation or the 
consumer price index were used in setting goals for welfare 
reform. But if your basic earnings are zero, or you rarely have 
a job all year long, none of that applies to you. Policymakers 
trusted that we could significantly progress toward our goal of 
``ending welfare as we knew it'' by having moms identify dad, 
establish paternity, collect the money and transfer the dollars 
to the household where the child was being reared. That is not 
the case for a significant portion of our population, which 
means that those policies missed dead-broke dads and fragile 
families by a wide margin.
    It is imperative that any new or revised policy initiatives 
not repeat the shortcomings of recent-past policy by ignoring 
their potential impact on low-income fathers. Indeed I am here 
today to encourage the members of this committee to work toward 
supporting the efforts to assist fragile families by reviewing 
every family social policy change with its impact on fragile 
families in the back of your mind.
    When this committee reviews a proposed Responsible 
Fatherhood bill, or amendments to Temporary Assistance to Needy 
Families (TANF), and welfare-to-work reauthorization, Social 
Service Block Grants, or child support and its funding, I ask 
that you remember our fragile families. Although we have 
studied these issues, I certainly do not claim to be an expert 
in all of these areas. Candidly, I have only one overriding 
mission here today and that is to ensure an environment in 
which states and localities, public and private partners, 
institutions and community-based organizations are more likely 
to initiate and continue to support responsible fatherhood 
programs. Unless we return fathers to their role as nurturers 
and supporters of their children, not only will welfare reform 
fail, we will also fail a new generation of children, our 
future.
    When this committee considers a Responsible Fatherhood bill 
not only should the bill serve low-income, low-skilled dads it 
should also provide for peer support activities, parenting 
education, parenting skills development, conflict and anger 
management, and a variety of other developmental activities 
designed to equip young fathers to take a positive role in the 
lives of their children.
    To promote employment the bill should provide a combination 
of short-term job acquisition, interim job training, and long-
term career development. Heretofore only accessible under the 
Job Training and Partnership Act (JPTA), a Responsible 
Fatherhood bill should expand the availability of multiple, 
flexible strategies necessary to address the challenges these 
men and their families face. Provisions for flexible 
activities, funding through the workforce development system 
and partnerships at the community level are all encompassed in 
the Welfare-to-Work amendments introduced by Congressman 
Cardin.
    A great part of that response, we believe, is Partners for 
Fragile Families.
    When this committee considers the reauthorization of 
welfare to work, I ask that you look for simplified eligibility 
criteria for poor men and that criteria do not negatively 
impact the circumstances of the mother and child(ren). We must 
work to make implementation of this program as simple as 
possible for local service providers. Additionally, we believe 
it makes sense to require a personal responsibility contract 
between the program and the fathers and it is important to 
maintain funding for programs that serve moms while we allocate 
new money to dads so that both can support their children.
    Again, we believe Congressman Cardin's bill goes a long way 
to address these issues. Should this committee look at new 
proposals for funding of the child support system I urge you to 
keep a few things in mind. First, there is almost universal 
agreement that the child support funding system is too 
complicated. However, there is little consensus as to what 
changes in the funding system, other than the soon-to-be 
implemented performance incentive plan, would support obtaining 
the evolving mission of child support currently under 
discussion. I am told that any of the approaches currently 
being discussed would, in all probability, cause major 
disruptions in our larger states. If that is the case, this 
committee should be mindful that 50 percent of this nation's 
child support caseload is accounted for by the eight largest 
states. California, Florida, Illinois, Michigan, New York, 
Ohio, Pennsylvania, and Texas could all be hurt by any dramatic 
change in the current funding formula. Families within these 
states as well as inter-state cases would be negatively 
impacted. Disruption of those programs would surely result in 
reductions in child support collections and would reduce the 
likelihood that states would undertake additional fatherhood 
activities. Any new proposal should ensure adequate funding for 
the child support program, simplify funding and distribution, 
and reward states for continual improvement in their program. 
We realize that cost neutrality would be a consideration for 
the federal government.
    There is good news. Since the implementation of welfare 
reform, states have an immense amount of flexibility to 
implement various ``state options.'' States are free, within 
the broadest limits ever provided, to set their own eligibility 
criteria for welfare programs. The major provision of the 
welfare reform legislation, TANF, only had four purposes. Those 
are:
    <bullet> To decrease welfare dependency by providing 
enhanced job opportunities;
    <bullet> To provide cash assistance and other services to 
needy families;
    <bullet> To reduce the rate of out-of-wedlock pregnancies;
    <bullet> To encourage the formation of two-parent 
households.
    Within those boundaries, states have great flexibility in 
providing services. The Welfare-to-Work program provides the 
opportunity to serve a more targeted population including 
fathers. Any changes to simplify the eligibility criteria for 
welfare-to-work should clarify for states and their program 
operators how to access these funds to serve low-skilled, low-
income dads.
    Again, I applaud your foresight and commitment to fathers, 
families and children. Your attention to this issue and the 
potential for legislation that would support fatherhood 
programs nationally is both exciting and gratifying. If you are 
successful in developing and passing a Responsible Fatherhood 
bill we, together, will be able to work to ``turn the hearts of 
the parents to the children; and the hearts of the children to 
their parents . . . to make ready a people prepared for the 
Lord.'' (Malachi 4:6; Luke 1:17)
    Thank you for the opportunity to address you this 
afternoon.

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much. It is 
my pleasure to welcome my friend, George Gay, Reverend Gay, 
here today. He has developed a program, Color Me Father, that 
has the purpose to help never-married fathers assume legal, 
financial, and emotional responsibility for their children, 
just what we have been talking about, but he has been out there 
on the front line many years when there was no money at all, 
and now when there's teeny tiny bits of money.
    Thank you, George, for being with us.

  STATEMENT OF GEORGE L. GAY, PASTOR, UFW BAPTIST CHURCH, NEW 
                      BRITAIN, CONNECTICUT

    Reverend Gay. Well, I'm glad first of all, to be able to be 
here. I will preface my comments by saying that I am a Baptist 
minister.
    Chairman Johnson of Connecticut. That's why we have the 
lights, George. [Laughter.]
    Reverend Gay. However, I will try to be very disciplined. I 
will also try not to be repetitive in my comments.
     I would like to start by saying to Dr. Johnson that I have 
met Pamela Wilson, and the curriculum that I use in my program, 
I was trained by Pamela Wilson in Boston, MA to run it, and it 
is an excellent curriculum, and it works.
    I would like to begin by saying that I am very happy to be 
here to represent the church in this matter. I have heard quite 
a bit about marriage. I believe that we entertain those 
thoughts early on through our spiritual training. I also 
believe for a fact that there is a church just about on every 
corner in every major city in this Nation. I think that it is 
about time that the churches be allowed not to look at the 
separation between church and State, but be allowed to join 
hands to help to work and create a better community. I believe 
that when true people get in trouble, they lean toward their 
spiritual side. So when a young lady is pregnant and doesn't 
want to tell her parents, she comes to the church. I believe 
that there should be some type of assistance there. The same 
thing with a young man. There will be assistance of some kind 
at that church for them.
    I am a strong believer that moneys that have been funneled 
from the Federal Government have been trapped in bureaucratic 
red tape and have not been allowed to get to the people 
actually providing the services. That is another reason that I 
am hoping that this time, we will be able to bypass those 
issues. We are here. We're not going anywhere. I heard someone 
allude to 24-7 in their comments, which means 24 hours a day, 7 
days a week, the church is on call.
    Now we rely for the most part on donations. However, we 
know that this is work that definitely needs more support than 
a church donation is able to provide. In the program, for 
instance, that I run, we give a stipend to the participants. 
That stipend, we ask that they use--those that do not have 
work, do not have any means of support, can have a way to buy 
Pampers or milk or something for that child for the session 
that they attend, which is a good incentive piece. However, the 
church will not continue to be able to afford to give them 
that. They have ideas in my program of furthering what they are 
able to do by giving bonds from a church, bonds from a bank 
rather, in hopes of when that child is growing up, that child 
will already have a bank account started.
    My guys actually want to get into it so far, that they want 
to do a training session where they are able to provide medical 
attention for the children in an emergency. They want to be 
certified for first aid. They want to go through that training 
and then have a piece of paper that says I can do this, and I 
can train somebody perhaps how to save a life, or if I am alone 
with my child, I can save my child's life.
    The other thing I think that's important is that we not 
forget again that if we are going to build good strong moral 
character, we cannot leave the spiritual part of ourselves out. 
Even Dr. Sigmund Freud in his confusion, I would say, alluded 
to the fact that we must remember that in order for us to be 
complete, we must recognize that there is a higher power than 
ourselves. I believe that reaching for that higher power within 
ourselves enables us to continue to grow. A good church always 
encourages anybody to continue to reach up a ladder of growth. 
There is always another rung that you can go to, so when we 
start talking about a baseline job or a minimum wage paying 
job, it's a start. We must start somewhere and we must be able 
to follow up from that with good viable technique.
    Again, I allude to the program that was developed by Dr. 
Johnson and Pamela Wilson as a tool for education. Again, 
sticking with the church, many times we go out and we do 
according to what we have learned in our spiritual background. 
However, we forget sometimes, just like anybody else, we go and 
we baptize, but many times we forget to teach. Those lessons 
that become so valuable that we must go back and reevaluate how 
many we missed in our teaching sessions. Hopefully we will be 
able to fill in those gaps.
    Again, when the programs close, when the traditional 8 to 5 
or 9 to 5 programs close, the church's doors are always open. 
There is a communication line, whether it is paid for or not 
paid for. If we want to make a difference with the dads, and 
not just punish them for not being able to pay their bills, if 
we really want good moral fathers, then we are going to have to 
go back and train and teach those fathers what they have 
missed. Thank you.
    Chairman Johnson of Connecticut. Thank you very much. Thank 
you.
    Mr. Raesz, welcome.

        STATEMENT OF ROBERT E. RAESZ, JR., AUSTIN, TEXAS

    Mr. Raesz. Madam Chair, Members of the Committee, thank you 
for the opportunity to appear here today. I want to take this 
opportunity to urge you in the course of looking at the various 
proposals and offers that are being submitted to you, that you 
take a look at some of the existing law and possibly look at 
some modifications to avoid laws that may hinder you in your 
efforts to move forward with your goals.
    The Bradley amendment has been in effect, I believe, since 
1986. The effect of the Bradley amendment is to limit the 
court's ability to retroactively modify the existing support 
orders that the individuals that we're talking about here today 
are sometimes faced with.
    I served 9 years as a family law judge and currently limit 
my practice to the area of family law. I also spend a lot of 
time in some of the local clinics that provide free legal 
services to individuals of the Austin area. In the course of 
those services, I have come across thousands of individuals who 
I feel unjustly have suffered because of the Bradley amendment.
    The amendment, when created, certainly had some good 
qualities. But what we have seen over the course of time is 
that not all cases can be strictly limited to the law as it's 
written. I have listed a number of examples of individuals that 
could benefit by some modification of the amendment, and 
rightfully so. I have clients who have had serious injuries. I 
had a client with a broken neck that was laid up for a number 
of years and couldn't work. Over the period of time that he was 
laid up, accumulated in excess of $40,000 in arrearages. It is 
unfortunate as an attorney, and the judge that that individual 
had to go before, we had to explain to him there is nothing we 
can do. Because of the Bradley amendment, the court cannot look 
beyond the date of the filing of the motion and retroactively 
modify his support order to the date of his injury.
    There's another example that we have listed is an 
individual who came down with a serious illness. For similar 
reasons was unable to make it to court, unable to hire a 
lawyer, and go in and have this matter addressed before it got 
out of hand. Working in the free clinics, we see individuals on 
a regular basis. The individuals that you are trying to promote 
participate more in their families, are individuals that are 
going to court, in trying to deal with large amounts of 
arrearages that resulted at times from them not having proper 
notice of the court hearing at which time the support order was 
set or have experienced lengthy periods of unemployment based 
on no actions of their own.
    What I would like to encourage you to do is look at placing 
the discretion back in the courts to work with these 
individuals, and where there's just reason to retroactively 
modify these orders, give these individuals some relief. Right 
now, we are seeing these people out working two and three jobs, 
trying to pay arrearages that were based on unrealistic amounts 
of income that they weren't making, but yet the courts have 
entered these orders and they are now faced with paying those 
sums. They are spending their time working those multiple jobs 
rather than spending the time with their families.
    I have a lot of faith in the judiciary. I spent a lot of 
time there. I have served on a number of judicial committees, 
and especially I can tell you in the State of Texas, the judges 
there are looking out for the children. They are looking out 
for the families as a whole. I think you can expect those 
individuals to represent the State and families, and do what's 
just, without jeopardizing the support that we expect our 
children to receive.
    We are not looking to help the dead beats. I used to put 
them in jail. But there are plenty of these individuals that 
are dead broke that need some assistance. They need some 
relief. They need some retroactive relief in the way of the 
arrearages that they are faced with. Thank you.
    [The prepared statement follows:]

Statement of Robert E. Raesz, Jr., Austin, Texas

    Madam Chairman and Members of the Subcommittee: Thank you 
for the opportunity to appear before you today regarding 
fatherhood. I have reviewed a number of the studies being made 
available to your committee on the consequences of father 
absence in a child's life. As a retired family and juvenile 
court judge and practicing family law attorney, I deal with 
these consequences on a daily basis. It is encouraging to see 
you taking the action necessary to break the cycle of school 
failures, unemployment, and non-marital child births and child 
rearing resulting from the absence of parents. I am hopeful 
that you will allow the judges of our Country the opportunity 
to assist you in your efforts. I have no doubt that our courts 
will fully utilize the programs you may implement if it means 
the involvement and support of both parents in the lives of our 
children. I am also hopeful that, in moving forward with your 
programs, you will leave the courts with a degree of discretion 
to utilize the programs created on an individual level, based 
on the facts that they find themselves with.
    In the process of looking ahead, I would also ask that you 
take the time to look back at existing laws and determine how 
changes in such things as the Bradley Amendment might help you 
meet your goal of consistent father involvement. Our courts 
inability to make child support modifications retroactive 
beyond the date a modification motion is filed, a limitation 
imposed by the Bradley Amendment, has left a number of the 
individuals I represent, as well as many others I counsel and 
come in contact with, owing large sums of child support and 
interest that they do not have the ability to pay. I am not 
speaking of the ``dead beat'' parents that find themselves in 
that position because of their negligence or indifference. I am 
referring to individuals who, due to serious injuries or 
illness, unforeseen unemployment, or actual possession of their 
children and other legitimate reasons, are left without the 
funds to pay their support or hire an attorney to timely modify 
their support orders. Many of these individuals are forced to 
work more than one job in an effort to stay out of jail at the 
expense of their relationship with their children.
    A prime example is a client I will call John Jones. John 
was involved in a serious accident which resulted in a 
fractured back. He endured months of rehabilitation before 
eventually being able to return to work. The accident and 
subsequent inability to hire an attorney left him $40,000 plus 
in arrears. The courts inability to modify the support order 
retroactive to the date of John's injuries left him working two 
jobs in an attempt to simply stay out of jail. This also left 
John unable to spend time with his children.
    This type of situation is not uncommon. My client Jim 
Jones, no relation to John, has been diagnosed with an eye 
condition that renders him unable drive to a job he has held 
for several years. Several months passed before Jim was able to 
raise enough money to hire an attorney to file a modification 
action on his behalf. Jim's ex-wife, Jane, is now using his 
delinquency as a tool to effect a decrease in the amount of 
time he and his son are able to spend together.
    I have counseled with hundreds of individuals with stories 
similar to John and Jim who can't afford to hire me or some 
other attorney. Their arrearages are increasing daily. They too 
are experiencing problems with access to their children for 
reasons beyond their control. I would suggest that a 
modification of the Bradley Amendment to allow our courts the 
discretion to make modification in these cases retroactive to 
dates of injuries, the onset of the long term illness, the 
beginning of unavoidable periods of unemployment and the like, 
would result in just and fair decisions and would promote 
contact between children and their fathers; contact that is 
necessary to achieve the goals being set by this Subcommittee.
    Some may express concerns that our courts would abuse this 
discretion but I have faith in our judges as a whole and would 
expect our appellate courts to rectify the few unjustified 
decisions that may result, just as they do now.
    I challenge you and offer my support in any possible way to 
implement the programs and changes necessary to assist our 
agencies and courts as they strive to keep parents involved and 
balance the monetary, emotional, and developmental needs of our 
children.

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you.
    Next I would like to call on Lisa Nkonoki, who is the co-
founder and executive director of the Tate George Dreamshot 
Foundation. It probably was the first voice I heard about what 
a big difference dads did make many years ago, the founder of 
the Dads Do Make a Difference campaign.
    Nice to have you, Lisa.

    STATEMENT OF LISA A. NKONOKI, CO-FOUNDER AND EXECUTIVE 
          DIRECTOR, TATE GEORGE DREAM SHOT FOUNDATION

    Ms. Nkonoki. Thank you so much for inviting me. I am very 
honored. As the rest of my colleagues here, I am also long-
winded at times, but I will try and be very brief for this.
    But unlike most of the people here, I sit in the position 
of being one of those unwed mothers, and also a young girl who 
was abandoned by my father. So please be patient with me as I 
try and tell you a little bit about my story, and how I found 
the Dads Do Make a Difference project.
    First of all, I would like to say that we are here, the 
Dads Do Make a Difference project, to say it's a positive 
movement with a message. We are here to promote being a dad as 
a cool, hip, responsible thing to do. That is really what we 
want everybody to know, not just that it's an unwed, low-income 
issue. Everybody needs to think being a dad is cool, hip, 
responsible. If we all listened to Michael Jordon when he 
recently retired again, it wasn't about the money. It was about 
learning how to be a father, carpool, do all those things that 
a lot of us have had the opportunity to do.
    So I want to say to you, as a single mom for 16 years and 
48 weeks, I am honored to have this opportunity to stand here 
before you discussing the plight of fathers. I am, I feel, the 
biggest cheerleader for dads, as the mom regarded as one of the 
only moms in the country to start a positive program for 
fathers. Though my own father, a Tanzanian college professor, 
abandoned me at the age of one, I know first hand the impact 
that not having a father had on me, especially as an unwed teen 
mom myself. Fortunately, my career path and self-motivation and 
family support led me to never have to apply for welfare, but 
it is for many of the people that I grew up with in our 
hometown of New Britain, CT, that I also speak on behalf of.
    Though things were difficult at times, I was determined 
that my own children's--whom I have two children, 17 and 13, 
from two different fathers, as I speak to you here, one who 
paid lots of child support and another who didn't pay child 
support. Despite my best efforts to keep them involved, we were 
definitely estranged for quite some time. I started this 
project after my now 17-year-old son Jason, who was at the time 
about 13, began experiencing difficulties that all the money, 
privileged lifestyles, et cetera, could not change. When my 
children realized that one of my best friends, who is here 
today, former NBA player Tate George, despite his busy NBA 
schedule and other responsibilities, took time with them to do 
special activities, talk with them, and just pay attention to 
them, it became evident to my son, in particular, that his own 
father, who was at the time unemployed, not very busy, didn't 
take the time with him.
    It became evident that resentment and bitterness was going 
to be the plight of my own child. I was angry. As a mom, I was 
very angry. One of the things that I did as a writer, I wrote 
the statement ``Dads do make a difference. Real dads do. 
Children only have one lifetime, and you need to be a part of 
it.'' The reasoning for that was I wanted to see the reaction 
of my kids' dad. Needless to say, it was pretty bad.
    At that time though, we were all reacting to negative 
behaviors. One of the things that I decided to acknowledge, 
despite the shortcomings that we could list about my kids' 
dads, had the kids ever heard anything positive that they could 
feel proud of that their father had done, or they could 
identify with? Starting from there, I knew to say something bad 
about dad meant that half of my children could feel that they, 
in fact, were also bad. I don't think any mom directly wants 
their children to feel bad for any intention. So for this 
reason, the campaign is about the positive, how we can 
positively empower dads and our kids, how we can communicate, 
be more inclusive, give information instead of always taking 
and demanding.
    Take one of the dads I have worked with, Roger Van from New 
Britain, CT. Formerly incarcerated with his own sons, he spent 
more time in jail with his sons than he did out of jail. He was 
a married father. He did live in the household. But he was 
actually forced to sell drugs because of lack of employment. 
Having worked with Roger over the last 3 years, I know first 
hand what developing a rapport and just developing and 
increasing his self esteem and helping him to build a dream 
sheet for himself, meeting that father where he was at.
    I want to also have you think about a couple more things. 
If you call dads to come to a training program or to find out 
how to see their kids, how many of them will come? If I go out 
as the Dads Do Make a Difference project and tell them that 
they can get free Reebok sneakers, Nike sneakers, NBA tickets, 
and a chance to do activities with their kids with no strings 
attached, how many do you think are coming to see me? Most of 
them are coming to see me. The reason is, there's incentive. We 
all live by incentives, a lot of us do. There is nothing wrong 
with that, as long as in the end, we can also train and develop 
a rapport and get the bottom line, and that's them being with 
their kids.
    What about moms like me, who never went on welfare, but 
having the oldest child of four different children, the State 
welfare takes the money from child support of my kid's dad. I 
don't get any of it because it goes directly to pay off the 
child support welfare bill. That's something that I think is 
just detrimental to mothers like myself. What about fathers 
with their credit reports that prohibit them from getting cars, 
houses, or anything else, because of the over-burdening of 
child support.
    The other thing is my son who went to play for Little 
League as a young teenager, needed a birth certificate long 
form. His birth certificate stated that he had no father, 
despite the fact that his father had been paying child support 
since he was a baby. What about that? The embarrassment of our 
children when they actually come out and have to deal with 
either going to school, Little League, or college. Many of the 
obstacles are fear, lack of information. We simply cannot have 
this as business as usual. You cannot legislative positive 
involvement. We cannot continue to be reactive. We need to be 
more proactive. We can coach and empower dads through their 
self-esteem.
    One thing we have to all remember, we all have a father. 
That is a common denominator that exists between all of us. So 
when you all talk about what needs to be done, we need to first 
get Government, court, and moms in many cases, including myself 
at one point, out of the way. A lot of dads cannot see their 
kids simply because the mom doesn't like who they are with, 
where they are going, or what time they are going to come 
around. That shouldn't be the case. Marriage does not ensure a 
compassionate and educated parent.
    In closing, I would like to say it takes a team effort to 
win on behalf of kids, and acknowledge the part of my team that 
you have to be. Everybody has a role to play. What really needs 
to be clear is that people need to be trained in terms of what 
their actual role is, whether it's in the church, whether it's 
in business, education. How often do you hear of someone ask 
for a parent-teacher conference, and as long as the mom goes, 
it's OK. You don't actually ask is there a dad, or can I 
schedule a separate conference. So I just encourage you, I 
encourage all of us to be more inclusive of how we talk and 
deal with our fathers. Most importantly, we need to rally them 
on from where they are at.
    As I wear this button, ``Dads do make a difference,'' 
people stop me on the street every day and say things, 
sometimes negative, sometimes positive. But most importantly, 
they are saying something. I think what's happened is there has 
been no open, safe forum for people to be able to talk about 
their fathers, whether they are in our lives, out of our lives, 
active or inactive, deceased or alive. We need to acknowledge 
that first and foremost. Thank you.
    [The prepared statement follows:]

Statement of Lisa A. Nkonoki, Co-Founder and Executive Director, Tate 
George Dream Shot Foundation

                          Dads & Kids Campaign

    Dads Do Make A Difference is a positive movement with a 
message. Working with Dads and kids is a transformative, and 
sometimes eye-opening experience. Most importantly, it's an 
opportunity to capture or recapture something we all have in 
common . . . a father. One of the DDMAD missions being, to 
increase the positive interactions of dads and other positive 
males and kids
    Many of us are blessed to share the experience with a dad, 
and still far to many of us share a common void, a lifetime 
scar from the lack of having that father involved in our lives 
for a variety of reasons. In many cases, nothing will replace 
or erase the pain, which often times is far too great for many 
of us to bear. Studies clearly show the positive impact that an 
involved father has on his children whether they live in the 
same household or not, when it comes to education and self 
esteem. However, when this is not an option, we also know 
through the DDMAD Project, being able to talk about it, and 
realizing that you are not alone, and sharing other like 
experiences can be healthy, and hopefully will help us to 
positively move forward, leaving any negative feelings, or 
embarrassment behind and finally being at peace with our place, 
and those who put us here on this planet.
    Whether your dad is a doctor, lawyer, singer teacher, 
janitor, chef, professional athlete, incarcerated or 
unemployed, they all share one common fact, and that is they 
are Fathers, and they have children who look like and sometimes 
act like them. We must dispel the myth that men are only worth 
the money that can be contributed to the life of that child. I 
cringe at the thought that my children, or any child, would 
only value themselves by their net worth, or their fathers 
contribution, or lack of one. We need to have a reality check 
on what we are considering of value when it comes to the lives 
of our children. Rich children and poor children share a common 
factor and that is they all need time and love. Though money 
can assist us all, it can not replace the love and effort put 
forth by any human being, especially our fathers.
    One thing we all share is that our existence culminates 
from two human beings. We all have a story to tell, and DDMAD 
is listening! Some of our stories are positive, some sad, and 
some have very little to tell at all. Father's stories can, and 
do stir our emotions, either positively or negatively. The 
truth be told, DDMAD is about advocating for the positive 
influence that we know fathers can have on our lives and the 
lives of our children.
    Together we can make a difference, and continue the 
challenge to uplift and empower the males who will undoubtedly 
leave an impact on our community. It's up to us to make it a 
positive experience for all.
    As a single mom, I like many of you, struggled to find a 
happy balance for my children, and despite what I thought might 
be the perfect situation, it was not always inclusive of their 
dads, despite all of my efforts. The reactions from my children 
appeared fine for years, but as evidenced through a variety of 
sources, including schoolwork, just did not seem to be 
resolving it no matter how subtle.
    After years of stressing about the fact of whether or not 
dad should be involved, does he even want to be involved, what 
about the money, or, I'm mad because of this or that from 
whenever or with whomever, I realized that, as the saying goes, 
when you have lemons, make lemonade! I realized there and then, 
that you build on what you have, and considering my children, I 
consider them to be rare gems to say the least (don't we all) 
one of the best ways to further enhance their already beautiful 
existence is to build upon from which they came. In all 
fairness it does take two individuals, committed or not, 
willing or unwilling to create such a jewel. To disregard any 
portion of that jewel, or to let your child disallow it is to 
take away from its total strength, breath, and beauty. For this 
reason alone, I am totally thankful to my children's dads, not 
to mention my own dad.
    Though my brother and I were abandoned as infants by our 
biological father, a college professor, strange as it may seem 
I have grown to appreciate many of his qualities that continue 
in legacy through me, not to mention that awesome, hard to 
pronounce last name . . . Nkonoki!
    In some ways, exploring what's good about your dad through 
direct contact, or relatives, allows us to further appreciate 
ourselves, and by dealing with and then letting go of any hurt 
and or resentment and anger allows many of us (including adults 
who have yet to heal their inner child) and the lives of their 
own children to be set free. If you have a dad in your life, 
don't profess to know what it feels like to wish to, or not 
have one in any situation. All we know is that a greater 
strength must prevail.
    Look at the children of President John F. Kennedy, or, Dr. 
Martin Luther King, Jr. Nothing could replace within these 
children their need for a father, but I am sure the positive 
support of their families, and some overall connection helped 
them endure. Yet they are all considered to carry on the legacy 
of their father, despite the brief time they spent with him in 
life. We all have a dad, whether alive, deceased, active or 
inactive, known or unknown he is in our genes living through us 
today as we exist.
    Remember, kids have no choice as they join pre-established 
teams, some winning and some bound to lose despite all the best 
efforts. I don't know any team that won't come together at some 
point, and try to win again.
    In this case we all must be team players trying to win on 
behalf of kids. That includes, schools, churches, community 
agencies, business, and government along with moms and dads, 
and most importantly you!
    Winning Tips for your Team!

                               Who We Are

    The Tate George Dream Shot Foundation was founded seven 
years ago by then NBA player and former University of 
Connecticut basketball great Tate George, along with marketing 
executive Lisa Nkonoki, at that time a single mom. It is a 
comprehensive youth development organization designed to meet 
the needs of area youth and their families. Our main purpose is 
to nurture and inspire young people to pursue their dreams 
through the development of leadership skills, intellectual 
abilities, positive attitudes, and family values.
    Some of the programs we have initiated to ensure this goal 
are: M y M's (Motivating Young Mothers), designed to uplift and 
empower at risk teens and young, unwed parents; Tate George 
Basketball Camp Scholarship program for disadvantaged youth; 
and, most notably, our Dads Do Make A Difference<Register> 
program which currently sponsors the Dads/Kids Campaign 
developed by the foundation and adapted by the State of 
Connecticut Dept. of Social Services.
    The support we have received to date has been deeply 
gratifying. Last year we were visited by Deputy Undersecretary 
of Education W. Wilson Goode and were favorably assessed as a 
program for other communities and agencies to follow. Long time 
supporters include University of Connectcut's head basketball 
coach Jim Calhoun, who has been a long time supporter, serving 
as a spokesperson for the Dads and Coaches campaign. 
Connecticut Gov. John Rowland and Lt. Gov. Jodi Rell have also 
served as official spokespersons in support of this campaign, 
with Lt. Gov. Rell going so far as to write to Lt. Gov.'s 
across the country recommending that they take a look at this 
program and adapt it to suit their specific needs.
    We have also enjoyed tremendous support via endorsements 
and personal appearances from the likes of Earvin ``Magic'' 
Johnson, TV personality Gayle King and Grammy award winning 
recording artist Brian McKnight and a host of others.

                            Current Projects

    The Dads Do Make A Difference<Register> project is 
currently involved in developing several new programs. One, the 
Dads Tool Kit<Register> for new fathers, will be administered 
in cooperation with area hospitals The other, Dads' Backpack 
Day One program, is in collaboration with Head Start programs 
in New Britain, Hartford, and Manchester. In this program, 
fathers are encouraged to accompany their children on their 
first day in the program, where they will be presented with a 
Backpack filled with literature explaining to them the 
importance of staying involved in their children's education 
for the long haul.
    In addition, we are also set to expand the Dads/Kids and 
Technology program whose goal is to recruit and train fathers 
to be able to work with their children to learn and use 
computer technology, interface with teachers, and assist with 
homework.

                                Why Now

    Since 1950, the percentage of American children living in 
fatherless families has climbed from 6 to 24 percent as 
recently as 1994. These children are five times more likely to 
be poor and ten times more likely to be extremely poor. They 
are twice as likely to drop out of high school and 
significantly more likely to end up in foster or group care and 
in juvenile facilities. Girls from single parent families are 
at three times the risk of becoming unwed, teenage mothers. 
Boys whose fathers are absent have a much higher likelihood of 
growing up unemployed, incarcerated, and uninvolved with their 
own children, ultimately perpetuating the same crippling cycle.
    However, there is some good news. Major research released 
as recently as 1997 has shown that fathers who are involved 
with their children's education in a positive manner have a 
tremendous impact on offsetting many of these troubling 
statistics. Daughters are three times less likely to become 
pregnant as teens and sons are ten times less likely to land in 
jail. The list goes on from there outlining the tremendous, 
positive affects that a healthy, nurturing rapport between a 
father and his child has on the likelihood that that child will 
grow up to become a constructive, self-sufficient, and well-
adjusted member of society.
    It is definitely time to sit up and take notice that a 
father's beneficial impact on the growth, development, and 
welfare of his child is measurable by far more than simply the 
size of his paycheck, as significant as that may be. And that 
is the reason for the drive to initiate this project, for the 
time is now to capitalize on the growing awareness among all 
those who deal with children: clergy, educators, social 
workers, and other caregivers, that it is high time to foster a 
tide of reconciliation and return the father to a productive 
place within the life of his child.

                               Our Goals

    Our goal is to change behavior. By achieving increased 
levels of positive, satisfactory interaction between 
participating fathers and their children, as well as increased 
levels of self-esteem among fathers, measured by their 
increased ability to set definable goals for themselves and 
demonstrate the self-initiative to realize them. In addition, 
it will be assessed by witnessing the level of satisfaction 
that participating children perceive in interactions with their 
fathers. These goals will be monitored through self-assessment 
questionnaires, program surveys and periodic focus groups.

                              Our Partners

    Dads Do Make A Difference<Register> has been cited by the 
National Center for Children in Poverty as the lead 
organization for the state of Connecticut in raising awareness 
about positive fatherhood initiatives since 1996.
    DDMAD works closely with Head Start programs in New 
Britain, Hartford and Manchester and has partnered with the CT 
Dept. of Social Services to humanistically foster the 
involvement of fathers with their children via an effective 
program to advance the needs of this community.
    We have also worked with the CT Dept. of Children and 
Families in helping to train parent and service providers 
dealing with fathers in encouraging them in being more involved 
with their children. We were the only organization in 
Connecticut, and one of the few in the Northeast, to receive a 
1997 mini grant for fatherhood initiatives from the Dept of 
Health and Human Services for our programs.

                How will Sccess be Defined and Measured?

    Success will be defined as being able to demonstrate an 
increased level of satisfaction in the relationships between 
the participating fathers and their children along with an 
increased retention of these fathers as part of their families, 
regardless of whether or not they are in the home. Another key 
measure of success will be an increase in participating 
fathers' positive self-initiative to financially participate in 
the lives of their children, if that has been an issue. In 
addition, program participants will be tracked over a period of 
time to assess their ability to maintain these initiatives on 
their own. Studies can also be initiated comparing the status 
of the population of children of those who participate in our 
program with their counterparts in the general population.

                           Target Population

    Although Dads Do Make A Difference<Register> programs 
welcome participation by all children and their families, the 
majority of those taking advantage of our services to date have 
been those from the lower-income, ethnic and urban communities. 
In addition, the majority of our population is English 
speaking, with literature made available in Spanish as needed.

                        Participant Involvement

    Upon completion of any of our programs, participants will 
be asked to submit an evaluation sheet whereby they will be 
able to make known how the programs suited their needs and met 
their expectations. They and their families will also be asked 
to participate in focus groups from time to time. The results 
of these processes will then be used to assist us in 
identifying target areas for future growth and development, as 
well as streamlining any existing, continuing programs.
    In addition, program graduates can also be called upon to 
participate in outreach initiatives through churches, schools, 
and community centers within their communities, as well as at 
the Creative Center itself.

                                <F-dash>


Dads Do Make A Difference<Register>--Program Overview

    <bullet> Father Advocacy and Information.--Dream Sheet 
Idea/Roadmap Development, education/training, technical 
assistance, info regarding court appearances, legislation 
updates, legal rights parameters, new initiatives, paternity 
determination, child support, job referrals, motivation/goal 
setting
    <bullet> Awareness/PR Campaign.--Billboards, collateral 
pieces, mailings, surveys, focus groups, fact finding 
initiatives, info share with other groups
    <bullet> Free scheduled events and activities.--Dads+Kids 
Night at the Movies, Dads+Kids Night at various sporting events 
(i.e., CT Wolves, CT Pride), Dads+Kids Night at the NBA, Annual 
Multicultural Book Fair, Dads+Kids Picnic & Fishing in the 
Park, Dads+Kids Holiday Feast, Dads+Kids Model Search, 
Dads+Kids at the Today Show
    <bullet> Monthly Brainstorming Session for Service 
Providers.--Opportunity to provide technical assistance, 
outreach and support for new and existing Dads programs
    <bullet> Hospital Paternity Initiative.--New Dads Tool Kit, 
Pre-school Back Pack, Teen Dads Pack, Reunited/Positive Male 
Pack
    <bullet> Parenting Skills Training.--``All Star Dads'' 
program teaching successful parenting techniques
    <bullet> Open Forums for Dads.--Opportunity for Dads to 
constructively express their feelings and be heard
    <bullet> Head Start Partnerships (Good Guys).--Current on-
going working relationships with New Britain, Hartford, and 
Manchester to provide training, outreach, activities, etc.
    <bullet> Dads Do Speakers Bureau.--Partnership with 
celebrities and entertainment figures
    <bullet> Dads Info Van.--Traveling to parades and other 
public events to disseminate literature, raise awareness
    <bullet> F.A.C.T. Blvd (Fathers And Children Together).--In 
school initiative to involve Dads in their child's education, 
Dads/Kids + Technology
    <bullet> Dads on Tour In partnership with Xando's and 
Zuzu's coffee bars

                                <F-dash>


Dream Shot Foundations/Dads Do Make A Difference

                   Direct Services for Dads and Kids

    <bullet> Roger Vann, father of five and two year DDMAD program 
participant, realizes his dream of owning his own home
    <bullet> Over 800 parents, educators, students, Dads, and service 
providers participated in various DDMAD educational training programs, 
technical assistance and referral initiatives
    <bullet> Approximately 3,000 Dads & Kids serviced annually by DDMAD 
programs and events in cooperation with other organizations
    <bullet> Dads + Kids Night at the Connecticut Pride
    <bullet> Dads + Kids Night at the Movies, offering monthly passes 
to pre-screenings
    <bullet> Dads Night Out
    <bullet> Dads + Kids Night at the Connecticut Wolves Game
    <bullet> Dads + Kids Night at area sporting events
    <bullet> Unveiling of the first official ``FACT BLVD/ Dads BLVD'' 
in city schools along with Mayor Lucien Pawlak, U.S. Deputy Assistant 
Undersecretary of Education W. Wilson Goode, Congresswoman Nancy 
Johnson, and Superintendent of Schools, James Rhinesmith.
    <bullet> Training Sessions with ``Dads,'' ``Moms,'' and ``Kids''
    <bullet> Candid ``Dads'' interviews on tape
    <bullet> Multi-Cultural Book Festival at Hartford Stage
    <bullet> Dads + Kids Model Search, City of Hartford, for 1999 Dads 
+ Kids Calendar
    <bullet> Annual Dads and Kids Fun Run/Walk and Picnic in the Park

                      Public Awareness Initiatives

    <bullet> ``National Plug'' for the ``Dads Do Make A Difference'' 
project, and sponsor Xando's. Live appearance on NBC's ``Today Show,'' 
including presentation of official Dads Do Make A Difference T-shirts 
to weatherman Al Roker and co-host Katie Couric.
    <bullet> Photo-op, and presented Vice President Al Gore with a 
``Dads Do Make A Difference'' official T-shirt
    <bullet> Official visit by U.S. Dept. Assistant Under Secretary of 
Education W.Wilson Goode visits schools in Greater Hartford and New 
Britain, CT on behalf of the ``Dads'' project and to talk to parents, 
staff and students about the importance of ``Dads.''
    <bullet> Dads + Kids Billboard-I 84 Hartford, Connecticut
    <bullet> State of Connecticut Proclamation--June 1998 ``Dads month 
by Governor John G. Rowland
    <bullet> City of Hartford, Mayor Mike Peters, along with City 
Manager Sandra Kee Borgess proclaim June 1998 Dads ``Month in the city 
of Hartford.''
    <bullet> More than half a million dollars in Electronic Media, 
Advertising and Promotion
    <bullet> Dads ``Public Service Announcement'' with businessman 
Brian Foley
    <bullet> Presented outline of DDMAD project along with 
complementary pin to President Clinton on Martha's Vineyard
    <bullet> Several visits from U.S. Dept. of Health and Human 
Services to Dads programs
    <bullet> Lead CT service organization cited by the Center for 
Children in Poverty
    <bullet> Approx. 1.8 million people reached to date through various 
DDMAD media campaigns
    <bullet> Press Event to Kick-off June 1998 as ``Dads'' Month, and 
calendar contest/Lisa utilized as expert for local CBS affiliate, Ch 3 
interview ``Dads''/visitation and custody case
    <bullet> ZuZu's and Xando's Coffee and Bar on tour with ``Dads''--
East Coast locations
    <bullet> National Football League and Major League Soccer Players 
appear at Washington, D.C. Xando's, for a press event during Fathers 
Day week.
    <bullet> Included in the nationally distributed publication, ``The 
ABC's of Parent Involvement in Education,'' published by the National 
Parents' Day Coalition as a national information resource
    <bullet> DDMAD featured in Essence magazine
    <bullet> Lisa Nkonoki recognized as a 40 Under 40 business award 
recipient by the Hartford Business Journal for her contributions to the 
DDMAD project and community at large
    <bullet> Lisa Nkonoki awarded the 1999 CATCH (Committed Adults to 
Children in Hartford) award. Nominated by renowned City of Hartford 
Human Services Director, Dr. Ramon Rojano

              Collaborations with Other Service Providers

    <bullet> Dads Project in area schools/ PTO-PTA
    <bullet> Offering technical assistance to local agencies such as 
Head Start, Family Services Division of the CT Dept. of Social 
Services, City of Hartford Human Services
    <bullet> Met with key leaders in the ``Dads'' Movement Nationally
    <bullet> Interfacing with Head Start locally, regionally and 
nationally
    <bullet> Participated as panelists in ``Hot Topics'' Dads Workshop 
at a statewide conference for over 300+parents sponsored by ``State of 
Connecticut DCF'' that featured W. Wilson Goode from the U.S. 
Department of Education, and State Representative Kenneth Green.
    <bullet> Initiated Monthly ``Dads'' Brainstorming Sessions for 
Service providers, community leaders and fathers.
    <bullet> Training Sessions/Open Forums with community 
organizations/schools etc.

                                <F-dash>

    Chairman Johnson of Connecticut. Thank you very much, Lisa.
    Vicki Turetsky, the senior staff attorney for the Center 
for Law and Social Policy. Nice to have you with us.

STATEMENT OF VICKI TURETSKY, SENIOR STAFF ATTORNEY, CENTER FOR 
                     LAW AND SOCIAL POLICY

    Ms. Turetsky. Thanks. Thanks for the opportunity to testify 
today. I am the granddaughter of a Baptist minister. 
[Laughter.]
    My name is Vicki Turetsky. My work at the Center for Law 
and Social Policy is focused on child support. Before working 
at CLASP, I was employed by MDRC, and was involved in 
implementing Parents Fair Share. My testimony today will focus 
on child support distribution policies, and how they work 
against poor mothers and fathers.
    Many poor mothers and fathers are capable of building 
workable partnerships to help each other support and raise 
their children. However, when a TANF father contributes 
financial support to his children, the money must be turned 
over to the State, and may not be used to support the children.
    Because TANF fathers know that their child support is kept 
by the State and does not benefit their children, they are 
discouraged from participating in programs like Parents Fair 
Share and Partners for Fragile Families. New public investments 
in fatherhood programs may be met with only limited success 
unless we begin to treat child support as part of the family's 
own resources, rather than as an offset to welfare costs.
    When the child support program was established, it mainly 
served as a cost recovery program for AFDC. The AFDC bargain 
was that the State would guarantee public support for poor 
families. In exchange, a mother needing AFDC would be required 
to turn over her right to child support owed by the father. 
Support collected from the father would be kept by the State 
and used to offset AFDC costs. That support is shared with the 
Federal Government.
    The TANF bargain is supposed to be quite different. TANF 
evinces a clear public policy preference that poor families 
rely on private resources before public resources. Under TANF, 
mothers and fathers are expected to work and support their 
children from their own resources before turning to the 
Government. However, the basic rule remains the same under TANF 
as it did under AFDC. Child support owed or collected when a 
family receives TANF belongs to the State, not the family.
    Current child support distribution rules make no sense to 
poor mothers and fathers, and they have interfered with States' 
abilities to implement policies supportive of family self-
sufficiency and family formation. For the most part, poor 
mothers and fathers want to do right by their children. The 
research indicates that many poor fathers see their children on 
a regular basis, particularly when they are small.
    The parents want to be able to use their own money to 
support their children. When poor mothers look at their budget, 
they would prefer to use their own money, their earnings and 
their child support, even if it means reduced benefits. Poor 
fathers want to know that their money is contributing directly 
to their child's support.
    We have created an untenable situation for poor fathers and 
mothers who want to improve their children's lives. We tell 
poor mothers and fathers that we want them to work together, we 
want them to support and raise their children together, we tell 
them we want them to rely on their own private resources before 
seeking public help. However, our child support distribution 
rules send a contradictory message: Child support is off limits 
for TANF families seeking to budget and plan for the children's 
support.
    If the father has $50 in his pocket, he might rightly 
perceive that his choice is one between paying back the State 
and buying shoes for his child. Sometimes he pays sporadic 
informal support for the children. Yet no one is well served 
when parents agree to under-the-table payments and avoid the 
formal child support system. If a TANF mother accepts informal 
support, she is vulnerable to welfare fraud prosecution. In 
addition, informal payments are more sporadic and typically 
smaller than formal support payments. If a TANF father pays 
informal support, his payment will not be credited on his 
account through the formal system, and he will be liable for 
the full payment.
    Distribution changes enacted in PRWORA are intended to move 
States in a family first direction that gets more money in the 
hands of post-TANF families. This is the right direction. 
However, the rules are extremely complicated and costly to 
administer in practice. When fully implemented, the new law 
will require States to maintain 10 accounting buckets.
    The sheer complexity of the new rules will aggravate a 
problem that already exists in many States: timely and accurate 
distribution of child support once the family leaves TANF. 
Although current support is supposed to be paid to families as 
soon as they leave TANF, the child support agency sometimes has 
trouble turning that money around, and sometimes it takes 
months for the family to get the support after they have left 
TANF.
    I want to commend you to Senator Kohl's proposal, which 
would allow States to pass through all support to TANF and 
former TANF families. CLASP supports this direction. States 
should be given the option to pass through and the option to 
disregard all support, including the Federal and the State 
shares. In addition, we think that the distribution rules ought 
to be simplified across the board.
    Three States, Wisconsin, Connecticut, and Vermont, are 
currently operating programs like this under waiver. Early 
evaluation results in Wisconsin indicate that families who get 
the full pass through are more likely to leave W-2 sooner. In 
addition, State costs are about the same, even though they are 
giving up their State share of welfare collections.
    In sum, effective child support enforcement should be used 
to help fulfill the goals of TANF. Child support enforcement 
supports TANF goals perhaps than any public policy approach. 
Child support distribution rules should help rather than 
undermine the efforts of poor mothers and fathers to work 
together. Child support should be treated as a family resource 
rather than as recouped public debt. Thank you.
    [The prepared statement follows:]

Statement of Vicki Turetsky, Senior Staff Attorney, Center for Law and 
Social Policy

    Chairwoman Johnson and Members of the Subcommittee: Thank 
you for this opportunity to testify today on ways to encourage 
poor mothers and fathers to work together to support and raise 
their children. I am a Senior Staff Attorney at the Center for 
Law and Social Policy. CLASP is a nonpartisan, nonprofit 
organization engaged in analysis, technical assistance and 
advocacy on issues affecting low-income families. We do not 
receive any federal funding. My focus at CLASP is child 
support. Before working at CLASP, I was employed by Manpower 
Demonstration Research Corporation (MDRC), and helped implement 
the Parents' Fair Share pilot project.
    Many poor fathers and mothers are capable of building 
workable partnerships to help each other support and raise 
their children. However, in study after study, poor mothers and 
fathers of children receiving TANF say there is a fundamental 
contradiction in the child support system that undermines their 
ability to work together to support their children. The 
contradiction is that when a TANF father contributes financial 
support to his children, the money must be turned over to the 
state and may not be used to support the children. Because TANF 
fathers know that their child support payments are kept by the 
state and do not benefit their children, they are discouraged 
from participating in programs like Parents' Fair Share.
    My testimony today will specifically address the negative 
impact of current child support assignment and distribution 
policies on the ability and willingness of poor mothers and 
fathers to work together on behalf of their children. New 
public investments in fatherhood programs may be met with only 
limited success unless we begin to treat child support as part 
of the family's own resources, rather than as an offset to 
public welfare costs. Many researchers, state administrators, 
and advocates for poor mothers and poor fathers agree that the 
child support program needs to be realigned with TANF self-
sufficiency and family formation goals.
    To bring the program into better alignment with TANF, 
PRWORA ``family first'' distribution rules should be expanded. 
In addition, states should be given the option to distribute 
all support paid by fathers for their children, regardless of 
welfare status.

       The Child Support System Emphasizes Welfare Cost Recovery

    When the child support program was established, it mainly 
functioned as an AFDC cost-recovery mechanism. The AFDC bargain 
was that the state would guarantee public support for poor 
families until their children reached the age of majority. In 
exchange, a mother needing AFDC would be required to assign 
(turn over) to the state any rights to private support owed by 
the father. The assignment applied to child support owed before 
the family went on welfare, as well as support owed while the 
family received welfare. The state then would attempt to 
collect the child support from the father. Support collected 
from the father would be kept by the state and shared with the 
federal government as partial reimbursement for AFDC costs.
    The TANF bargain is supposed to be quite different. TANF 
evinces a clear public policy preference that poor families 
rely on private resources before public resources. Under TANF, 
mothers are expected to work and to support their children from 
their own resources whenever they can. This expectation that 
mothers develop their capacity for self-support is backed by 
time limits. Fathers, too, are told they must help support 
their children. The expectation that fathers will help support 
their children is backed by strengthened paternity 
establishment and child support enforcement procedures enacted 
under PRWORA.
    The ``families first'' child support distribution policies 
adopted under PRWORA was an important first step in allowing 
families leaving TANF to treat child support as a family 
resource. The new distribution policy gives priority to child 
support payments owed to former welfare families over payments 
owed to the state. The new distribution policy also allows 
families to keep some of the child support owed before the 
family went on assistance. However, the basic rule remains the 
same under TANF as it did under AFDC: child support owed or 
collected while a family receives TANF belongs to the state, 
not the family.
    The child support program is undergoing dramatic structural 
changes due in part to TANF caseload declines. In 1978, more 
than 75 percent of the child support caseload involved current 
AFDC families. By 2000, less than 20 percent of the child 
support caseload will be current TANF families. The vast 
majority of cases will involve low-income working families who 
have left or stayed off of TANF. The child support program's 
mission is evolving toward helping low-income families reduce 
welfare receipt and sustain low-wage employment. Child support 
distribution policies should support, not undercut, these TANF 
goals.
    Instead, program's reimbursement-driven distribution 
policies have interfered with states' ability to implement 
policies supportive of family self-sufficiency. The recent 
changes in TANF, combined with long-term trends in the child 
support caseload, have resulted in a misalignment between the 
program's ability to deliver effective services to families and 
a program structure that emphasizes cost-recovery. The child 
support program, like other human services program, must be 
brought into realignment with TANF goals and the realities of 
time-limited welfare.

     Child Support Distribution Policies Work Against Poor Fathers 
                              and Mothers

    Current child support distribution rules make no sense to 
poor mothers and fathers. Parents want to be able to use their 
own money to support their children. When poor mothers look at 
their budget, they would prefer to keep their own money--their 
paycheck and child support--even if it means reduced public 
benefits. Poor fathers want to know that their money is 
contributing directly to their children's support. Yet poor 
mothers and fathers both know that unless the father can pay 
enough keep their children off of TANF, his support payments 
will be kept by the state and will not directly benefit their 
children. \1\
---------------------------------------------------------------------------
    \1\ Since most custodial parents are mothers and most noncustodial 
parents are fathers, this testimony uses the term mother to refer to 
custodial parents and father to refer to noncustodial parents. 
Obviously, the situation can be, and sometimes is, reversed.
---------------------------------------------------------------------------
    For the most part, poor mothers and fathers want to do 
right by their children. Most fathers know they should take 
responsibility for their children. The research indicates that 
many poor fathers see their children on a regular basis, 
particularly when their children are small. Child support 
payments may increase the frequency of contact between fathers 
and children and fathers' involvement in their children's 
upbringing. Many mothers report that they encourage their 
children's emotional relationship with their father and his 
family, and try to keep the father involved in the children's 
lives when feasible.
    Many mothers and fathers are aware of each other's economic 
circumstances, and repeatedly re-negotiate their financial 
arrangements. Sometimes she holds back on child support 
enforcement. Sometimes, he pays informal financial support for 
the children. Sometimes, he does not pay regular support, but 
makes irregular in-kind contributions, such as diapers, school 
clothes, and Christmas gifts. Sometimes, he pays out of both 
pockets--he pays off the state a little and he pays her a 
little. Sometimes she settles for non-financial support. 
Sometimes, they fight about the money. Sometimes, he walks 
away.
    We have created an untenable situation for poor fathers and 
mothers who want to improve their children's lives, but can not 
fully support their children without some public help. When 
TANF fathers pay through the formal child support system, their 
payments usually do not go back to their children. If the 
father has $50 in his pocket, he may rightly perceive his 
choice as one between paying back the state and buying shoes 
for his child.
    Yet no one is well served when parents agree to under-the 
table payments and avoid the formal child support system. If a 
TANF mother accepts informal support from the father, she is 
vulnerable to a welfare fraud prosecution. In addition, 
informal payments are made at the discretion of the father. 
They are likely to decrease as the child gets older and the 
parents' relationship changes. If a TANF father pays the mother 
informal support, his payment will not be credited through the 
formal system, and he will be liable for full payment. Informal 
payments may be smaller and less regular, and there may be more 
disputes about the amounts paid.
    We tell poor mothers and fathers that we want them to work 
together to support and raise their children. We tell them that 
we want them to rely on their own resources before seeking 
public help. However, our child support distribution policies 
send a contradictory message: child support payments are off-
limits for families seeking to budget and plan for their 
children's support.

             Welfare Arrears Often Create Unmanageable Debt

    Poor fathers often complain about child support arrears. 
The arrears problem is part and parcel of a child support 
system that is based on welfare cost recovery. If a poor 
father's children are on welfare, his support order often is 
not based solely on his ability to pay. Instead, the order may 
be ``front-loaded'' with unreimbursed state debt, such as pre-
order welfare benefits or Medicaid expenditures paid for the 
child. Childbirth costs may be added to the initial order. This 
can amount to tens of thousands of dollars when a child is born 
prematurely or with other health problems. Paternity testing 
costs, litigation costs, and interest may be added to the 
support order. ``Front-loading'' the order with costs that are 
unrelated to the poor father's ability to pay can create an 
unmanageable debt right from the beginning. As a practical 
matter, they often create a debt that will never be paid.
    In many states, the state attempts to collect support from 
fathers even when they are living with their children in a two-
parent family. Sometimes, they do not tell the welfare agency 
that they are living together because of policies basing 
welfare eligibility on father absence. Sometimes, they do tell 
the agency, but it does not operate to suspend the child 
support order and ``state debt.'' In addition, the state may 
attempt to collect when the parents' financial circumstances 
worsen. For example, the father may lose his job after the 
order was entered.
    State child support programs need to deal with the problem 
of arrears owed by parents, that will never be paid off. The 
best approach is to begin treating child support as money owed 
to the family, not to the state. Much of the arrears on the 
books stem from state practices that use the child support 
system to recoup welfare and Medicaid costs. Public policies 
affecting the treatment of arrears should reflect child support 
program goals of increasing family self-sufficiency and 
supporting family formation, not cost recovery.
    In addition, state child support programs should implement 
review and modification procedures that (1) make it easy for 
parents to request a review of the child support order and 
accumulated arrears, (2) respond quickly and flexibly to 
mothers' and fathers' requests for review of the order and 
adjust the order upward or downward according to the parents' 
financial and family circumstances, and (3) allow for a review 
and modification of accumulated arrears.
    The cure for welfare debt is not to repeal the Bradley 
amendment. The Bradley amendment, enacted as a part of the 
Omnibus Reconciliation Act of 1986,\2\ requires that child 
support payments owed under a support order be treated just as 
seriously as any other state court judgment. However, as with 
any other judgment, child support orders may be compromised or 
settled by agreement of the parties according to state law.
---------------------------------------------------------------------------
    \2\ 42 U.S.C. 666(a)(9).
---------------------------------------------------------------------------
    If I fall being on my credit card payments, the credit card 
company can take me to court and obtain a judgment against me. 
A court can not undo that judgment at the request of one party 
if it was properly entered. However, I can sit down with the 
credit card company and tell them that I can not afford to 
repay the debt. The credit card company can work out a 
settlement with me and waive enforcement of the judgment. 
Similarly, if I can not afford to pay my child support order, 
the state child support agency and/or custodial parent can 
suspend, compromise, or forgive arrears owed to the agency or 
parent. The U.S. Department of Health and Human Services 
recently reissued a policy statement clearly stating that 
states have the authority to suspend, compromise, or forgive 
TANF arrears owed to the government.

     Current Distribution Rules Work Against Families Leaving TANF

    Distribution changes enacted in PRWORA are intended to move 
states in a ``family-first'' direction that gets more money in 
the hands of post-TANF families. However, they are extremely 
complicated and costly to administer in practice. They are the 
uneasy result of legislative compromise between contradictory 
program goals of helping families become and remain self-
sufficient and recovering welfare costs. When fully 
implemented, the new law will require states to maintain ten 
accounting ``buckets.''
    The sheer complexity of PRWORA distribution rules will 
aggravate a problem that already exists for many states: 
accurate and timely payment of child support to former TANF 
families. Although current support is supposed to be paid to 
families as soon as they leave TANF, the child support agency 
sometimes continues to retain current support for months after 
welfare exits. Instead of stabilizing the family's child 
support income before the family leaves TANF, child support is 
interrupted right at the point of exit and for some months 
thereafter.
    The complexity of new distribution rules is also costly for 
the states and federal government. Problems with automating 
complicated distribution rules have been cited by many federal 
and state administrators as a contributing cause of systems 
delays and costs. The new rules require disproportionate 
training and staff time devoted to administering the rules, 
correcting errors, and explaining hard-to-understand decisions 
to parents. Because the new policy is so difficult to explain 
and administer, it will further erode confidence in the 
program's fairness and accuracy. Bluntly put, the 
administrative costs and costs related to program credibility 
of maintaining an overly complex distribution policy squanders 
limited program resources.
    Under PRWORA, states have the option to distribute the 
state share of child support to families, but they must return 
the federal share to the federal government. This is a change 
from previous policy, when states were required to pass through 
and disregard $50 to AFDC families ``off the top'' of 
collections, that is, before the federal and state shares of 
collections were calculated. Almost half of states continue to 
pass through some amount of child support from the state share. 
However, under current distribution rules, the state's decision 
to pass through part of the state share to families actually 
increases the complexity of distribution by adding another 
distribution ``pot.''

        Child Support Has the Potential to Reinforce TANF Goals

    TANF evinces a clear public policy preference that low-
income families rely on private resources before public 
resources. The stated purposes of TANF are to: (1) provide 
assistance to needy families; (2) end the dependence of needy 
parents on government benefits by promoting job preparation, 
work, and marriage; (3) prevent and reduce the incidence of 
out-of-wedlock pregnancies; and (4) encourage the formation and 
maintenance of two-parent families. The research indicates that 
effective child support enforcement supports TANF goals, 
perhaps better than any other public policy approach:
    <bullet> Emerging research suggests that stronger child 
support enforcement will reduce non-marital births, divorce, 
and marital disruption. States with higher rates of paternity 
establishment and effective child support collection systems 
have lower rates of nonmarital births. A $136 increase in IV-D 
expenditures per female-headed family leads to a 2.3 percent 
lower nonmarital birth rate. By contrast, a $1,253 decrease in 
annual welfare benefits is only associated with a 0.063 percent 
decrease in nonmarital fertility. Child support enforcement not 
only deters births more effectively than welfare cuts, but it 
increases the income of children already born.
    <bullet> The number of studies documenting that child 
support reduces poverty and welfare dependence is now quite 
large. States with effective child support collection systems 
have significantly lower welfare caseloads. Child support is 
playing a moderate to large (and unrecognized) role in 
declining welfare caseloads. Enforcing child support is more 
efficient than lowering welfare benefits in moving families out 
of caseloads and preventing them from entering caseloads. While 
cuts in welfare benefits reduces the economic well-being of 
single-mother families, enforcing child support increases it.
    <bullet> Cost avoidance research from Washington State 
indicates a synergic effect between child support and earnings 
once the family leaves assistance and begins receiving 
distributed collections. Compared to welfare, child support is 
more complementary to work because child support payments do 
not decline like welfare benefits when the mother's earnings 
increase.

    <bullet> There is growing evidence that child support 
enforcement has improved collections, especially among fathers 
whose children are likely to be on welfare. From 1980 to 1996, 
the proportion of unmarried mothers who were on welfare and had 
a child support collection nearly tripled. However, the 
significant increase in child support receipt rates has been 
masked, because the caseload composition has shifted away from 
divorced families to non-marital families. Strikingly, welfare 
collections remained stable or even increased in some states 
for the first four years after TANF caseloads began to decline.

 Simplify Distribution and Give States the Option to Pass through All 
                          Support To Families

    Senator Kohl intends to reintroduce a version of his bill 
last session that would allow states to pass through all 
support to TANF and former TANF families. CLASP strongly 
supports this direction. States should be given the option to 
distribute all child support, including federal and state 
shares, to families. CLASP also recommends that current 
distribution rules should be simplified across-the-board in 
order to put more child support in the hands of families.
    By allowing states the option to distribute all support to 
families, Congress would give states the flexibility to bring 
their child support program into better alignment with TANF 
goals. States would be better able to use child support as part 
of a strategy to help families reduce their dependence on TANF, 
help poor fathers improve their earnings capacity, help poor 
and low-income mothers and fathers to combine their earnings to 
support and raise their children, and promote family formation 
goals:
    <bullet> Distributing child support to the TANF family 
increases the likelihood that child support payments will be in 
place and will continue uninterrupted when a family leaves 
TANF.
    <bullet> It also gives the mother with earnings an accurate 
sense of the amount and regularity of child support payments 
available to combine with her earnings.
    <bullet> It allows the father to use his money to help 
support his children.
    <bullet> It gives both parents a greater incentive to 
cooperate with formal collection efforts.
    A state option to disregard some or all of the support in 
determining TANF eligibility and benefits is an important 
component to the proposal. Parents have a greater incentive to 
cooperate when child support distributed to the family actually 
increases their children's financial well-being. When child 
support improves family income, it boosts both parents' work 
effort and may help the family leave TANF sooner. States need 
the flexibility to set child support disregard policies in a 
way that best fits their TANF program.
    Three states currently have waivers to distribute all 
current support and to disregard some or all of the support for 
TANF purposes. Wisconsin passes through and disregards all 
support, while Connecticut passes through all support and 
disregards $100, and Vermont passes through all support and 
disregards $50. Evaluation efforts are underway, and while it 
is too early to assess the impact of these policies, Wisconsin 
and Vermont have reported early results:
    <bullet> Early results in Wisconsin suggest that families 
receiving the full pass-through and disregard who were 
initially assigned to a lower W-2 tier were more likely to 
leave welfare by the fifth quarter than control-group families. 
In addition, while the state retained less child support, net 
government costs were not significantly different.
    <bullet> Early results in Vermont suggest that the state's 
pass-through policy increased the average child support payment 
and the proportion of families receiving child support.
    In summary, child support distribution rules should be 
changed to allow states to pass through all support for TANF 
and former TANF families. In a post-TANF world, it is more 
important than ever that child support distribution rules 
satisfy several principles. First, the rules should help, 
rather than undermine, the efforts of poor mothers and fathers 
to work together to support their children. Second, child 
support should be treated as a family resource, not recouped 
public debt. Third, the distribution rules should make sense to 
families and be simple to administer and explain. The job of 
the child support program should be to establish paternity, 
collect support, and get the support to the family. The job of 
the TANF program should be to set policies related to child 
support income that encourage poor fathers to help support 
their children and that help families who are exiting TANF.

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much for 
your testimony. We have talked about this before. As one who 
fought hard to get at least arrearages paid first to the 
families before the States and failed, we got half and half, 
the barriers to this kind of change are high. But it is 
absolutely imperative that we make this change, because you are 
absolutely right about all the human implications of that 
support going directly from the father to the mother and the 
child. So we look forward to working with you on that, and to 
straightening out the problems over time that make it 
difficult.
    I wanted to ask you, Mr. Ballard, how much does it cost to 
run your programs? You have really been out in the field and 
working for quite a long time now. I very much like the idea in 
your program, and there's a lot of good ideas on the table, but 
I do like the idea that there's a couple there modeling 
marriage relationships, because I think one of the reasons that 
these early relationships don't survive is the same reason that 
many marriages end up in divorce. Marriage isn't easy, and it 
takes time to figure out how to make it through. The legal tie 
sometimes holds you together during periods of frustration, 
disagreement, disappointment. That's really actually how we 
learn that being there matters, and staying power wins. So I 
think the idea of the couple in the community modeling the 
relationship is really an interesting one, as well as your sort 
of home-based view, where you go into homes, but you give 
services from home.
    I would like to just comment too that I was very pleased in 
our earlier discussion that you paid the man and his wife 
equally, just for the record, and well, I might add.
    So what does it cost to run your program? Can you estimate 
what the cost per father is for a program like yours?
    Mr. Ballard. Yes, Madam Chair. But before I do that, I 
would like to introduce people from my offices. We have the 
Daleys from Cleveland, OH. We have the Jenkins here in the 
District. And we have the Halls from Nashville, TN. They came 
up to demonstrate the importance of couples living in the 
community, and sharing these services with fathers and their 
families.
    Chairman Johnson of Connecticut. That's excellent, and 
welcome to you. We look forward to your commenting to us 
afterward.
    Mr. Ballard. It costs about $3,200 to serve one person. 
However, we find that we are unable to just serve the father. 
In most cases, we have to serve the mother first. Before we can 
even get to him, she has to be approached. As the young lady on 
the end of the panel stated, unless her heart changes toward 
the father, we can't get to him. So we go out into the 
community, doing outreach door-to-door, and we get to her 
first, work with her, and then she gives us the father's name.
    Now the children in many cases are angry. So the child also 
has to be worked with. So it's $3,200 in average cost to work 
with the father, and then add on as we begin to involve other 
members, including his parents, as well as the girl's parents.
    Chairman Johnson of Connecticut. So really to reach the 
circle of the whole family, that's not really included in your 
$3,200 per father.
    Mr. Ballard. No. See, we spend about 3 to 4 hours a week 
with the father in his home, providing very intensive services. 
If we get a call at 2 a.m., the person gets out of bed and goes 
to his home. Many times there is violence going on, and we 
resolve that situation first. So we are available 24-7, and 
we'll come out to his home at his call. We have gotten calls 
from females as well, and we go out to serve them as well. But 
we have to, in order to reach fathers, go beyond child support. 
This is beyond the legal issue. This is actively building 
families that never were, and creating a model for the father 
to see for the very first time.
    Often the father is very angry about his dad, angry about 
the abandonment, and that takes a lot of effort and time to 
work with him to get him past that anger in order for him to 
begin to feel good about himself and then about his child.
    Chairman Johnson of Connecticut. Interesting. Thank you 
very much. It's very interesting.
    Mr. Johnson, in terms of the program you have been working 
on, what do you estimate that it will cost, and how long do you 
estimate that it will take you to get your project launched?
    Mr. Jeffery Johnson. I think that we are in the process of 
getting a Federal waiver. I anticipate that we will be fully 
implemented in the next several weeks. But I do think that Mr. 
Ballard's cost estimates are pretty good. But I would add that 
one of the things we want to do in our program is to move the 
Parents Fair Share model forward. That is by building a skills 
training component right into the program. I do think that we 
cannot take employment training, leave it to chance. So if I 
estimate with a real solid employment training component, based 
on some successful programs, one in New York called the Strive 
ASAP program, it is going to be about an additional $5,000 or 
so to go along with kind of the baseline kind of support 
services.
    But again, I do think that that investment in that type of 
employment is going to have lasting effects from a career 
perspective. In the ASAP program, for example, many of the men 
they were serving met the profile of the fathers coming through 
our program. So we referred to them as welfare dads or dead-
broke dads. So they were able to get them in a job. The first 
job they could get after 3 weeks of training. They went out and 
worked for 6 months. They had a post-placement service where 
they came back in the program after demonstrating a track 
record in the work environment. They worked with Concordia 
College and a number of financial institutions in New York 
City, and were able to develop some condensed training modules 
based on a 2-year curriculum. They were able to condense it to 
6 months, get those men through the program, and that they were 
able to achieve about a 75-percent placement rate.
    But I think that the real significant finding over 2 years 
was the fact that the average wage growth was between $6,000 
and $9,000. So it just says that when we have these men in a 
captive situation, let's do the whole job. I think that these 
partnerships that we have established with various 
organizations enable us to put in place what I think will be 
the most comprehensive service delivery system in the whole 
fatherhood field. I just think that we have to do the whole 
job. I think that it is going to appear to be costly on the 
front end. But I think on the back end of it, we are going to 
have reduced men in jails and more men being productive members 
in our community.
    Chairman Johnson of Connecticut. Mr. Cardin.
    Mr. Cardin. Thank you, Madam Chair. Let me thank all six of 
our witnesses. I found your testimony very encouraging, that we 
have people on the front line doing what you are doing. So 
first my congratulations, and thank you for sharing your 
experiences with us.
    Ms. Turetsky, I want to underscore what Chairman Johnson 
said about the current child support payments by fathers in 
many cases going to the welfare agency rather than to the 
family causes major problems of involvement of the father in 
the financial planning of the household. That is something I 
hope that we could deal with. But you raised a very interesting 
point in that it may not even cost us any more money.
    Ms. Turetsky. Yes. There are a number of studies going on 
right now, including the States that have put a full pass 
through into place. The studies are too early to give you 
definitive results, but they are looking quite promising.
    I might add that there are a number of State child support 
directors who feel much as I do about the proper role of child 
support in a family's life and the costliness in terms of 
families' lives and in terms of complicated rules within the 
current child support system.
    Mr. Cardin. Those studies would be very helpful to us 
because it's good for us to do what's right, but if we can also 
do it without costing additional resources, that's even better 
for us.
    Mr. Raesz, on your point on the Bradley amendment, I must 
acknowledge, I had never really focused in on that and the 
hardships that that can cause. But let me just suggest, it 
might be a better system if there was in place a way for review 
of child support orders on a periodic basis so that you don't 
reach a situation where a father gets out of hand, and that it 
would then mitigate or negate the need to do retroactive 
adjustments if we kept more current to the fathers' financial 
ability.
    There are a lot of child support orders out there that need 
to be adjusted upwards, but aren't because no one looks at it 
for a long period of time.
    Mr. Raesz. I heard you mention that earlier. I think that's 
a wonderful idea. But there are a number of individuals out 
there right now that are faced with large arrearages that 
accumulated during periods of illness or injury, periods where 
they had possession of their children. The fathers have 
possession of the children, but because of the absence of a 
court order being modified, they are faced with paying 
arrearages at a time they are in possession.
    So I would definitely support your efforts, seeing that 
review takes place periodically. I also ask for some help for 
those individuals that it's too late.
    Mr. Cardin. That's fair enough. I think it should be 
balanced in both regards. I agree with your point. I am glad to 
see that you agree with mine. It makes life a little bit 
easier.
    Mr. Johnson, you mentioned in your written testimony, 
support for the legislation that I introduced on behalf of the 
Administration to modify the welfare to work programs. I think 
it is important to point out that the current program, 
particularly the competitive grants, are being used--can be 
used by the States for initiatives in fatherhood programs on 
employment, counseling, and other types of services that can be 
provided through the use of the Federal Welfare-to-Work 
program, but that the current restrictions on the formula funds 
make it very difficult for States to be able to deal with 
people who really need help.
    The legislation that I filed relaxes those requirements, to 
give the States more flexibility on the use of that money. I 
just really wanted to give you a chance to comment on that, as 
to whether you think that would be useful in encouraging more 
programs out there to help fathers be more responsible in their 
families.
    Mr. Jeffery Johnson. I think so. I'm glad that there was a 
bill out there that talks about fathers. I appreciate the bill 
that you put forth.
    But I do think, it's not only some of the restrictions in 
the formula, but it is also a matter of technical assistance. I 
think that this Welfare-to-Work program probably has more 
flexibility. I have been around employment most of my career. 
It probably has more flexibility to do this work than we really 
need. But I think that a lot of States are skittish about doing 
a lot of work with non-custodial fathers because they don't 
know how. I think that they have not been able to, up until 
recently, find programs like Mr. Ballard's and others, to 
really get an idea of how to really work with these non-
custodial fathers. I think that that is important.
    Another part of the Welfare-to-Work reauthorization that we 
particularly like, is the fact of the whole focus on personal 
responsibility. We do think that given some of the life 
challenges of some of these men, they need structure. You know, 
you go into any school system, and you talk to the teachers 
working with some of these young boys, they will say that they 
need structure, and they need structure to find themselves 
sometimes because they are not getting that structure from 
home. I do think that at some point, men discover themselves, 
find themselves, in that they are in essence taught how to 
fish. But I do think this notion of a personal responsibility 
contract as being a necessary part of a programmatic structure 
for these programs is a critical piece. We support those 
elements of the bill.
    Mr. Cardin. Finally, just one additional question. That is, 
how much of a problem are drugs and alcohol addiction and abuse 
in dealing with a non-custodial parent? The statistics given to 
us by the last panel did not indicate a very high percentage of 
parents, children born out of wedlock being that--used 8 
percent is what's here. I am just curious whether your personal 
observations indicate how serious substance abuse is in dealing 
with the problem we're trying to confront.
    Mr. Jeffery Johnson. It is a problem. I think that use 
varies, but you are also talking about distribution. I mean in 
that there are countless studies that suggest that a lot of 
young males who get involved in the drug area don't use, but 
actually distribute as a way to generate income. So I would say 
that while those statistics are relatively low, I do think that 
drug abuse is a problem.
    There's a 20-year history on this, in fact. Jim Levin, who 
is now the vice president of the Thousand Work Institute, used 
to run what is to say the first full service fatherhood program 
back in the mid-1970's. It was an outgrowth of programs serving 
mothers. He began to work with these fathers to really try to 
determine what would be the incentives necessary to get them 
involved. What he found out was that they had multiple 
problems. They need jobs. They had substance abuse problems.
    I can tell you from my own experience in working with many 
sites across Parents Fair Share and the Young Unwed Fathers 
pilot project, that when I would go to the sites following up 
some of the work they were doing around our peer support 
groups, they would have legal programs. The legal programs were 
not for issues of child support, but because of trouble with 
the law around drugs. I mean either use or distribution.
    So I would say, Mr. Cardin, that it is a problem, and that 
even though they may not be using it, that does not mean 
necessarily that they are not involved in it.
    Mr. Cardin. Thank you.
    Chairman Johnson of Connecticut. Just as a final question, 
and we are going to have to vote soon, so I would like to have 
a little chance for those who are here to comment to us if they 
want to individually. Each of you in your own way, particularly 
some of you more than others, have been out there on the front 
lines. Do you find it hard to link the people in your programs 
into Department of Labor programs, Department of Social Service 
programs, you know, to hook it in and coordinate with existing 
resources?
    Ms. Turetsky. Mrs. Johnson, may I comment?
    Chairman Johnson of Connecticut. Yes.
    Ms. Turetsky. This is new work. That means that no matter 
which agency you pick, it is going to involve a stretch, and 
it's going to require linkages with other agencies.
    Chairman Johnson of Connecticut. Good thought, Vicki.
    Ms. Turetsky. If you put it in the Child Support Agency, 
they don't do employment. If you put it in the TANF agencies, 
they don't do men. So it is a matter of, as difficult as it is, 
it is going to be necessary to link these programs, and to have 
different programs do different pieces. But case management 
there is really important, having one key agency that works 
with the guy and brokers services, it is going to be critical.
    Mr. Ballard. I think one of the most important things is to 
be able to establish a rapport with the father and the family. 
The reason we move into the community is because people want to 
know you care. Often they complain about people who work in the 
community, but live some place else. So I think by going into 
the community--in fact, the Jenkins here moved from California 
to Ward 7 in Washington, and they are buying a home. That is a 
great commitment to that community.
    We have noticed over the years everyone is moving out of 
the community into the suburbs, and leaving people who are poor 
and disconnected. So if you are going to right the problem, we 
must move back into that community and not only provide a 
service, but do it in a loving and a compassionate way.
    Mr. Jeffery Johnson. Madam Chair, I have a member of my 
staff, Dianna Durham-McLoud, who is a former State director of 
child support in the State of Illinois. She was one of the 
pioneers in actually using the child support system as a way to 
begin to work with non-custodial parents in different ways. I 
would just like her to comment, because I do think that she 
talks about ways in which child support can do this in some 
creative ways involving partnership, as Vicki has alluded to.
    Chairman Johnson of Connecticut. OK. While she is coming to 
the microphone----
    Ms. Durham-McLoud. When we would bring men before the bar, 
on a ``Rule to Show Cause,'' what we found in Cook County, IL, 
was that 56 percent of those young men said, ``We would love to 
pay child support, if we had anything to pay it on.'' So what 
we started to do, instead of simply incarcerating them which 
cost us about $17,500 a year, we would have done better to 
simply give that to the family, if we are really going to 
expend that kind of money, why not do something that 
strengthens families.
    What we started to do was to work with those fathers. We 
reached out to a community-based organization that could do the 
hard one-on-one case management.
    I don't know of a child support worker in America who needs 
another thing to do. But it did make a lot of sense for us to 
be the point of information, brokering and referral for 
services. We would refer them to the Parental Involvement 
Program. We would refer them to mental health. We worked with 
the Department of Corrections in order to identify those 
fathers who were in prison. And together--and you're right, it 
was tough--we stayed up a lot of nights, and we had lots of 
meetings before the meetings and after the meetings. But with 
the support and the cooperation of a number of forward-thinking 
folks in our State, we were able to get it started and to keep 
it going. But it was hard work.
    Chairman Johnson of Connecticut. Would you agree with Mr. 
Raesz's recommendation that there be some flexibility in 
adjusting arrearages and the history of non-payment so that 
they can get out from under this?
    Ms. Durham-McLoud. Absolutely, Madam Chair. It is our 
desire to make child support orders consistent with the 
father's ability to pay. If a father is incarcerated, the 
prospects that they could pay $300 or $400 a month are slim and 
none. So it makes no sense to give them that extra burden. 
Remember, in some of our States, we also charge interest and in 
some other States compounded interest. We can make it literally 
impossible for low-income fathers to ever become current with 
their obligation.
    I am working with a young man now, who I told him already, 
he will be paying child support well past the time that he 
starts----
    Chairman Johnson of Connecticut. George, I would like to 
recognize you. When I was talking with the folks in your group, 
it was very clear that there was tremendous need for it among 
these young men, to at least know their legal rights.
    Reverend Gay. Absolutely.
    Chairman Johnson of Connecticut. In child support and 
visitation.
    Reverend Gay. Which was going to be my comment. I am 
finding that collaboration is only used on a very base referral 
basis. They want to give you a name, and that's as far as they 
want to go. They don't share any resources, they don't share 
any knowledge. They give you a name. And then one of my youth 
that you had met was referred by let's say disciplinary people. 
As soon as they got a chance, knowing that he was in the 
program, knowing that he was doing better than he had been, 
they sent him away. Those same people that referred him.
    Chairman Johnson of Connecticut. This is a very big concern 
to me.
    Reverend Gay. It's not collaboration at all. In my 
viewpoint, what's happening maybe in my State and other States, 
is people see a pile of money. They go after the money. They 
don't really care about the client. They don't really care 
about what's going on. All they care about is there's a pile of 
money I can get, and that's about it.
    Chairman Johnson of Connecticut. We are really seeing a lot 
of these problems. The shelters are telling me, a lot of the 
transitional living places are telling me if the person is 
homicidal or suicidal, you can get an evaluation, but then you 
can't get treatment.
    So we do have to look at some of the systemic issues 
involved in this idea of coordinating services, and trying to 
deliver them more effectively. I think we also have to keep in 
mind that this will be a new effort. So it's not going to work 
exactly right at the beginning.
    But thank you all very much for your input. It has been 
very helpful to have you from all different sectors of this 
effort. We thank you for your thoughtful comments.
    [Whereupon, at 4:19 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

Statement of David L. Manville, ACSW/LMFT, Family Counseling and 
Mediation Department Supervisor, Family Counseling and Mediation 
Department, Detroit, Michigan

    I welcome the opportunity to submit written testimony on 
the issue of fatherhood to the Human Resources Subcommittee. 
This vital interest needs to be addressed, not just by this 
Subcommittee but by the current Administration. In September 
1998, I was afforded the honor of preparing material and 
presenting to the ``White House Commission on Public Policy'' 
regarding the Fathers Count Act of 1998.
    In the last decade, we have seen an increase in the efforts 
of programs to assist fathers in becoming and remaining 
involved with their children. Work still must continue to 
negate the many barriers left-standing that prevent many 
fathers, especially low-income fathers from becoming vital 
components of their children's lives. From 1989 through 1998, I 
coordinated the Paternity Parenting Time Program through the 
Wayne County Friend of the Court, Third Judicial Circuit of 
Michigan, in Detroit. The intent was to provide non-custodial 
parents, mainly fathers with the opportunity to obtain 
parenting time through a court order. The thought was that if 
the fathers were granted parenting time and be able to have 
access with their children, the amount of child support paid by 
these fathers would also increase, or, at the least, remain 
stable. In 1996 an analysis was completed of over 600 of these 
cases: 300 cases of fathers with parenting time orders and 300 
cases of fathers without parenting time orders and the 
interaction with child support payments. Based upon categories 
of ages, the fathers without parenting time orders were 
substantially lower amounts of support paid (graphs attached). 
Fathers that had orders for access to their children were 
willing and eager to provide financially for their children.
    A major complaint from fathers is that the amount they are 
in arrearage also effects their seeing their children. Under 
the current federal law, if they accumulate arrearage for any 
reason, their child support arrearage cannot be adjusted , 
except from the date that the motion to modify is filed. While 
presenting fatherhood/parenting issues to incarcerated 
individuals recently, the men's primary concern was their child 
support was continuing to grow while they were locked up with 
no means to pay. These fathers wondered how they would be able 
to contribute to their children's well-being and financial 
security when they were already so deep in debt that they could 
not see their way out.
    This Court is attempting to secure funding for a program 
that would allow the placement of satellite Court offices in 
the community, especially communities where the default rate on 
paternity cases sometimes reaches 60% or more. These fathers 
have not had any contact with the Court regarding acknowledging 
paternity, yet were adjudicated to be the father, have had a 
child support order entered against them and yet have not had 
any meaningful contact with the Friend of the Court to address 
these concerns. These fathers, many of whom are low-income or 
unemployed will boast an inordinate arrearage level; one from 
which they have little if any hope of ever escaping from. Only 
the Judges have the authority to use discretion in addressing 
these cases, however with the Bradley Amendment in effect, the 
Judges cannot offer any workable solution to these fathers. 
[GRAPHIC] [TIFF OMITTED] T5694.004

[GRAPHIC] [TIFF OMITTED] T5694.005

Statement of John Smith, Research Analyst, Alliance for Non-Custodial 
Parents' Rights, Burbant, California

                          Focus of the Hearing

    This committee's stated focus is on (1) low-income fathers 
who have children outside of marriage and (2) helping low-
income fathers improve economically and promote marriage.
    This hearing on fatherhood reveals a major 
misunderstanding: it assumes fathers are the source of these 
problems. They are not. Child support policy, along with 
changing social mores, is the problem. Nothing can be done in 
the short-term to change societal norms, but child support 
policy can be fixed immediately.
    Improving job prospects for low-income people--whether 
mothers or fathers, parents or non-parents--is a good idea. But 
with our current no-fault divorce laws and lucrative economic 
incentives encouraging divorce, a problem emerges: as low-
income families become middle-class, they can expect to be 
divorced by women, not men. Women initiate divorce at a rate 3 
times that of men. The more financially independent the women 
are--either from their own earnings or from child and/or 
spousal support--the greater the chance of divorce. During 
economic boom times, divorce increases. During recessions, it 
decreases.
    But what is the real goal for getting fathers employed--is 
it to better their life or is it to generate an income stream 
that the government will tap into to collect child support? If 
it is the latter, it will fail miserably. It is not uncommon to 
see wage garnishments of 50% of the noncustodial parents' gross 
wages. At these staggering levels, why work? He won't be 
bettering himself--he will be working more, incurring more 
expenses, paying more taxes, experiencing more aches and pains 
and having less free time--all for the benefit of someone that 
doesn't like him enough to live with or vice versa. But if the 
reason is to support his children, this too is a fallacy, as 
child support won't help his children (see ``Myth: Child 
Support Lifts Children out of Poverty'' below). He is expected 
to take responsibility repaying a loan that he had no say in 
getting (see ``Welfare: Grant or Loan?'' below). Rarely do 
people pay something for nothing.
    Obviously, women should not (and cannot) be held back from 
their ambitions. Everyone needs to rewarded for taking 
individual responsibility. The work ethic needs to be restored. 
Our laws discourage responsible behavior (see ``Perverse 
Incentives of Child Support'' below). Divorce is the only 
contract in America that rewards that person breaking it.\1\ 
Child support is tax-free income with no accountability as to 
how it's spent. Visitation violations and false abuse 
allegations are not prosecuted.
---------------------------------------------------------------------------
    \1\ Gallagher, Maggie, ``The Abolition of Marriage,'' Regnery 
Publishing Inc., 1996.
---------------------------------------------------------------------------
    Another problem is that being a full-time mother is not 
valued and respected in today's society. The feeling is that 
women should be establishing careers while leaving the raising 
of their children up to ``professionals.'' Then we are shocked 
to learn that these professionals--whether it's a poor inner-
city babysitter or a Louise Woodward-type nanny--are slapping, 
hitting and/or ignoring the very children they were hired to 
raise. The message society and the media gives is ``you can 
have it all.'' This is the ultimate quantity over quality 
argument. It's greed. The reality is you cannot have it all, 
all at once, all the time. The media is the biggest culprit in 
this arena, not only perpetuating the myth that you can have it 
all, but leading us to believe that ``everyone else is doing 
it, so why can't you?''
    It is important to recognize two distinct groups affected 
by child support collections: welfare and non-welfare. Sanford 
Braver points out in his book ``Divorced Dads: Shattering the 
Myths,'' that a big difference exists between divorced fathers 
and never-married fathers. Government policy is clearly 
delineated along the lines of welfare recipients (a.k.a. Title 
IV-D) and non-welfare recipients. This probably correlates well 
with Dr. Braver's married/never-married division. So if new 
government programs are lucky enough to ``work,'' child support 
problems will shift from the welfare group to the non-welfare 
group. They will not be eliminated. The remainder of this paper 
will examine family issues that apply to all socioeconomic 
groups.
    Child support hurts children.
    How could this be? After all, kids need to be clothed, 
housed and fed and that takes money. And child support collects 
this money for kids--at least in theory. Child support, with 
its excessive awards and draconian punishments, only serves to 
force noncustodial parents into exile, irreparably harming the 
children. Child support allows single-parent households to 
flourish.
    Child support awards are excessive.--Compare the average 
child support award against other government measures such as 
welfare, foster care, social security and the poverty level.

------------------------------------------------------------------------

------------------------------------------------------------------------
Average Child Support Award\2\..  $733/mo...........  noncustodial
                                                       parent's portion
                                                       only
Foster Care\3\..................  358/mo............
Welfare (Michigan)..............  87.80/mo\1\.......  $439/mo for a
                                                       mother + 2 kids
Welfare (San Diego)\4\..........  128.57/mo\1\......  900/mo--mother + 4
                                                       kids (includes
                                                       food stamps)
Average welfare benefit per       131.90/mo.........  Feb 1997 TANF
 recipient\5\.
1997 HHS Adult Poverty            657.50/mo.........  8,163 (1 Adult
 Guidelines\6\.                                        under 65)
1997 HHS Child Poverty            221/mo............  10,815 (1 Adult
 Guidelines\7\.                                        under 65 with 1
                                                       child under 18)
Social Security Adult Disability  470/mo............
 Income\8\.
------------------------------------------------------------------------
<SUP>1</SUP> converted into ``child equivalents'' based on audit to child poverty
  ratio of 3:1.
<SUP>2</SUP> Palumbo, Greg, 1997 presentation to Oklahoma's Joint House and Senate
  Judiciary Committee.
<SUP>3</SUP> ``The Fight Against Child Abuse,'' People Magazine, Dec. 15, 1997
<SUP>4</SUP> Market Place radio interview from KPBS San Diego, aired 2/11/98 on
  KCRW.
<SUP>5</SUP> AFDC/TANF Feb 1997 Flash Report
<SUP>6</SUP> Statistical Abstract, table 758.
<SUP>7</SUP> $10,815--$8,163 = $2,652 annually.
<SUP>8</SUP> Hagen, Margaret, ``Whores of the Court,'' 1997, p. 274.

    Even radical feminist and author Karen Winner confirms that child 
support is excessive when she writes, ``There is accumulating evidence 
that men are challenging their wives for custody of the children 
precisely because it is cheaper to keep them than to pay child 
support.\2\ Custodial parents often complain about how low support 
orders are, but when suggested that they give up custody and they pay 
child support, the screams are deafening. If support orders were 
equitable, this wouldn't happen.
---------------------------------------------------------------------------
    \2\ Winner, Karen, ``Divorced From Justice,'' ReganBooks, 1996, p. 
52.
---------------------------------------------------------------------------
    Child Support Punishments are Draconian.--Congress has passed 
tougher and tougher legislation since child support's (Federal) 
inception in 1975--always hoping ``this time it will work.'' It never 
has and it never will. The Constitution along with individual rights, 
have taken a beating in the process. Today, child support is the only 
debt that one can be jailed for (debtor's prison), you can lose your 
driver's license (or any license) even though your ``crime'' had 
nothing to do with a car, invasion of privacy is rampant through 
government sponsored databases such as the Federal Parent Locator 
System (FPLS) and the National Directory of New Hires (NDNH). HHS' FPLS 
tracks noncustodial parents' whereabouts and gives this information to 
custodial parents. However, if the custodial parent moves away with the 
children against court orders, such as Geraldine Jensen, founder of 
ACES did<SUP>3,4</SUP> (1) they are not prosecuted for kidnapping (or 
violating a court order) and (2) HHS will not give the noncustodial 
parents information on their children's whereabouts. In other words, 
the FPLS is a one-way street. Administrative accountability is non-
existent. Bureaucrats are free to ruin your life (e.g. false paternity 
assignments and incorrect reporting to credit bureaus), and they are 
legally absolved of any liability. It's open season on noncustodial 
parents.
---------------------------------------------------------------------------
    \3\ ``Gerri Stacks The Deck,'' Burch, D.C., The Paper--Toledo's 
Alternative Weekly, May 19, 1995. Also at www.ancpr.org/gerri.htm
    \4\  See Jensen's appeals case 1981 WL 5460 (Ohio App. 6 Dist.) 
Also at www.ancpr.org/jensen.htm
---------------------------------------------------------------------------
    The current session of Congress has more ``get tough'' 
legislation introduced by Henry Hyde and Lynn Woolsey in 
addition to Christopher Cox, less than a year after President 
Clinton signed The Deadbeat Parents Punishment Act of 1998 into 
law. Child support and penalties accrue during unemployment and 
incarceration (even if you are a POW\5\ The state of Georgia is 
considering ``work camps'' for noncustodial parents.\6\ Slavery 
is making a comeback.
---------------------------------------------------------------------------
    \5\ ``Child-support-law amendment comes to attention of Hill,'' The 
Washington Times, April 27, 1999.
    \6\ ``County eyes work-release facility for `deadbeat dads,' '' 
Richard Raeke, Walton County Tribune, March 14, 1999.
---------------------------------------------------------------------------
    Myth: Child Support Helps Children.--Aside from the fact 
that parents are forced into exile by our child support laws, 
no study has ever shown child support to help children. And how 
could it, since no accountability is required of custodial 
parents. Custodial parents can spend this tax-free gift on 
anything they want: booze, drugs, new clothes, a new car, 
vacations--maybe even on the children. Nobody knows how much of 
the money ever reaches the child. UCLA Professor William S. 
Comanor estimates that only $1 in $5 of child support actually 
is spent on the child.\7\ Why not adopt the same documentation 
rules for custodial parents that the IRS requires for tax 
deductions? Ditto for penalties and fines.
---------------------------------------------------------------------------
    \7\ ``Child Support Feels Different on Male Side,'' William S. 
Comanor, Los Angeles Times, Feb. 22, 1999.
---------------------------------------------------------------------------
    Studies do show that states highest in child support and 
welfare payments rank lowest in child well-being (in fact, this 
information was presented to this very same committee in 
1995).\8\ Why? Money is a destabilizer or put differently, a 
single-parent household enabler. What was responsible for 
increasing child well-being? The intact family, something not 
terribly popular with society's ``me, me, me'' attitude. 
Divorces increase during economic boom times and decrease 
during tough times. Child support, like welfare, creates an 
individual economic boom (without requiring work, no less).
---------------------------------------------------------------------------
    \8\ Testimony of Cynthia L. Ewing, Senior Policy Analyst, 
Children's Rights Council, Feb. 6, 1995.
---------------------------------------------------------------------------
    Perverse Incentives of Child Support.--Child support not 
only encourages irresponsible behavior, but demands it. 
Consider the case of the responsible noncustodial parent who 
works a second job to make up for the severe economic loss 
child support payments have created. He's doing what we would 
consider to be the responsible thing to do: improving himself, 
supporting his current family. The work ethic. He will have 
higher expenses, pay more taxes and have less time for himself 
and his family. But when the custodial parent hears of his 
second job, she files a petition for upward modification of 
child support based on his new increased income. The judge will 
grant this increase, as it is law. Net effect: the more 
responsible you are, the more child support punishes you. Why 
not cut back on your hours; even work less than full time? 
Enjoy yourself. Plus, you could use this as a form of revenge. 
The custodial parent has had all of her expenses paid for by 
the taxpayer (prosecution, attorneys, court fees, admin 
services). The noncustodial parent is forced to hire an 
attorney, file court papers and miss work--all direct expenses 
that he must pay. If he fails to do this, he will lose on 
default judgment.
    Welfare: Grant or Loan?--Welfare is treated as a grant. The 
mother applies for welfare and gets it. The father has no say 
in the matter. If it were a loan, there would be principal, 
interest, late payment penalties and a length of the loan. For 
the mother, it is a grant--there is no intention of it ever 
being repaid, by her. But for the father, welfare that the 
mother applied for and received--often without his knowledge or 
consent--has now become a loan, complete with interest, 
penalties, even jail. For low-income fathers, it may be a moot 
point, as many do not earn enough to repay it.
    For non-welfare fathers, why would anyone repay a loan that 
they had no say in obtaining? Granting welfare to one party and 
asking a non-participating party to repay this is the ultimate 
in irresponsibility. If a mother must go on welfare, the father 
should be offered custody of the children. If he assumes 
custody, then the mother would work (consistent with welfare to 
work policy) and pay the father child support.
    Remember, collecting child support in welfare cases 
produces no benefit to the mother or children. All money goes 
back to the government. Please do not use the excuse that child 
support will lift children out of poverty.
    An underlying problem with child support is that awards (1) 
do not reflect the dynamic nature of the economy and (2) are 
not necessarily based on earnings. Child support is based on a 
percentage of income, but not a dynamic or current percentage. 
If the child support order is calculated during a high earning 
period (overtime or commissions), then the noncustodial parent 
is stuck with a high order. Likewise, if the parent becomes 
disabled or get laid off, child support ignores these facts. 
Why not make the percentage a true percentage? If your support 
order is 20% and you get laid off, 20% of $0 = $0.
    Secondly, child support orders are often based on imputed 
wages--what the judge thinks you could or should be earning. 
Why not simply use reality? Disallow imputed earnings and base 
support on actual earnings. Imputed earnings, taken to 
extremes, becomes legalized indentured servitude--slavery. 
Another assault on the Constitution. The California Supreme 
Court has already greased the slipperiest of all the slippery 
slopes with its 1998 Moss decision.
    No-fault Divorce.--As Children's Rights Council attorney 
Ron Henry says, marriage is the fastest and surest way out of 
poverty. Conversely, divorce (or splitting up if not married) 
is the fastest and surest way into poverty. On average, over 
3,000 divorces occur each and every day. No-fault divorce must 
be eliminated. No-fault divorce may be the crown jewel of the 
``me, me, me'' generation. Once you have a child, ``me, me, 
me'' should become ``us, us, us'' (referring to the family).
    Problem: Women Initiate Divorce 3 Times that of Men.--
Perhaps this subcommittee needs to open a new hearing on 
motherhood and divorce. Most Americans believe the out-dated 
myth that a man dumps his poor wife for some hot, young babe. 
That's Hollywood. Reality is shockingly different: women 
overwhelmingly dump men.\9\ Women breaking up families--not a 
politically popular notion, but a reality. And what punishment 
awaits those who break this (marriage) contract? Lucrative 
spousal and child support awards.
---------------------------------------------------------------------------
    \9\ See Braver, Sanford, ``Divorced Dads: Shattering the Myths,'' 
Tarcher/Putnam, 1998.
---------------------------------------------------------------------------
    Who Needs Marriage?--Talk about equality; marriage is on 
par with being single. By making marriage equal to non-
marriage, there are no benefits to getting married--so why do 
it? We've made marriage unnecessary. Unmarried couples can live 
together, open joint bank accounts, buy cars, even get spousal 
benefits assigned by their employer. What if you couldn't 
receive child support unless you were first married (and no-
fault divorced was eliminated)?
    Myth: Child Support Lifts Children out of Poverty.--
Children in poverty are on (or eligible for) welfare. All child 
support collected in welfare cases goes back to the government, 
not to the family. If welfare hasn't lifted these children out 
of poverty, it is impossible for child support to do so. 
Furthermore, child support advocates conveniently ignore the 
fact that many families of noncustodial parents are driven into 
poverty by child support orders. If all the unemployed, single 
custodial mothers worked minimum wage jobs, an additional $70B 
in household income would be available to children.\10\
---------------------------------------------------------------------------
    \10\ ``Bucking the Trend,'' A Coalition of Parent Support 
Whitepaper on California Law, Feb. 21, 1998.
---------------------------------------------------------------------------
    Fundamental Problem 1: The Greed Factor.--Child support 
encourages greed. It boils down to the premise that (1) poverty 
is the cause of poor child well-being and (2) money solves this 
problem. Money has never solved any social problem. LBJ's war 
on poverty is a perfect example. After spending trillions of 
dollars, poverty is alive and well. Studies have also shown 
that children raised below the poverty level academically 
outperformed children living above the poverty level--the 
reason: they were living in an intact family.\11\ As mentioned 
above, money is a single-parent household enabler, a 
destabilizer.
---------------------------------------------------------------------------
    \11\ Testimony of Cynthia L. Ewing, Senior Policy Analyst, 
Children's Rights Council, Feb. 6, 1995.
---------------------------------------------------------------------------
    Current laws encourage custodial parents to get as much 
money as possible from the noncustodial parent. The Bureau of 
Family Support Operations in Los Angeles runs a public access 
TV program that urges custodial parents to ask for increases 
``because things change.''\12\ Nationally recognized child 
support advocate Leora Gershenzon of The National Center for 
Youth Law, commenting on the large increase in establishing 
paternity orders said, ``Besides receiving child support, the 
children will benefit from access to the father's medical 
history, rights of inheritance and eligibility for the father's 
health insurance.''\13\ The ACLU states, ``. . . it is 
essential to consider ways to obtain an award that is higher 
than the basic amount dictated by the guidelines.''\14\
---------------------------------------------------------------------------
    \12\ ``Focus on the Family,'' LA District Attorney's Office, Bureau 
of Family Support Operations.
    \13\ ``Unwed Dads Step Up for Legal Ties That Bind,'' Los Angeles 
Times, March 8, 1998.
    \14\ ``The Rights of Women,'' ACLU, Southern Illinios University 
Press, 1993, p. 136.
---------------------------------------------------------------------------
    Greed is also encouraged within child support enforcement 
administration, as their funding is based on child support 
collected (or amount to be collected). If the goal is to 
increase child well-being, why not base performance incentives 
of these organizations on child well-being instead of money 
collected? The fact that child support collections has become a 
big business is another clue to its greediness. Lockheed-
Martin, the world's largest defense contractor, states that 
child support collections is ``the company's fastest-growing 
line of business.''\15\ In today's one-sided atmosphere of 
``anything goes,'' private collection companies have no qualms 
boasting about how they intrude on noncustodial parents' rights 
and why these parents shouldn't have any rights.\16\
---------------------------------------------------------------------------
    \15\ ``COMPUTERS: Troubled Child Support Project Dies,'' Los 
Angeles Times, Nov. 21, 1997.
    \16\ Child Support Intervention, Inc., ``Mothers Against Fathers in 
Arrears, No Bill of Rights,'' See www.deadbeatparent.com
---------------------------------------------------------------------------
    Fundamental Problem 2: The Revenge Factor.--The concept of 
custody (or primary caretaker) is the perfect vehicle for 
revenge and is used everyday for just that. Why do we treat 
children like property? ``She got the house, the car and the 
kids.'' We've all heard it. When children are treated like 
property (cold and callously), they act cold and callously and 
we get situations like Littleton, CO. We are reaping what we've 
sown. Our children are not suffering from too much parental 
involvement, they are suffering from a lack of it, as is all of 
society. When our children are not raised properly, everyone 
pays the price. Time is needed to instill values in children. 
When sole custody is awarded (sometimes under the name of joint 
custody), not only does the child lose contact with that 
parent, but the custodial parent is apt to suffer from what Dr. 
Richard Warshak calls ``overload''--trying to be a full-time 
parent while holding down a full-time job.\17\ Depression, 
anger and hopelessness result.
---------------------------------------------------------------------------
    \17\ Warshak, Richard A., ``The Custody Revolution: The Father 
Factor and the Motherhood Mystique,'' Poseidon Press, 1992.
---------------------------------------------------------------------------
    While billions of dollars are spent annually to enforce 
child support, nothing is spent on enforcing visitation. 
Visitation violations are as common as clouds in the sky, yet 
they are not prosecuted. People like ACES' founder Geraldine 
Jensen know they can break the law with no repercussions. HHS 
proudly announced that they have made $10M in grants available 
to study access (visitation). How does this $10M nation-wide 
figure compare to support enforcement? Los Angeles County alone 
spends $120M each year (and now wants to raise this 6 fold to 
$720M). Adding insult to injury, a Children's Rights Council 
member in Toledo notes that many of these grants are going to 
battered women's shelters and other distinctly anti-male, anti-
father and anti-family groups\18\. Actions speak louder than 
words.
---------------------------------------------------------------------------
    \18\ Young, Cathy, ``Ceasefire!,'' Chapter 5, Legislating the 
Gender War: The Politics of Domestic Abuse, Free Press, 1999.
---------------------------------------------------------------------------
    False allegations of abuse (spousal and/or child sexual) 
represent the largest social problem facing our nation. False 
abuse claims are frequently used during custody hearings. 
Because no trial is given and no evidence required, false abuse 
is the perfect vehicle to gain instant custody of your child. 
By the time your trial comes around, no judge will remove a 
child from the parent who issued the TRO (temporary restraining 
order). The party that lies, wins. What is needed is a strict 
physical evidence standard in all abuse cases. Period. Vigorous 
prosecution of people making false claims should follow. False 
abuse allegations should carry stiffer penalties than the abuse 
penalty itself, as the person is knowingly defrauding an 
innocent person.

The solution

    Having a Child is an 18-year Unbreakable Commitment.--When 
a couple has a child, they have made an 18-year commitment--
regardless of their marital status. Children have the right to 
be raised by both biological parents and the parents have a 
responsibility to raise their children. As a society, we need 
to demand accountability for their actions. If you don't think 
you can stay with your partner for 18 years, you have no 
business having a child. ``Move-aways'' would be strictly 
prohibited unless otherwise agreed to in a written shared 
parenting plan.
    Child Support as a Last Resort.--Make shared parenting a 
rebuttable presumption in all divorce and child support cases, 
when parents cannot reach a voluntary agreement. Shared 
parenting is based on a written plan (unlike joint custody) and 
requires both parents to spend equal time (unless otherwise 
agreed to) raising their children. Shared parenting focuses on 
physical time spent with children and most closely emulates the 
child's environment prior to divorce. Since each parent is 
spending equal time and resources raising their children, the 
need for child support collections evaporates. Child support 
would only be collected in cases where one parent refuses to 
either (1) spend half their time raising their children or (2) 
follow and agreed upon parenting plan.
    With child support eliminated, the greed factor is 
eliminated. Parents know they cannot continually go back to 
court and ask for more money (plus, free resources would not be 
available to them). With the concept of custody dissolved, the 
revenge factor disappears--there is nothing to fight over. If 
false allegations of abuse (that cannot be backed up with 
physical evidence) are made, watch out--you're headed for jail. 
If you move away with your kids (of course, they are not your 
kids), you will be prosecuted for kidnapping, unless agreed to 
in your parenting plan.
    With the greed and revenge factors eliminated, parents can 
now concentrate on what they should have been doing all along: 
getting on with their life.
    Possible Objections.--The most likely argument against this 
is that restricting ``move-aways'' violates a person's freedom 
of movement. Once a couple has children, their freedoms 
temporarily are overridden by the child's need to have both 
parents and the parent's responsibilities. If a parent wants to 
wander, then don't have kids. It's time to enforce responsible 
behavior and hold people accountable for their actions.
Conclusions

    Continuous introduction of child support legislation and 
increasingly draconian punishments reflect the frustration of 
24 years worth of failed policy. With each new failure, the 
same ``get tough'' mantra is repeated instead of looking for 
new, fair and permanent solutions. Personal responsibility is 
defined as zipping off a check once a month and only applies to 
noncustodial parents.
    Thinking that low-income fathers can be ``fixed'' has two 
major flaws. First, if the low-income group becomes middle-
income, then child support problems will simply shift into this 
category and not be solved. Secondly, if low-income fathers are 
put to work simply so the government can take the money they 
earned and pay it to the mother--why work? In many cases, child 
support is 50% of a person's gross pay. This explains why many 
quit after their employer informs them of a wage garnishment. 
Getting a new minimum wage job becomes an instant doubling of 
their pay.
    While societal change is an unclear and long process, our 
laws can, and must, be changed now--switching their sole focus 
from money to increasing parental involvement. This means 
maximizing the involvement of both parents. Shared parenting is 
the mechanism to do this. The greed and revenge factors would 
be eliminated from family law. A strong message of the work 
ethic, personal responsibility and accountability is what these 
new laws must promote and reinforce. Kids need parents, not 
money.

                    Child Support: Myths & Realities

Myth: Money (i.e. Child Support) Solves Problems (Of Kids Being 
Raised In Poverty, Poor Child Academics, Behavior Problem, 
Child Well-Being, etc.)

    <bullet> Reality #1: Since no accountability exists to 
ensure that child support is actually spent on the child, this 
claim cannot be substantiated. UCLA Prof. William S. Comanor 
has research showing that only 20% of child support is spent on 
children.
    <bullet> Reality #2: Child support acts as a single-parent 
(read: broken home) enabler. Child support, like welfare, 
enables one parent to take the kids and move away from the 
other parent. This causes irreparable harm to children.
    <bullet> Reality #3: Poverty is not the cause of poor child 
well-being, in fact, studies show just the opposite. An intact 
family was the key determinant for child well-being. States 
with the highest welfare and child support payments ranked 
lowest in child well-being. Why? That money was a single-parent 
household enabler, children were raised in non-intact homes. 
During economic booms, divorce increases; during tight times, 
divorces decreases.
    <bullet> Reality #4: Trying to solve poverty by throwing 
money at it won't work. We know that thanks to LBJ's War on 
Poverty programs. Money has never solved a social problem.
    <bullet> Reality #5: Parental (that's both parents) 
involvement is what kids need. Matthew Eappen had two well-
educated, prosperous parents--but lacked parental involvement, 
preferring to hire nanny Louise Woodward (a teenager no less) 
to raise their child.

Myth: If All Uncollected Child Support Was Paid, It Would Save 
The Taxpayers A Bundle

    <bullet> Reality #1: A figure of $34B-$41B is commonly 
referred to as uncollected child support. The government and 
other sources indicate it is in the $5B range. And how would 
they know it's $41B? No central repository of support orders 
exists that is accurate. It is a well-known fact that many 
duplicate support orders exists (which should never happen) and 
that erroneous bills are routinely sent out. Los Angeles County 
is a prime example of this.
    <bullet> Reality #2: The medical, behavioral and academic 
problems created by children raised in single-parent households 
dwarfs the cost of welfare. These costs include not only 
police, jails, hospitals and courts, but the psychological 
costs of citizens living in fear.
    <bullet> Reality #3: Child support orders are excessive by 
any measure. The average support order exceeds that of welfare, 
foster care, social security disability--you name it. As 
pointed out in a 1992 GAO study and later confirmed by ASU 
researcher Sanford Braver, most parents who don't pay child 
support cannot afford to pay it.
    <bullet> Reality #4: Mothers are free to get welfare. Until 
this program is changed to disallow this practice, the 
taxpayers will be funding single-parent households, which is 
the genesis of these problems.

Myth: Child Support Will Lift Children Out Of Poverty

    <bullet> Reality #1: All child support collected in welfare 
cases goes to the government, not children. If welfare hasn't 
``lifted kids out of poverty,'' then child support surely 
can't.
    <bullet> Reality #2: Poverty is not the problem; Money is 
not the solution (see first myth above).
Myth: Child Support Orders Are Fair

    <bullet> Reality #1: Many custodial parents complain that 
child support is too low. However, when asked to reverse the 
support order (i.e. give up custody and pay the exact same 
amount of child support to the other parent), the scream bloody 
murder.
    <bullet> Reality #2: While over $5B is spent annually on 
child support collections, nothing is spent on visitation 
enforcement. HHS boasts they have allocated $10M in grants to 
study visitation and access--that amounts to less than 0.2% of 
the budget.
    <bullet> Reality #3: The government gives custodial parents 
information on the whereabouts of noncustodial parents through 
the Federal Parent Locator System (FPLS). But when custodial 
parents kidnap or move the children, HHS will not give 
noncustodial parents information on where the children are 
living.
    <bullet> Reality #4: Welfare: grant or loan? The mother 
initiates this process, receives all the benefits and is not 
expected to repay the government one cent. The father, on the 
other hand, usually doesn't know the mother has applied for 
welfare, has no say so in the matter and is expected to repay 
welfare plus penalties and interest!
    <bullet> Reality #5: Making false allegations of abuse is a 
well-known and well-practiced tactic in family law. False 
allegations are not prosecuted, physical evidence is not 
required (hearsay will do) and no trial is given. In short, 
you're guilty until proven innocent and you are denied your due 
process of law.
    <bullet> Reality #6: Even radical feminist Karen Winner 
states in her book, Divorced From Justice, that child support 
is excessive--clearly exceeding the amount necessary to raise a 
child. (p. 52).

Myth: Paying Child Support Shows Responsibility

    <bullet> Reality #1: Raising a child takes a lot more work 
than simply zipping off a check once a month. To equate writing 
a check with raising a child is ludicrous.
    <bullet> Reality #2: Most people would not consider an 
able-bodied person who parks in handicapped spots a responsible 
person as long as he paid the fine. Why do we think this way 
when it comes to child support?

                                <F-dash>


Statement of Bill Harrington, President, American Fathers Alliance

                              Introduction

    America is in the midst of a continuing family policy 
crisis. While policymakers search for answers after years of 
family decline in America and after years of both Congressional 
and State legislating on welfare and several issues relating to 
women and children; America is just now looking toward 
FATHERHOOD for answers. The American Fathers Alliance supports 
the work of the House Human Resources Subcommittee in holding 
this hearing and we look forward to the valuable information 
various researchers may provide on the value of involved 
fatherhood and strategies for reversing our decline of positive 
father parenting in America. What we look for most, is the 
realization that fathers are parents too, and that America's 
history of marginalizing positive father parenting has been to 
the detriment of not only fathers and family life in America, 
but the greatest detriment has been to the children of America. 
We urge Committee members, and all interested people, in 
reading the attached document; The daddy bond: The earlier a 
man starts to care for his baby, the better. This detailed two 
page article by Richard Laliberte appeared in Parents magazine, 
November of 1995. By detailing the critical value of father 
parenting in the first six months of life, we ask one question, 
where is the public policy, law or procedure, anywhere in our 
welfare system or legal system in any state, especially for 
unwed fathers, designed to meet this critical aspect of 
positive child development? Our failure to have answers to this 
question makes it clear that America's fatherhood crisis is 
deep and vary pervasive. Further, we must look to the equally 
pervasive common child residential schedule of EVERY OTHER 
WEEKEND with the other parent approved by our legal system in 
most cases. Even though not one recognized mental health 
professional or reputable author on the subject of parents or 
parenting, recommends that in most cases, EVERY OTHER WEEKEND 
meets the needs of a predictable majority of children, this 
pattern of limited parental involvement by fathers, amounts to 
a scheme of institutionalized child abuse. This is an outcome 
in over 60% of all cases of separated parents with court 
ordered Parenting Plans/Child Custody Orders. This is where the 
debate over social support and funding for programs for 
divorced and unwed fathers begins, because it is only with the 
understanding that what most fathers want most of all is one 
thing--to be able to see and parent their children--without 
undue hassle from the mothers and undue interference by 
government officials.
    The American Fathers Alliance joins with many father 
organizations from all over America, and other supporting 
organizations and individuals, in wishing for the success of 
these hearings and the open doors to funding of fatherhood 
programs that are so critically needed.

                           First Things First

    To its credit, in 1996 Congress and President Clinton 
through the Personal Responsibility Act, enacted a special 
program entitled: Non-Residential Parents Access Grant Program. 
Congress appropriated $10,000,000 in federal funding to start 
this program. All 54 jurisdictions have develop programs and 
applied for funding, both the public and private sectors. This 
was the first and very honest recognition that non-residential 
parents, somewhere between 85 and 90% of whom are fathers, were 
in need of federal programs and financial assistance to enable 
them to be more involved with their children and better 
parents. In effect for years, we had a national tolerance 
program for parental kidnapping of children. Father/child 
relationships had no recognized value and violations of court 
orders concerning father/child relationships are still 
routinely ignored. Fathers are an unrecognized national victim 
of systematic and routine violations of civil rights--the 
fundamental right to be a parent. When the White House Welfare 
Reform Task Force submitted its proposal to the president for 
his final consideration, the collective task Force 
recommendation was for an appropriation of $200,000,000 per 
year for the Access Grant Program. The American Fathers 
Alliance calls upon Congress to fully fund the one existing 
fatherhood program in the amount of $200,000,000 per year as a 
first gesture of serious attention to the needs of all fathers 
at the start of the 21st Century. If we are to invest in the 
future of our children, that investment must start here.

                             Unwed Fathers

    The most critical issue for never-married fathers is 
establishment of the parent/child relationship. Even though 
Congress has enacted wide sweeping paternity establishment 
goals to the several States, Congress failed to create programs 
to assist unwed fathers in delicate social situations from 
enacting the critical parent/child parenting relationships. 
Research has shown that if unwed fathers physically hold their 
newborn child in their hands within the first 24 house of life, 
these fathers are 50% more likely to stay involved in the life 
of their child. Congress should create such a program for 
fathers at hospitals and birthing clinics, and fund the program 
sufficiently. When enacted and properly funded, this success 
would greatly reduce our difficulties enacting realistic child 
support orders, WITHOUT FABRICATED ARREARAGES, and instead 
create voluntary paying fathers in more cases of children born 
to unwed parents. The key issue missing from existing policy is 
the dignity of the infant/father relationship. Again , as 
stated in the attached research from Parents magazine, we see 
the value of an involved father in the first six months of 
life. This tangible investment of an involved father is the 
best early child development program. An involved father is the 
cheapest investment the federal government can make in the 
lives of these children. AGAIN, A FATHER IS THE REPLACEMENT FOR 
GOVERNMENT PROGRAMS, BUT GOVERNMENT PROGRAMS ARE NOT A 
REPLACEMENT FOR FATHERS!!!
    Secondly, for unwed fathers, is needed a program to 
determine the best living environment for the child prior to 
entry of any court order. Congress should enact a national 
Friend of the Court program, modeled after Wayne County in 
Michigan. This program acts quickly when either parent first 
contacts the government for services. The parents are asked to 
immediately come in for parenting interviews, and a 
professional does a parenting assessment, and renders a 
recommendation to a Judicial officer. In this current program, 
a slight majority of parents recommended for child placement, 
as in the best interest of the child, are FATHERS. This program 
of fairness for children born in sensitive and delicate 
situations, should be modeled and expanded to other critical 
urban areas.
    Further, this Wayne County program in Detroit reflects the 
second level of the best interest of the child, THE BACON 
TRAIL. Once we have determined, initially, the best interest of 
the child, we can look at stability and employment, and 
childcare services, WITHOUT the necessity of government 
funding. Most fathers are willing and wanting to work. With a 
child in their home to care for, and with the dignity of being 
a fully engaged and responsible parent, the father is more 
likely to raise the child without needed public services for 
either the father or the child. We know from federal welfare 
reform the easy cases are now off the welfare rolls, and we are 
left with the longer term, more difficult family situations. 
Research shows that by the end of the second year after the 
birth of the child, the average father is earning at or around 
$15,000.00. This puts the father/child relationship just above 
the federal poverty level, and moves the child out of a 
dependency lifestyle. In comparison with their mothers, the 
child would remain in a dependency lifestyle for several years, 
living through public subsidies of various forms funded through 
a variety of federal programs. THE BACON TRAIL, the home with 
the bacon and a strong work ethic, is most often the proven 
better home for the child. Congress needs to fund programs 
where fathers can have contact and get assistance in providing 
and protecting their young children, and where residential 
placement with the father, is in the best interest of the 
child.
    Additionally, The American Fathers Alliance, Statement for 
the Record, at the March, 1999 hearing on Childcare, provided 
another father-friendly strategy for positive father-child 
relationships and reduces federal expenditures. Having a Father 
as First-Choice childcare policy, we can use limited federal 
resources for the truly needy cases, where there is no father 
available for childcare.

                   Fragile Fathers--Fragile Families

    The American Fathers Alliance fully recognizes the 
dysfunctional childhood many fathers experienced, and further, 
that a number of fathers have fallen victim to life's many 
compromises and find themselves in economic chaos and a 
significant number involved with substance abuse of one kind or 
another. Fatherhood programs are needed to assist these fathers 
in re-gaining their personal and parental equilibrium so they 
can function as responsible citizens, and most important, 
function as male parents. Congress would do well to provide 
funding for a variety of programs to assist male parents who 
really want help and are willing to work within guidelines 
until they can operate on their own and secure living wage 
employment. This is one area where Child Support policies need 
to be flexible to avoid unjustifiable increasing ARREARAGES, 
and unrealistic orders when the fathers are not working for 
pay, but rather are working on their personal character so that 
they may once again function as male parents without any social 
support. Rather than making permanent criminals out of these 
imperfect parents, Congress can create programs that will offer 
America's greatest gift: A SECOND CHANCE.

                            Divorced Fathers

    Most divorced fathers are in need of a single national 
program--a program for FAIRNESS. Unjustified anti-father bias 
is rampant in our legal system in all states as well as in all 
social service programs. Congress could meet a minimum need of 
all fathers by funding serious educational programs on the 
extensive value of positive father parenting and FATHER-LOVE. 
Judges and other courthouse professionals involved in working 
with separated family members, need to understand the 
significant negative impact of orders that unreasonably work to 
deny the formation and/or maintenance of father/child 
relationships. Congress should fund research to determine the 
number or percentage of children of divorce, who experienced 
unreasonable and unjustified limited contact with their 
fathers, and who later engaged in anti-social behavior and/or 
criminal contact. If we want to assess the social cost of 
fatherless children, we need to look at this crucial area. The 
answers are there and they are not pretty, but if we are to 
maintain this national standard of discrimination against 
fathers and children, we need to at least understand the 
consequences of this conduct. If America wishes a more gender-
neutral program of deciding divorce outcomes, an extensive 
Judicial educational program on fatherhood needs to be funded. 
The report of the United States Commission on Child and Family 
Welfare: Parenting Our Children--In The Best Interest of the 
Nation, 10-96, should be reviewed for its many positive parent 
recommendations. The Minority Report's of Commissioners John 
Guidubaldi and Bill Harrington should be reviewed for more 
specific recommendations directed at fathers and fatherhood.
    Divorced fathers cover the spectrum of all income levels. 
For significant numbers of what were middle class fathers at 
the time of separation, once these fathers are assessed 
significant child support orders, orders for maintenance/
alimony, and temporary attorney fees, significant numbers of 
these middle class fathers actually meet the low income or 
poverty levels needed to qualify for program assistance. These 
fathers deserve federal funding for non-profit programs to 
assist fathers in all areas of family law, including 
calculation of child support.

                               Conclusion

    Children NEED fathers. Fathers ARE parents. If we are to 
see dramatic change in the lives of our children then 
government needs to pay attention to these two simple 
statements and apply them to any programs and legislative 
solutions they consider when dealing with families. We cannot 
continue to treat fathers as paychecks and visitors in the 
lives of their children and expect children to grow into 
wholesome adults. Fathers need to be treated AS parents and 
recognized for the valuable contributions that they endow upon 
their children. For those less educated, programs should be 
developed that help educate the needy. It is not financial need 
that should drive legislative action for families, but rather, 
educational need that will bring us out of the darkness which 
lies before us. Until we resolve to treat fathers as parents 
and children as beings in need of their fathers, we can only 
expect the worst from future generations.
    What We Must Do.--Congress should approve father-friendly 
legislation under the Fathers Count Act of 1998. This 
legislation should make positive father parenting a national 
priority. Congress should approve substantial funding--at least 
$2 Billion for nationwide and targeted fatherhood programs. A 
public relations campaign should be launched to make the word 
``FATHER'' a positive term in American discourse and a greater 
reality in every day family life. An inventory should be taken 
of federal laws, policies and programs that serve to discourage 
father involvement, and a campaign launched to repeal these 
provisions and substitute father-friendly sections. Congress 
should encourage the National Governors Association to survey 
state laws, policies and procedures for language that serve to 
discourage father involvement, and undertake efforts to repeal 
l these provisions and substitute father friendly provisions. 
The term ``DEADBEAT'' should be outlawed and classified as a 
hate term in criminal statutes, and become actionable when used 
against individual parents by public officials and social 
service bureaucrats.
    The 21st Century should begin with an equal call to 
parenthood and greater involvement in the lives of children by 
loving and caring fathers as well as mothers. The federal 
government should become father-friendly by moving to 
prioritize parenting matters equally for mothers as well as 
fathers and de-emphasizing financial outcomes as now our 
highest priority for children.

                                <F-dash>


Statement of Stuart A. Miller, Senior Legislative Analyst, American 
Fathers Coalition

    Madam Chair and Honorable Members: The American Fathers 
Coalition applauds Chairwoman Nancy Johnson and the rest of the 
esteemed members of this Committee for the efforts they are 
making to find ways to more meaningfully include fathers in 
children's lives.
    This proposal is a step in the right direction and we 
support this initiative. However, we don't feel that this 
proposal goes quite far enough. Our primary concern is that 
this proposal seems to do little to nothing for divorced 
fathers, whom we proffer face similar, if not greater 
obstacles, to involvement in their children's lives as do the 
targets of this initiative.
    The detrimental and well documented consequences of father 
absence are not limited to children from socially or 
economically disadvantaged families. Children from all walks of 
life are suffering the consequences of father absence. Those 
same children, like all children . . . love, want and need 
fathers involved in their day-to-day lives. Obviously we are 
talking about the super-majority of fathers, the 99.9% of 
fathers that are not a threat to their children . . . fathers 
who could be involved in their children's lives, but for one 
reason or another, are not.
    There is no greater crisis facing America today that the 
degradation of the two-parent, married, intact family. We need 
to do everything we can to restore and prop-up that most 
preferred living arrangement for children. However, when that 
living arrangement breaks down, we need to do everything we can 
to try to ensure that children are allowed to have the maximum 
involvement of both parents in their lives. In particular, we 
need to provide a support structure for all fathers. We need to 
enable and encourage them to be there for there children. When 
you have a weak link in a chain, you support the weak link. It 
makes no sense to put so much strain on that link that you 
practically ensure that it will break. AFC suggests that this 
is exactly what have done . . . encouraged the link to break . 
. . and we have allowed it to remain broken.
    Congress has taken a very active role in trying to ensure 
that children's needs are met. But, with regard to parents, 
those efforts have been primarily focused on the financial 
needs of children. Until now, the arguably more important needs 
of children . . . the physical, emotional and psychological 
needs have received far less attention than they deserve.
    Some detractors to father involvement suggest that this is 
an area that is best left up to the states. And it may be. 
However, the same rational that prompted Congress to get 
involved in the financial support of children would also 
clearly justify Congress' involvement in these other areas, 
too. As a matter of fact, pursuing efforts to maximize father 
involvement in children's lives may be the most productive and 
most cost effective means of financial child support 
collection. Census Bureau Statistics, based on mother-only 
reporting and a host of reputable studies show a direct 
correlation between father involvement and financial child 
support compliance. Where fathers have joint-custody 90.2% pay 
all of their support on time and in full. Where fathers have 
visitation, almost 80% (79.1%) pay all of their support on time 
and in full.
    With the vast majority of child support cases being non-
TANF cases, Congress should allow divorced dads to participate 
in Congressional fatherhood initiatives, too.
    Thank you.

         Additional Resources--Women May Be Inhibiting Greater 
                           Father Involvement

    With dual-income families now the norm, why are many women still 
carrying the majority of the responsibility for housework and child-
care? Is it because of the ``lazy husband'' who only wants to watch TV 
when he returns home, or the ``macho man'' whose responsibility it is 
to take out the garbage, not change a diaper? While fingers have 
pointed at men, new research looks at the other side--how women may 
inhibit the collaborative efforts they are requesting.
    The current issue of the Journal of Marriage and the Family 
includes the first study to define and empirically document ``maternal 
gatekeeping.'' The study explores how women's beliefs and behaviors may 
actually be one of the potential factors inhibiting a collaborative 
effort between men and women in housework and child-care. The article 
is based on a sample of 622 dual-earner mothers.
    ``While many mothers in the work force feel they need more support 
in family work, most don't even realize their actions may be placing 
obstacles in the way. They, themselves, may be limiting the amount of 
their husband's involvement,'' said Sarah Allen, author of the study 
and recent Brigham Young University graduate student.
    Maternal gatekeeping is defined as having three dimensions 
including the following:
    (1) Mother's reluctance to relinquish responsibility for family 
matters by setting rigid standards;
    (2) the need for external validation of one's mothering identity; 
and
    (3) traditional conceptions of family roles.
    Included in these dimensions is the various ways wives manage, 
exclude or choose their husband's levels and types of paternal 
participation in family work. According to the study, 20 to 25 percent 
of dual-earner wives may be classified as ``gatekeepers.'' It is also 
interesting to note that the conceptualized dimensions of maternal 
gatekeeping tend to be a ``package deal''; mothers higher in one 
dimension, were generally higher in the other two as well.

Standards and Responsibilities

    Some women discourage their husband's involvement by redoing tasks, 
criticizing, creating unbending standards or demeaning his efforts to 
protect authority in the home. This is most evident when wives act as 
household managers by organizing, delegating, planning, scheduling and 
overseeing the work done by husbands in order to maintain 
responsibility for the day-to-day aspects of family work. Their 
husbands, then, act as helpers by doing what is requested. But, this 
pattern may also encourage fathers to wait until they are asked to help 
and to request explicit directions.

Maternal Identity Confirmation

    Rather than issues of control and management, in this 
dimension of gatekeeping, it is common for a woman's self-
identity to be tied to how well she thinks others view her 
homemaking and nurturing skills. Because of this belief, she is 
more likely to resist her husband's involvement, as it would 
diminish her value.

Differentiated Family Roles

    Differentiated family roles refer to roles for mothers and 
fathers that reflect a clear division of labor and distinct 
spheres of influence. Here, a mother who thinks family work is 
primarily for women may be hesitant to encourage paternal 
involvement and increase the likelihood she will monitor her 
husband's involvement.
    As stated in the study, some women both cherish and resent 
being the primary care-giver, feel both relieved and displaced 
with paternal involvement, are both intentional and hesitant 
about negotiations for more collaborative sharing, and feel 
guilty and liberated with more involvement from men in family 
work. This ambivalence about increased paternal involvement 
serves to keep the gate to the domestic garden periodically 
swinging open and closed with gusts of wind invisible to 
fathers.
    ``This is a very complex subject filled with a variety of 
gender issues,'' said Alan Hawkins, second author of the study 
and director of the BYU Family Studies Center. ``While the term 
has been loosely used in the field, no one has previously 
investigated its many dimensions or adequately defined it. With 
more attention to these issues, perhaps more mothers will be 
able to achieve greater collaboration with their partners.''
    The maternal gatekeeping study was conducted and written by 
Sarah M. Allen and Alan J. Hawkins, research associates of the 
BYU Family Studies Center. Alan is one of the few graduate 
students to have her master's thesis published in the premier 
journal in the field.
    BYU Family Studies Center The Brigham Young University 
Family Studies Center is dedicated to conducting quality family 
research and providing valuable information to families that 
will enhance their lives. The Center has the largest 
concentration of family research faculty in the nation and is 
eager to become a valuable resource for family related issues.

                                Abstract

    The purpose of this study was to explore contact fathers' 
involvement in their children's schooling. Twenty fathers were 
interviewed and data analysis sought to describe and interpret 
common patterns and themes. Four key findings emerged from the 
study:
    (a) all fathers who participated expressed a strong desire 
for school involvement, and believed they had a responsibility 
to be involved;
    (b) the majority of fathers were not currently involved;
    (c) the majority of fathers reported that they were 
prevented from or obstructed in their efforts to become 
involved;
    (d) fathers reported that the loss of their children was 
the major consequence of separation and divorce and that this 
sense of loss extended to loss of involvement in their 
children's schooling.
    The findings from this study will be of relevance to 
practitioners and policy makers in law, education, and mental 
health in developing policies consistent with changes to 
Commonwealth Family Law.

                                <F-dash>


Statement of Cory J. Jensen, Legislative Assistant, Men's Health 
Network

    The Men's Health Network welcomes the opportunity to submit 
testimony on the issue of fatherhood. The Human Resources 
Subcommittee as well as the current Administration should be 
applauded for recognizing fathers as an integral part in their 
children's lives. As current fatherhood initiatives are being 
considered we must make efforts to reduce the barriers that 
keep fathers from becoming involved with their children. We at 
the Men's Health Network are concerned that any programs 
undertaken could be subject to fail due to problems caused by 
the Bradley Amendment.
    Based on a brief survey which included responses from 
thirty-six states, fathers identified arrearages as a factor 
keeping them from becoming more involved with their children. 
Many of these arrearages accumulated due to illness, 
unemployment or underemployment. Such arrearages might be 
called ``ghost arrearages,'' arrearages that would not exist if 
the child support order had been modified, based on the 
parent's actual income, to properly conform with the state's 
guidelines. These fathers want to be responsible and pay for 
their child support, but they simply do not have the means to 
pay. Once these fathers obtain a job that allows them to 
contribute to the upbringing of their children, they are 
already thousands of dollars in debt and financially ruined. 
The courts have recognized that child support often times needs 
to be modified in accordance with the father's ability to pay. 
Yet the court's ability to modify a child support order is 
hampered by the Bradley Amendment [PL 99-509 Subtitle B Sec. 
9103].

                   Bradley Amendment Impedes Progress

    Federal law requires that a child support ordered be 
adjusted (or modified) at the request of either parent, to 
match the parent's ability to pay either more or less child 
support. However, the Bradley Amendment passed Congress in 1986 
and states that a child support order cannot be modified 
retroactively under any circumstances, except to the date that 
a modification was filed and the other party was served. In 
many circumstances, fathers are not aware that they can file to 
have their child support changed if they become unemployed or 
are unable to work due to a medical condition or injury. During 
an extended hospital stay, arrearages can accumulate to 
incredible levels. Unfortunately the court cannot modify these 
arrearages to the initial point a father's earning level is no 
longer adequate vis-a-vis his child support payment.
    Amending the Bradley Amendment to allow judicial discretion 
would be strongly advised. Judges can determine the difference 
between a father that cannot pay his child support due to a 
legitimate reason and the father that willfully chooses to not 
pay his child support.

                    State Legislators Ask for Relief

    Attached to this testimony are letters by state legislators which 
stress the problems that they have found in relation to the Bradley 
Amendment. For instance, the Oklahoma State Legislature has found the 
Bradley Amendment to be impeding on their ability to effectively pass 
their own laws.
    <bullet> Jim R. Glover, Speaker Pro Tempore Emeritus, of the 
Oklahoma House of Representatives, wrote:

          ``. . . the Bradley Amendment superceded legislation that was 
        intended to allow finding and establishing of truth and being 
        fair in paternity cases, specifically a marriage where a wife 
        had an adulterous affair that resulted in a child being born 
        that was not her husband's.
          ``. . . similar situations . . . because of the Bradley 
        Amendment. A temporary child support order cannot be 
        retroactively modified after a paternity determination finds an 
        accused man not to be the father of an out-of-wedlock birth. . 
        . . where a parent was given their children to raise by the 
        other parent, who never modified a child support order, only to 
        be assessed the unpaid child support . . . at a later date. . . 
        . citizens who have paid child support through a non-official 
        process, where the parent is then forced to pay a second time. 
        . . . other instances where an injured parent does not or 
        cannot modify child support, who loses income, and then becomes 
        recorded as another nonpayor with arrearages.
          ``Apparently the intention of this Federal Law is that it is 
        more important to collect money from anyone as child support 
        than allowing the truth to dictate what is fair.''
    <bullet> Fellow State Representative Bill Graves also expressed his 
displeasure with the Bradley Amendment:

          ``I am hopeful that the Congress will repeal the Bradley 
        Amendment involving child support matters . . . the Bradley 
        Amendment is not only unconstitutional, it is unwise and 
        unrealistic.
    <bullet> Oklahoma State Senator and Family Law Attorney, James A. 
Williamson indicated his experience of how the Bradley Amendment 
adversely affects the modification of child support:

          ``In those cases, when a non-custodial parent has, by 
        agreement, taken over physical custody and there is no formal 
        change of the Court Order, the modification of the child 
        support should be effective as of the date of the change of 
        custody. The Bradley Amendment currently prohibits that 
        effective date. I therefore respectfully suggest Federal Law be 
        amended to allow for those circumstances.''

                             Case Examples

    While the Bradley Amendment effectively ties the hands of 
state legislators, its largest impact is on the fathers and 
mothers that suffer unreasonable arrearages. These arrearages 
also have the effect of alienating the children from the parent 
saddled with such a large debt, discouraging marriage, and 
destroying 2nd families. Many of these fathers are candidates 
for the very fine fatherhood programs being contemplated by 
this committee or currently being implemented by the 
Administration.
    Here is just a small sampling of the hundreds of responses 
received by the Men's Health Network.
    Arizona.--After downsizing at a major international 
airline, a father was forced to either take a job in a new 
location outside of the state or to find a new job and stay 
near his daughter whom he has joint-custody of. He chose to 
stay in Arizona and seek new employment. A reduction in child 
support was denied, as it was determined that he left his job 
voluntarily to seek a lower wage job. Over a three year period, 
arrearages have accumulated to over $10,000.
    California.--A father is arrested for failure to pay child 
support and arrearages. Arrearages accrued due to father's 
inability to work after an automobile accident placed him in 
intensive care and subsequent nine-month recovery.
    Connecticut.--A father accrued arrearages after he lost his 
job due to work-place restructuring. When seeking modification 
of child support order arrearages continued to accumulate due 
to court delays.
    A father accrued arrearages after losing his job due to 
disability. Arrearages continue to accumulate at the level of 
his previous income, not at present level of disability 
payments.
    Delaware.--Father on disability. His children received 
payments as a result of his disability. However, his child 
support was not modified and he was not credited for the 
children's share of his disability payments directly to their 
mother. As a result, he accrued unmanageable arrearages.
    A father was laid off work at a refinery. Long term 
unemployment resulted in unmanageable arrearages.
    Florida.--A father accrued arrearages after a hernia 
operation and subsequent inability to work.
    A father accrued arrearages after child support order was 
not modified once he became the custodial parent.
    A father placed on disability accrued arrearages.
    Georgia.--Several cases of fathers who have lost their jobs 
and fallen so far behind on child support that they could not 
make up their arrearages.
    A father accrued arrearages after he became disabled and 
was jailed after he was unable to pay.
    Illinois.--A father injured from a serious auto accident is 
forced to find a less physically demanding and unfortunately, 
lower paying job and accrued arrearages that he could not pay.
    Massachusetts.--A divorced father lost his $72,000 a year 
job and was forced to move to California to find work in a 
related field at $20,000 less a year. Mother moved with 
children to Pennsylvania. Father accrued $83,000 in arrearages 
due to period of unemployment and long delays from conflicting 
court jurisdictions while trying to get the support order 
modified.
    A father accrued $10,000 in arrearages due to an accounting 
error at the department of revenue.
    A father accrued arrearages because child support was 
assessed at the non-custodial level even once the children came 
to live with him.
    Michigan.--A father accrued arrearages after the Friend of 
the Court based his child support payments on an income not in 
accordance with his actual income.
    A father accrued arrearages while recuperating from back 
surgery.
    Nevada.--A father lost his job due to company downsizing. 
After finding a job that paid less he filed for a reduction in 
child support, but accrued arrearages in lieu of a court 
decision.
    New Jersey.--A father accrued arrearages due to court 
delays in assessing his child support order.
    New York.--A disabled father accrued arrearages when the 
deductions from his disability check were not credited toward 
his child support payments. Additional arrearages were 
accumulated due to improper coordination between the courts in 
New York and New Jersey, where his children live with their 
mother.
    A father accrued arrearages due to illness and 
unemployment. After becoming ill with hepatitis, he was laid 
off due to unavailability of sick leave.
    North Carolina.--A disabled veteran had his child support 
order placed at the level of his ``potential earnings'' instead 
of at the current level of his disability payments. Unable to 
pay the monthly support order, which exceeded his monthly 
income level, he was considered in contempt of court and sent 
to jail.
    Ohio.--A father accrued arrearages after being laid off. 
Additionally, child support order was based on child being 
placed in full time day care although the child is now older 
and attends school.
    Pennsylvania.--A father accrued arrearages while unemployed 
yet child support order was maintained at a level in accordance 
with his previous income.
    South Carolina.--A father accrued arrearages due to being 
laid off from job.
    Tennessee.--A father accrued arrearages due to inability to 
work after a work-related accident.
    Texas.--A mother accrued arrearages due to unemployment and 
health problems.
    A father lost his job when the company he worked for 
closed. He accrued arrearages during his long period of 
unemployment.
    Virginia.--A father is held in contempt as he failed to pay 
his arrearages due to a broken collarbone and pending surgery.
    A father accrued arrearages while unemployed even though he 
was the custodial parent.

                               Conclusion

    While this is only a small sampling of cases, it 
demonstrates the problems inherent with the Bradley Amendment. 
Although these hearings do not specifically address the Bradley 
Amendment, we feel that members of Congress should know that 
the fine fatherhood initiatives being promoted by both the 
Administration and Congress cannot meet expectations as long as 
the men who participate in those programs are burdened with 
child support arrearages that are unreasonable and do not 
reflect their earning capacity during the period that the 
arrearages accrued.
    Further, society's goal of encouraging marriage among this 
population is impeded when these fathers are burdened with 
``ghost arrearages,'' debt that would not exist were it not for 
the Bradley Amendment. Arrearages also hurt second families 
when this improper debt overcomes a struggling family's ability 
to cope with unemployment, illness, or injury. Courts need the 
flexibility to help create a family, but potential wives will 
be reluctant to marry a man, even if they have a child 
together, if it means that she is marrying an unmanageable 
debt.
    To that goal, we are suggesting changes in the Bradley 
Amendment which will allow a court to modify an order 
retroactively unless the arrearage was accrued during a period 
when the person could have paid but willfully chose not to do 
so.

                                <F-dash>


                                   House of Representatives
                                          State of Oklahoma
                                                     April 22, 1999
Mr. Cory Jensen
Men's Health Network
P.O. Box 75973
Washington, D.C. 20013

Re: Committee on Ways and Means

    Dear Mr. Jensen:

    In my tenure as an elected member of the Oklahoma State House of 
Representatives and now holding the position and title of Speaker Pro 
Tempore Emeritus, there have been numerous instances where Federal Law 
has superceded the ability of the people of the State of Oklahoma to 
determine what is best for Oklahomans. Nowhere has this been more 
apparent than when it comes to laws that impacts the family, family 
dissolution, or instances where families never form after an out-of-
wedlock birth. I have seen numerous instances where members of state 
agencies such as the Department of Human Services and the Division of 
Child Support Enforcement have interfered with, or opposed good 
legislation because of possible conflict with Federal Law.
    This year the Oklahoma House of Representatives passed unopposed a 
bill that would clarify paternity establishment and afford protection 
to a husband who knew a child born in marriage was not his. This bill 
was killed in Senate Committee after a letter was received from a 
Federal Child Support Enforcement Official from the Dallas Regional 
Office threatening to cut off Federal Funding for Social Programs in 
Oklahoma. It was later discovered that three words in the bill needed 
to be changed and these words were to clarify retroactive modification 
of child support because of the Bradley Amendment. The impact of this 
letter and the Bradley Amendment (P.L. 99-509, Subtitle B, Sec. 9103) 
superceded legislation that was intended to allow finding and 
establishing of truth and being fair in paternity cases, specifically a 
marriage where a wife had an adulterous affair that resulted in a child 
being born that was not her husband?s. Apparently the intention of this 
Federal Law is that it is more important to collect money from anyone 
as child support than allowing the truth to dictate what is fair.
    Apparently similar situations of being unable to correct an 
injustice can exist in many other instances because of the Bradley 
Amendment. A temporary child support order cannot be retroactively 
modified after a paternity determination finds an accused man not to be 
the father in an out-of-wedlock birth. I have heard plenty of instances 
where a parent was given their children to raise by the other parent, 
who never modified a child support order, only to be assessed the 
unpaid child support plus arrearages at a later date--effectively 
paying twice and to a parent who did not provide support. There have 
also been complaints from citizens who have paid child support, through 
a non-official process, where the parent is then forced to pay a second 
time. There are other instances where an injured parent does not or 
cannot modify child support, who loses income, and then becomes 
recorded as another non-payer with arrearages.
    It is time to let the State of Oklahoma decide when it is 
appropriate to give judges discretion to retroactively modify child 
support so that it can be fair to all. It is time for Congress to give 
the State of Oklahoma the autonomy to determine what is in the best 
interest of the citizens of Oklahoma.
            Sincerely yours,
                                      Jim R. Glover
                               Speaker Pro Tempore Emeritus
                                                  House District 65

                                <F-dash>

                                   House of Representatives
                                          State of Oklahoma
                                                April 22, A.D. 1999
Mr. Cory Jensen
Men's Health Network
P.O. Box 75973
Washington, DC 20013

Ref: Committee on Ways and Means

    I am hopeful that the Congress will repeal the Bradley Amendment 
(P.L. 99-509, Subtitle B, Sec. 9103) involving child support matters. 
First, under the Constitution, Congress has no powers in regard to 
domestic relations matters. Under Article 1, Sec. 8 of the 
Constitution, the Congress has only certain enumerated powers. James 
Madison, the so-called Father of the Constitution, said the Federal 
government had only certain enumerated powers and that all the rest 
were left to states. This is made clear by the 10th Amendment to the 
Constitution which provides: ``The powers not delegated to the United 
States by the Constitution nor prohibited by it to the states, are 
reserved to the States respectively, or the people.''
    Thus, for Congress to legislate in the matters of child support or 
child custody, such as the Bradley Amendment does, is an 
unconstitutional use of powers. Congress should not interfere with the 
rights of the States to decide matters in this area through their own 
elected state legislators.
    In addition to the foregoing, the Bradley Amendment creates 
problems in cases where a non-custodial parent has, by agreement, taken 
over physical custody of the child even though there is no formal 
change of court order. The Bradley Amendment prohibits a modification 
of child support in this circumstance being effective as of the date of 
the change of custody. Thus, the Bradley Amendment is not only 
unconstitutional, it is unwise and unrealistic.
            Very truly yours,
                                                Bill Graves
                                     State Representative, Dist. 84

                                <F-dash>

                                      Oklahoma State Senate
                                                     April 22, 1999
Mr. Cory Jensen
Men's Health Network
P.O. Box 75973
Washington, DC 20013

Re: Committee on Ways and Means

    I have been requested to submit a letter indicating my experience 
as a Family Law Attorney with the issue of modification of child 
support.
    I have been in Family Law practice 23 years in Oklahoma and I have 
found that many times parties make post-decree agreements which are not 
reduced to a Court Order. In those cases, when a non-custodial parent 
has, by agreement, taken over physical custody and there is no formal 
change of the Court Order, the modification of the child support should 
be effective as of the date of the change of custody. The Bradley 
Amendment currently prohibits that effective date.
    I therefore respectfully suggest Federal Law be amended to allow 
for those circumstances.
            Sincerely,
                                        James A. Williamson

                                <F-dash>

Statement of Richard ``Casey'' Hoffman, President, National Child 
Support Enforcement Association, and President, Child Support 
Enforcement, Austin, Texas

    Chairwoman Johnson, Representative Cardin, and 
distinguished members of this Subcommittee: I am writing to 
submit written comments of the National Child Support 
Enforcement Association (NCSEA) for the Subcommittee's April 
27, 1999 Hearing on Fatherhood.
    However, first I want to thank you for your long-standing 
commitment to issues that affect families--fathers, mothers, 
and children alike--and particularly for this Subcommittee's 
focus on improving aspects of the child support enforcement 
program. As you know, the National Child Support Enforcement 
Association is a national, non-profit organization over 50,000 
professionals that, through education, training, and advocacy, 
works to ensure that children receive financial and emotional 
support from both parents--mothers and fathers alike. As you 
prepare to delve into the issues related to fatherhood in this 
country, and perhaps respond with new legislation, NCSEA would 
like to share with you our perspective and recommendations.

                         NCSEA Recommendations

    NCSEA's statement today reflects our unique vantage on the 
intersection of programs that serve fathers and the state-federal child 
support enforcement program that serves families. NCSEA urges committee 
members to incorporate the following two recommendations into any 
forthcoming legislation related to fatherhood:
    <bullet> Allow state Title IV-D child support enforcement programs 
to administer any congressionally authorized and appropriated funds to 
the states for the purpose of promoting responsible fatherhood to help 
young men become better fathers and providers; and
    <bullet> Require fathers to establish paternity in order to be 
eligible to participate in any responsible fatherhood initiative.

Background

    There is a growing recognition that responsible, loving fathers 
make a valuable contribution to the well-being of their children and to 
society. It is also clear that children who grow up without a 
responsible father in their lives are more likely to be poor, to drop 
out of high school, to end up in foster care or juvenile justice 
facilities, to bear their own children out of wedlock, and to be under-
employed as adults.
    More than any other agency in state government, the child support 
program is in a position to reach out to fathers separated from their 
children--to provide benefits and to benefit from supporting 
responsible fatherhood initiatives. Fathers who are employed are better 
able to pay child support and support their children, as are fathers 
who have a positive involvement in the lives of their children.
    Child support agencies are already involved in forging 
relationships with fathers. The national child support community has 
already begun to forge relationships with community-based organizations 
providing services to fathers--often at the initiation of the 
community-based organizations that recognize the importance of 
establishing paternity and paying child support as a key element of 
responsible fatherhood.
    In the Personal Responsibility and Work Opportunity Reconciliation 
Act of 1996 (P.L. 104-193), Congress recognized the important role the 
child support program plays in promoting responsible fatherhood by 
requiring states to establish paternity for 90% of the children born 
out of wedlock and by including the block grant for access and 
visitation programs in the child support title of the Act.
    Child support agencies' involvement will provide consistent, 
comprehensive message development. Appropriating any block grant or 
other funds through the state child support agency will ensure that the 
message of responsible fatherhood is consistent and comprehensive, 
including the message that establishing paternity and providing 
financial and emotional support are critical to child well-being. 
Indeed, a father who fails to establish legal paternity has no legal 
standing under the law with respect to his child.
    Child support agencies provide a natural link to coordinate with 
TANF programs to develop self-sufficiency. An effective responsible 
fatherhood initiative for low-income fathers should be coordinated with 
the state TANF agency, so that there is a comprehensive strategy to 
develop self-sufficiency for the family. The child support agency 
already has such a relationship with the TANF agency, including with 
computer data that links mothers and fathers.
    Child support agencies already require mothers to cooperate to 
receive services and are in an ideal position to instill such 
responsible decision-making in fathers as well. Establishing paternity 
should be a condition of receiving services from a responsible 
fatherhood program. These programs are intended to provide assistance 
in getting a job or improving job skills, as well as to develop or 
enhance parenting skills. In return for receiving these services, the 
father should assume legal responsibility for his child through 
paternity establishment.
    Moreover, Congress has already increased the cooperation 
requirements on mothers; they now are required to name the father of 
their children and to cooperate in establishing paternity for their 
children in order to receive government benefits such as cash 
assistance. If mothers fail to cooperate, they are subject to sanctions 
that range from a 25% reduction in benefits to no benefits at all for 
the family. Fathers should also be required in order to receive 
fatherhood services to enhance job and parenting skills.
    Child support agencies are already expected to increase fathers' 
role in families through welfare reform's new national goal of 
increasing paternity establishment. Finally, as noted, Congress has set 
very ambitious standards for states to establish paternity in 90% of 
the cases of children born out of wedlock--in recognition of the 
importance of the role of fathers in their children's lives. Requiring 
the fathers to cooperate will help our country achieve this goal.

                               Conclusion

    Child support enforcement agencies touch the lives of the 
families that need assistance the most from fatherhood programs 
and of the children who need their fathers. A united approach 
to family building will result in a better future for children. 
I urge members of this Subcommittee to seriously consider 
adopting NCSEA's recommendations if we are to fund coordinated, 
effective fatherhood programs.
    Thank you for holding this important hearing on fatherhood 
and for the leadership that you and other Committee members 
provide on such critical family issues. Your work will have a 
lasting impact on those American children who live in single 
parent households.

                                <F-dash>


Statement of Gregory J. Palumbo, Ph.D., Oklahomans For Families 
Alliance, Oklahoma City, Oklahoma

                 The Removal of Fathers from the Family

    What is the status of families in Oklahoma? Oklahoma has 
one of the highest divorce rates in the nation, one of the 
highest rates for out-of-wedlock births, one of the highest 
rates of teen pregnancy, and one of the lowest rates of 
paternity establishment. The marriage rate in Oklahoma has 
plummeted since 1980 so that now Oklahoma has nearly equal 
numbers of marriages and divorces. The rapid decline of two-
parent family structure in which to raise children in Oklahoma 
has coincided with the passing of Federal Laws and Federal 
Agency policies, enacted by the State of Oklahoma, that provide 
incentives for broken families. Fathers have almost exclusively 
been the targets of these laws and policies with the true 
losers being the children.
    Unfortunately, many of the behaviors that result in these 
negative social indicators for children are learned, and passed 
down from generation to generation as the welfare and 
entitlement philosophy and programs demonstrate. Oklahoma and 
the nation have promoted policies that devalue the importance 
of a two-parent family and make it easy for families to never 
form, hinder their formation, and make it far to easy to 
dissolve a marriage . . . especially when children are 
involved. What has in affect been done through policy and law 
is that one parent can to do what is in the best interest of 
the parent, without accountability or having to take 
responsibility for choices, that ultimately put children at 
risk and in harms way. In almost every case, it is fathers who 
have been driven from their families or have never been allowed 
to enter, creating the next generation of fatherlessness and 
children at risk.
    In the mid-1960's Daniel Patrick Moynihan predicted the 
outcome of driving fathers from families in order for mothers 
to qualify for welfare benefits . . . society would pay a price 
for fatherlessness with increased social problems. Senator 
Daniel Patrick Moynihan was right. The consequences of 
fatherlessness for children, for being raised in a broken home, 
are associated with dramatic increases in suicides, being 
homeless or runaway, exhibiting behavioral disorders, 
performing poorly in school, becoming a high school dropout, 
becoming teen mothers, and filling prison beds.
    Legislation that affects the family is unequivocally the 
most important bills considered in the State and the Nation, 
and their enactment into law affects everyone--today, tomorrow, 
and for future generations to come. So why has this nation 
taken family structure made of two parents, a structure that 
worked for millennia, and in a short 40 years created 
incentives to destroy it?
    There was a lesson to be learned from the welfare 
experiment that failed. In 1960 there was over 700,000 families 
receiving AFDC. And as more entitlement programs were added to 
the welfare package, the numbers of single parent families 
headed by mothers rose dramatically so that by 1994 there were 
over 5 million of these families, over a 700% increase in 
welfare families while the nations population hadn't doubled, 
with more than 15% of all families with children under 18 now 
receiving AFDC and numerous other entitlements. Generational 
welfare was occurring whereby a family on welfare produced the 
next generation of welfare recipients and non-welfare mothers 
were being recruited into the program. Fathers were excluded 
from these families by law, in order for mothers to qualify for 
welfare benefits, with the end result that children were being 
raised without the presence of a father or the stability of a 
two-parent family. We now have a need to teach young men how to 
be fathers as a consequence of this policy. Money and benefits 
paid to only one parent for having children, and excluding a 
parent that was almost always the father, were the incentives 
that caused the destruction of two parent families for the 
poor. We now repeat this process through cash incentives for 
divorce, but now we call it child support.
    It is clear to see how laws of good intention were twisted 
due to money. As the number or welfare recipients increased, so 
did the budget, and so did the bureaucracy, and so do taxes. 
According to the Heritage Foundation, the total state and 
federal expenditures for welfare benefits exceeds 500 billion 
dollars. The cost to society for the criminal legal and prison 
industries costs another 500 billion dollars per year . . . 
incarcerating mainly children raised in fatherless homes. This 
does not include the 100s of billions in dollars in costs we 
must pay because of divorce or the subsequent problems 
associated with broken families. And as the family consisting 
of a father and mother and children disappears, the federal and 
state budgets continue to increase, as we need more programs to 
deal with the problems created by raising children in broken 
families.
    There is a crisis in America because of out of wedlock-
births and divorce. Nearly one third of all births today are 
out-of-wedlock, and over half of divorces today involve 
children under 18, with 50% of these occurring when the 
children are younger than 5 years of age. Approximately 1.5 
million parents with children join or add to the ranks of 
families with children at risk every year--who are being raised 
absent one biologic parent--the father. Yet less than 10% of 
biologic fathers have primary physical custody of their 
children after divorce, separation, or because the children 
were born out-of-wedlock. Then, only one in 6 children see 
their father weekly after divorce or separation. And ten years 
after divorce or separation only 1 in 10 have weekly contact 
with their father, and 66% have no contact what so ever. When 
fathers are so important for the well being of their children, 
both financially and emotionally, why does Oklahoma and the 
nation continue to provide incentives to exclude fathers from 
families and their children? Why have we replaced a failed 
welfare and entitlement policy with a private entitlement 
policy funded by fathers in the name of child support which was 
mandated by the Federal Government in laws passed since 1975? 
Money and jobs can be the only answer since the surest way to 
remove children from poverty is to raise them in an intact two 
parent family, and not raise them in a single parent family.
    Our state laws and their treatment of fathers today are not 
much different than the laws that created the welfare problem, 
providing financial incentives to states, an industry, and one 
parent to drive fathers from families. You may ask why do we 
not have legislation in Oklahoma that promotes marriage and 
ensures children have two parents? Follow the money to see who 
benefits. There are cash incentives in the form of block grants 
from the federal government to the states for broken families. 
Broken families also provide jobs programs. In 1994, California 
received a net income to its general revenue fund of 108 
million dollars in federal block grant dollars above its costs 
for child support enforcement. It made money from broken 
families. It also spent over 355 million dollars in child 
support enforcement . . . huge jobs program for the state. 
Oklahoma in contrast received 2.6 million dollars in net income 
to the state while spending 18.6 million dollars on child 
support enforcement. This cash flow for broken families will 
continue to increase dramatically as more states receive more 
dollars for broken families in the form of these federal block 
grant reimbursements. In 1998 there were over 60,000 employees 
in federal and state child support enforcement divisions while 
there were only a little over 100,000 IRS employees. And for 
all of these employees, the cost of this enforcement was over 1 
billion dollars more than the money collected for families on 
welfare as reimbursement to the taxpayer for these expenses, 
which was the original purpose for establishing child support 
enforcement. The bottom line is that broken families are 
profitable to states and to too many groups including private 
business, and they provide clients for social programs and the 
criminal justice industry.

             Young Men Want to be Fathers to Their Children

    In 1998 The Oklahoma Fatherhood Program of COPE, Inc. held 
fatherhood classes in the Oklahoma County Juvenile Detention Center as 
a pilot program. There was only sufficient time and space to enroll 
young teenage fathers while the program was offered. Almost every one 
of the young men enrolled in our classes came from a broken home absent 
their biologic father, and they were now fathers to children born out-
of-wedlock. They were repeating the cycle of their childhood. Some of 
the mothers of their children already had new boyfriends (approximately 
15-20%) driving some of the young fathers out of the lives of their 
children. Yet all of these young men in a few short weeks demonstrated 
they had a desire to be a father to their child(ren). Each went through 
parenting class, watched instructional videos, participated in 
discussions on fatherhood, etc. Every one of the participants in the 
class exhibited a real commitment to be a part of their child's life. 
The Fatherhood classes ended when the funds for the pilot program 
expired.
    There are other examples that demonstrate men wish to be parents 
for their children. The voluntary paternity establishment program run 
by the Office of Child Support Enforcement and state agencies is one. 
Approximately 80% of men identified by the mothers as the father of 
their child show up in the hospital for the birth, even though 
paternity establishment through DNA testing will demonstrate many are 
not the biologic father. Then there are numerous fathers after divorce 
who spend thousands of dollars trying to enforce access and parenting 
time orders so that they can see their children. If fathers did not 
care about their children, fathers wouldn't try to remain involved in 
their child's life after divorce, and one would expect fathers to be 
the driving force behind divorce--yet mothers file the vast majority of 
divorces for no better reason than a bad hair day according to research 
by Dr. Sanford Braver. Then there are studies which indicate many 
mothers see no need for father involvement in rearing children, and 
further, that many mothers interfere with a father's access to his 
child(ren). Many of the problems fathers have had in being a parent to 
their children can be traced to Federal policies and laws that have 
rewarded states for broken families with a focus on money and child 
support. It is clear from the Congressional Record of the 1980's that 
it was not the intent of Congress to promote only the financial support 
of children by the legislation being considered, and that was made into 
law, but that emotional support for children should also receive 
priority. Unfortunately states and custodial parents do not receive 
money for the emotional support of children so there has been little 
legislative activity or enforcement in this area.

                Father Cleansing through Policy and Law

    Federal and state laws that paid a mother to not marry the father 
of her children was bad public policy, yet now it is being expanded 
through privatization. In order to maximize the financial support of 
children and mothers, Federal Law superceded state laws for 
establishing child support obligations based on the needs of the 
children and circumstances of the parents. Again the Federal government 
has its fingerprints all over these destructive policies. First came 
the laws, and then consultants for the Department of Health and Human 
Services and the Office of Child Support Enforcement began promoting 
child support guidelines to states that went well beyond the cost of 
raising children. One of these consultants has a child support 
collection company under contract to many states where they collect on 
both ends . . . raising child support guidelines and collecting child 
support. What is clear from data collected by the Census and analyses 
performed by others is that child support doesn't remove children from 
poverty and it likely never can or will. Why? Because poor people have 
children with poor people . . . parents who are unskilled, have less or 
little education, or have other limitations. The best way to remove 
these children from poverty is to promote marriage and provide both 
parents with the skills and education that will allow them a better 
future and less need for government assistance.
    Instead the nation has gone in an opposite direction . . . Federal 
law has subsequently mandated that fathers be defined as criminals upon 
failure to financially support their children regardless of 
circumstance. States have been more than willing to comply with Federal 
law by vilifying fathers and passing laws that punish fathers for 
failing to pay.
    What types of fathers are we punishing with these harsh laws? We 
have laws in Oklahoma and elsewhere in the U.S. that make a husband 
financially responsible for any child born in marriage, even if the 
mother had an adulterous affair and left her husband prior to birth of 
the child. We allow a mother of a child to withhold informing the 
father that she had a child out-of-wedlock, and then years later come 
back for back child support regardless of the man's current 
circumstances--like a second family and children to support. There are 
states that apparently do not care who the father is for paternity as 
long as some man is called the father and a child support order is 
entered. And then there are fathers who willfully raise their children 
full time for years after a mother leaves them in their care, only to 
find years later that they did not modify a child support order so they 
can now pay back child support to the parent that abandoned the child. 
We allow states to force a person to work overtime or obtain additional 
employment in order to survive after having to pay oppressive child 
support, knowing full well that the primary beneficiaries of the policy 
are federal and state tax revenue coffers, then the child/mother, and 
then the person earning the money. Federal and State law penalizes 
fathers who lose a job by making them debtors due to child support, 
often with interest added to the debt, and possible imprisonment. There 
are mothers who are being forced to work because their husbands can't 
keep any of the extra income they earn due to child support and taxes, 
thus robbing children of their parent's time. There are fathers and 
their wives who are distraught because the father needs medical care 
that will prevent him from having income and paying child support for 
several weeks or more . . . making him a deadbeat and a debtor with a 
possible prison term. Many of these problems are due to one specific 
Federal law . . . the Bradley Amendment (P.L. 99-509, Subtitle B, Sec. 
9103) that prevents retroactive modification of child support when 
warranted. Congress needs to modify this law so real circumstances can 
be taken into account when it comes to child support obligations, and 
let the states decide how best to do this.
    Where are the studies examining how many fathers have been legally 
cutoff from their children and families, financially bankrupted by the 
child support policies and laws, who have lost careers or businesses by 
becoming entangled in this quagmire of flawed social policy and law, 
who have spent their retirement accounts trying to stay up to date on 
child support, that have had to give up seeing their children because 
the mother moved with the children or interferes with access, or who 
have been sent to county, state, or federal prison? Why is it that all 
we hear about is the dollars collected, the dollars owed, and the 
newest laws that will further vilify and punish fathers whiling growing 
federal and state government bureaucracies and industries that are 
parasites of the intact two-parent family and children? How have we so 
lost our way in a short 40 years?

                      A Solution to Fatherlessness

    The federal financial incentives for broken families must end if we 
are to re-establish the intact two-parent family as the norm--an 
environment where for millennia children and society have flourished. 
We must as a nation hold both parents of children truly accountable for 
financial and emotional child support, thus removing the financial 
incentive for one parent to divorce or never marry. We must change laws 
like the Family Support Act of 1988 that has served as a family 
destruction incentive act, a divorce industry and government 
bureaucracy growth and reward act by reinserting discretion, 
circumstances, and common sense when setting child support awards. We 
must modify the Bradley Amendment (P.L. 99-509, Subtitle B, Sec. 9103) 
that prevents retroactive modification of child support when warranted. 
Making a father into a debtor to the state or another parent due to 
child support will not solve the problem of children being raised in 
poverty, but will drive fathers from the life of their children. 
Congress needs to modify this law so real circumstances can be taken 
into account when it comes to child support obligations, and let the 
states decide how best to do this. We must begin to disassemble the 
federal and state bureaucracies that parastize families and promote 
their destruction using cash and other entitlements as the incentive, 
and redirect their efforts to education and promoting family formation. 
The damage done to men and fathers for 40 years must also be reversed. 
Men raised in fatherless homes and children experiencing it for the 
first time must be educated on the role of fathers in the family and in 
society. Women must be educated to the risks they expose their children 
to by having children out-of wedlock or after divorce. We as a nation 
must begin to reassemble two-parent family structure through public 
policy and law, by mainly removing the incentives for creating single-
parent families.
    It has only been in the last few years that Congress and the nation 
have begun to examine public social policies in regards to family and 
the role and importance of fathers. It is time for this Congress to 
act. As a first step in the reintegration of men and fathers into the 
family, Congress should pass the Fathers Count Act of 1998. Many young 
boys and men who have been raised absent a father have many of the 
social ills and characteristics associated with fatherlessness. These 
young men have many of the characteristics of long-term welfare 
dependants requiring assistance. These young boys and men need 
education, job skills, mental health and substance abuse treatment, 
family counseling involving the mothers of their children, 
transportation, etc. Most importantly these boys and young men need 
access to their children on a regular and continuing basis from birth 
onwards, so that they form the emotional bonds that are so important 
for the child's development and for themselves to remain involved in 
financially and emotionally supporting their children through life.
    Congress should approve substantial funding for the FATHERS COUNT 
ACT OF 1998 of at least $2 billion for nationwide and targeted 
fatherhood programs. Public relations campaigns should be instituted to 
educate the public to the needs children have for two biologic parents, 
and the risk mothers and their children face by choosing single-
parenthood, divorce, and a non-stable or non-traditional two-parent 
family lifestyle. The National Governor's Association should be urged 
by Congress to survey, examine, and identify state laws, policies, and 
procedures which discourage two-parent family formation and stability, 
or that criminalize fatherhood so that they may be rewritten or 
repealed. If this Congress takes steps now to recognize the importance 
of fathers in childhood development, then we as a nation can begin the 
21st Century promoting the involvement of both mothers and fathers in 
rearing children in an intact two-parent family within marriage, and 
the benefits that their children will receive from this traditional 
family structure.

                                <F-dash>

Statement of John R. Stoutimore, Attorney at Law

    1. At the time of John Rabon's divorce, Mrs. Rabon was given 
custody of the three children and Mr. Rabon was ordered to pay support 
by wage withholding.
    2. Texas Child Protective Services subsequently placed the children 
with Mr. Rabon after determining that Mrs. Rabon had abused and 
neglected them.
    3. In Texas, the Title IV-D agency is the Office of the Attorney 
General (OAG). Mr. Rabon requested the OAG's assistance in terminating 
his child support payments and obtaining support from Mrs. Rabon.
    4. After confirming that the children lived with Mr. Rabon, the OAG 
wrote Mr. Rabon's employer and instructed the employer to cease child-
support withholding.
    5. The OAG did not file a motion to terminate Mr. Rabon's child 
support obligation. Consequently, Mr. Rabon's child support liability 
remained in effect.
    6. Further, the OAG did not file suit to obtain child support 
payments from Mrs. Rabon.
    7. Because Mr. Rabon's child supportliability did not terminate 
when his employer ceased withholding, Mr. Rabon's 1998 income tax 
refund has been seized for ``child support arrearage.'' The children 
remain with Mr. Rabon.

                                <F-dash>

                                         John R. Stoutimore
                                            Attorney at Law
                                          Fort Worth, Texas
                                                     March 30, 1999
Men's Health Network
Attn: Ms. Tracie Snitker
P.O. Box 75972
Washington, DC 20013

Re: John Rabon

    Dear Ms. Snitker:

    In my family-law practice, I have met several child support 
obligors who have complained of (1) the OAG's wrongful seizure of 
income tax refunds to pay non-existent child-support arrearages; and 
(2) the OAG's refusal to seek modification of child support orders when 
the subject children have begun to reside with the obligor.
    John Rabon's case is a prime example. At the time of the Rabons' 
divorce, Mrs. Rabon was given custody of the three Rabon children and 
Mr. Rabon was ordered to pay support via wage-withholding.
    In February 1998, a Child Protective Services (CPS) caseworker 
determined that the children had been abused and neglected in their 
mother's care, and the children were sent to live with Mr. Rabon 
without court action. Shortly thereafter, Mr. Rabon requested the OAG's 
assistance in terminating his child support payments and obtaining 
support from Mrs. Rabon. The OAG asked Mr. Rabon to confirm his actual 
CPS-authorized custody of the children, so Mr. Rabon obtained a 
confirmation letter from the CPS caseworker. This 5/12/98 letter is 
attached as EXHIBIT A.
    Based upon the CPS letter and other information provided to the 
OAG, the OAG wrote Mr. Rabon's employer on 6/1/98 and instructed the 
employer to cease withholding. This letter is attached as EXHIBIT B.
    Now, by letter dated 3/5/99, the Department of the Treasury has 
notified Mr. Rabon that $1,071.00 of his income tax refund for 1998 has 
been withheld because of a child support arrearage asserted by the OAG. 
This letter is attached as EXHIBIT C.
    Mr. Rabon insists he had no notice whatever of any claimed 
arrearage and is now attempting to obtain a full return of the monies 
withheld. Too, he is considering filing a pro-se suit to terminate any 
technical arrearages as of the date the children began living with him, 
and to obtain support for the children from Mrs. Rabon. It appears to 
me that the OAG should file the case for him. Two issues present 
themselves:
    1. First, when the OAG learned that the children were living with 
Mr. Rabon, why didn't it file a motion to terminate Mr. Rabon's child-
support obligation and obtain support payments from Mrs. Rabon? The OAG 
knew that merely terminating the employer's withholding would not 
terminate Mr. Rabon's support liability, and it also knew that such 
letter would not obtain any support whatever from Mrs. Rabon.
    2. Second, although the OAG letter obtained temporary relief for 
Mr. Rabon, such relief was short-lived given that the OAG subsequently 
seized his tax refund. The OAG could assert that Mr. Rabon was already 
in arrears when the OAG instructed the employer to stop withholding--
but if that were the case, the OAG should not have stopped the 
withholding. Hence, we must conclude that the OAG seized Mr. Rabon's 
income-tax refund over a paper-arrearage that arose after the employer 
stopped withholding. In other words, the OAG letter caused the 
arrearage.
    Having experienced the OAG's reluctance to perform its duties in 
cases such as this, I believe any effort to correct these errors 
through local OAG personnel will be met with hostility or, at best, 
inaction. Can you provide me with a contact person responsible for 
investigating the OAG's actions in this case and obtaining relief for 
Mr. Rabon and the Rabon children?
    Please feel free to call or fax me at the above address. My e-mail 
address is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e6d6a716b6a7773716c7b7e5f5152105d515310">[email&#160;protected]</a>
            Very truly yours,
                                         John R. Stoutimore

[Exhibits A, B and C are being retained in the Committee files.]


                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
